<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION
                                 ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                       TOM COLE, Oklahoma, Chairman

  MICHAEL K. SIMPSON, Idaho              ROSA L. DeLAURO, Connecticut
  STEVE WOMACK, Arkansas                 LUCILLE ROYBAL-ALLARD, California
  CHARLES J. FLEISCHMANN, Tennessee      BARBARA LEE, California
  ANDY HARRIS, Maryland                  CHAKA FATTAH, Pennsylvania
  MARTHA ROBY, Alabama
  CHARLES W. DENT, Pennsylvania
  E. SCOTT RIGELL, Virginia

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                 Susan Ross, John Bartrum, Jennifer Cama,
              Justin Gibbons, Kathryn Salmon, and Lori Bias,
                            Subcommittee Staff
                                 ________

                                  PART 5

                                                                   Page
Department of Health and Human Services........................       1                                        
Corporation for National and Community Service.................     185
Substance Abuse and Mental Health Services Administration......     223
Department of Labor............................................     295



           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                        

                                  
                                ________

          Printed for the use of the Committee on Appropriations
                                ________
  
                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-342                         WASHINGTON : 2016 










                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey         NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                 MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                          PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                   JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                 ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                     DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                       LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                     SAM FARR, California
  TOM COLE, Oklahoma                          CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                  SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania               BARBARA LEE, California
  TOM GRAVES, Georgia                         MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                         BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                      STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                  TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                   C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee           DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington           HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                        CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                       DEREK KILMER, Washington
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                William E. Smith, Clerk and Staff Director

                                   (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2017

                              ----------                           

                                       Thursday, February 25, 2016.

        BUDGET HEARING--DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

HON. SYLVIA BURWELL, SECRETARY, DEPARTMENT OF HEALTH AND HUMAN SERVICES


                           opening statement


    Mr. Cole. Good morning, Madam Secretary. It is my privilege 
to open up the hearing.
    I just want to begin by telling you what a personal 
pleasure it is to have you here, and I mean that with all 
sincerity. I think you have--you are an exceptional public 
servant in your skill and your dedication and your 
bipartisanship.
    And so I look forward to working with you. We will 
certainly have some, you know, challenging questions for you 
this morning on both sides of the aisle, as we always do. But 
again, I know how seriously you approach the job and the effort 
that you put in, and I appreciate it personally very, very 
much.
    So my pleasure again to welcome you to the Subcommittee on 
Labor, Health and Human Services, and Education for our first 
hearing of the year. Looking forward to hearing your testimony.
    Madam Secretary, your responsibilities are many. There are 
many things in your budget that I think we can all agree are 
priorities and that we can collectively support. There are 
other areas we may disagree upon. The challenge that we'll be 
facing this subcommittee is how we can support the most 
critical programs and make the very best use of every taxpayer 
dollar entrusted to us.
    Unfortunately, your budget assumes many areas of tax 
increases, new user fees, changes in mandatory spending, and 
other spending sources that are beyond the purview of this 
subcommittee. I was especially disappointed to see your 
proposal to cut the National Institutes of Health.
    Your proposal to divert $1,000,000,000 of biomedical 
research funds to the mandatory side of the budget ledger and 
rely on new and perhaps unlikely authorizations to continue the 
advances we have made in increasing research funding were 
disheartening to me.
    I look forward to having a discussion with you this morning 
on the impact of these proposed cuts. I will also be asking 
some tough questions this morning about the ongoing management 
challenges at HHS. Problems of substandard quality in hospitals 
within the Indian Health Service and a continued slow-walking 
of investigations into alleged violation of the law as it 
relates to conscience protections continue to concern me 
greatly. I hope to learn more this morning on what you are 
doing to take positive steps in these areas.
    Finally, we are all keenly aware of the many external 
challenges facing your agency. The worldwide concern 
surrounding the Zika virus is but the latest example of this, 
and I hope you will be able to update us on this situation 
today as well.
    As a reminder to the subcommittee and our witnesses, we 
will abide by the 5-minute rule so that everyone will have a 
chance to get their questions asked and answered.
    Before we begin, I would like to yield the floor to my good 
friend from Connecticut, my ranking member, Ms. DeLauro.


                           opening statement


    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Can I first say that this is very impressive, the dais and 
the high-tech communication. But I am looking around the room 
and the redo here, I like it, but it is very beige, Mr. 
Chairman, and--but it is good. It looks good. It has got a nice 
tone to it.
    I deal with a little bit more color, but it is very good. 
It is calming. So, anyway, thank you again, Mr. Chairman.
    Madam Secretary, welcome back to the Labor, HHS 
Subcommittee. I believe it is exactly one year to the day since 
you last appeared here. I, too, want to express my gratitude 
for the great work that you do and the commitment that you have 
to the mission of health and human services, but also your 
commitment to this country and making sure that people are well 
taken care of.
    I want to thank the chairman. I think together we were able 
to make many great investments in the labor, health and human 
services bill last year. In many ways, last year's omnibus 
moved the Federal budget in the right direction, began to leave 
behind the shortsighted policies of austerity that have slowed 
our economic recovery. We made real progress on funding for NIH 
research, the antibiotic resistant bacteria initiative, medical 
countermeasures, and access to high-quality early childhood 
education.
    I do continue to be disappointed that we did not do better 
for other programs under the subcommittee's jurisdiction, and I 
am troubled that the labor, HHS bill received only a fraction, 
about one-half, of its fair share of the $66,000,000,000 
increase provided by last year's budget deal. While the other 
non-defense subcommittees received an average increase of 6.9 
percent last year, the labor, HHS bill increased by only 3.4 
percent. In my view, that needs to change this year.
    One year ago, we were in the midst of a worldwide response 
to the Ebola outbreak in West Africa. Now we find ourselves 
confronting two public health crises, the Zika virus and the 
tragedy in Flint.
    First, the Zika virus, which may be causing thousands of 
babies in Latin America to be born with severe birth defects, 
is infecting travelers returning to the United States and is 
even being transmitted sexually. We should act quickly on the 
administration's request for emergency supplemental 
appropriations to defend against this serious threat.
    Some of my colleagues have expressed a desire to shift 
unobligated funds that Congress provided for Ebola to respond 
to Zika. I strongly oppose that idea. The threat of Ebola is 
not over. I would be anxious to know what activities we would 
have to forego if we shift funds away from Ebola to Zika.
    We need to be able to respond to multiple health threats at 
the same time, and Congress must act quickly to protect 
Americans from the Zika virus.
    At the same time, HHS is the lead Federal agency on the 
ground in Flint, Michigan, where we have learned that thousands 
of children have been exposed to lead poisoned water for more 
than a year. Not only did the State of Michigan fail to protect 
its people from lead poisoning, the Government created this 
crisis and magnified its effects with delayed response.
    I will just give you--this is from an article dated 9/25/
05. This is Katrina. The reporter is Michael Ignatieff at 
Harvard. He said, ``The broken contract, it was not blacks or 
the poor, but citizens whom the Government betrayed in New 
Orleans.''
    One can make the same application here, and he says, ``A 
contract of citizenship defines the duties of care that a 
public official owes to the people of a democratic society. It 
is a tacit understanding that citizens have about what to 
expect from their government. Its basic term is protection, 
helping citizens to protect their families and possessions from 
forces beyond their control.''
    When the State made the decision to turn off the spigot and 
turn it on in the Flint River, they broke that contract with 
the people, and now it is our responsibility to provide people 
with the kinds of help that they need in order that they may 
succeed.
    It is imperative that we resolve the crisis immediately, 
provide health and education interventions that these children 
and their families will need going forward. And it is my hope 
that the State, the administration, and the Congress will do 
that.
    These emergencies demonstrate that our Federal system needs 
to respond more rapidly as threats arrive, which is why this 
Congress and last Congress, I proposed funding the Public 
Health Emergency Fund to enable the Federal Government to 
immediately respond to public health threats. It is modeled on 
the Disaster Relief Fund, which we have, which is 
$8,000,000,000.
    It enables a rapid Federal response following a natural 
disaster. If we can act quickly to respond to floods, fires, 
other natural disasters, we should be able to act quickly to 
respond to public health emergencies.
    We also need to strengthen our investments in HHS programs 
through annual appropriations, which brings me to the topic of 
today's hearing, your budget, HHS budget request for fiscal 
2017.
    I strongly believe, as you know, that programs in the HHS 
budget are among the most important responsibilities that the 
Federal Government has. They support lifesaving research, State 
and local public health infrastructure, community health 
centers, and home heating assistance for low-income families. 
Literally, you work at saving lives.
    Madam Secretary, there are a lot of good proposals in this 
budget. Particularly, I applaud the President for his continued 
commitment to Head Start, child care, and preschool. I will say 
that I was disappointed to see cuts to cancer screenings and 
public health programs at the CDC and that funding for HIV 
research remains level at $3,000,000,000 for 2016 and 2017.
    I am also concerned that other important programs rely on 
mandatory funding. The budget includes $1,800,000,000 in 
mandatory funding for NIH research, $115,000,000 in mandatory 
funding to support early interventions for individuals with 
serious mental illness, and $500,000,000 in mandatory funding 
to help individuals who are addicted to prescription drugs and 
opioids.
    We need to increase this committee's allocation. That is 
the answer to this issue, to support NIH research, to address 
the opioid epidemic in this country, rather than relying on 
mandatory funding that may not materialize, which is why the 
subcommittee allocations that will be released next month will 
be so critically important. And I hope my colleagues on my side 
of the aisle and on the other side of the aisle will join us in 
making sure that we have an increase for Labor, HHS in 2017.
    And that is for the good of the children and good of the 
families that depend on these services. We need to make an 
increase in this allocation a priority.
    Thank you very much for being here and I look forward to 
the discussion and your testimony.
    Mr. Cole. Thank you very much.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Cole. But before we begin with your testimony, we have 
been joined by our ranking member, Mrs. Lowey from New York. So 
I certainly want to recognize her for any opening remarks she 
would care to make.
    Mrs. Lowey. And I want to thank Chairman Cole, my good 
friend, and my good friend Rosa DeLauro for your hard work on 
this committee. It has been an honor for me to be part of this 
committee for a long time, for almost my whole congressional 
career, and we know how important this is.
    And this may be your last occasion to testify before this 
committee, and I want to first thank you for your service as 
Director of OMB, now as Secretary of Health and Human Services. 
And I must say if every person in Government would put their 
heart and soul and their brains to work the way you do, we 
would move forward much more quickly.
    So I really do want to thank you very much. It has been a 
pleasure for me to work with you and to know you.
    Now in terms of the substance, with recent emerging 
threats, your remaining year as Secretary will not be easy. Our 
mission to eradicate Ebola is not yet complete. New outbreak of 
dangerous diseases such as Zika are pushing Federal public 
health infrastructure resources to the breaking point. Congress 
has a request for supplemental funding to combat Zika. I urge 
this committee, and Congress as a whole, to meet this need 
without delay.
    While outbreaks require significant attention, we cannot 
turn our backs to manmade public health emergencies at home, 
and I struggle to find the words to describe the criminal 
incompetence that jeopardize thousands of American citizens in 
Flint, Michigan. I look forward to hearing about actions the 
department is taking in coordinating the Federal response to 
address the short-term and long-term healthcare needs that will 
be required.
    It is truly amazing to me because this is an issue I have 
been working on, again, for a very long time, and how this 
could have been ignored, the incompetence of the officials 
involved is really quite extraordinary. So I am hoping we can 
take action very quickly.
    The budget request includes increases for vitally important 
initiatives such as early childhood education, biomedical 
research, substance abuse treatment and prevention. As an 
appropriator, the department's requests for substantial sums in 
mandatory funding is of concern, particularly the fact that 
without this mandatory request, your budget amounts to a 
decrease in discretionary funding of 1.5 percent.
    With that said, there are significant improvements that I 
would like to highlight. One of the major obstacles to economic 
security for low-income working Americans is access to 
affordable, high-quality child care and early learning, such as 
Head Start. While this committee has increased funding for 
these initiatives in recent years, we are not meeting our 
commitment to the public.
    In fact, the value of Federal funding for child care has 
lagged well behind inflation and increases in child care cost. 
As a result, the Federal share for child care has decreased by 
approximately 20 percent since 2003. And there are more than 14 
million American children that are eligible for child care 
subsidies, yet only 15 percent receive Child Care and 
Development Fund assistance.
    These funding constraints do not exist in a vacuum, and by 
not making investments in child care, hard-working parents may 
have to reduce their hours, leave their jobs altogether, or 
delay education programs that could allow them to invest in 
their family's economic security.
    An increase of $201,000,000 for child care is desperately 
needed, but this alone will not be enough. Federal support for 
child care and early learning programs for low-income Americans 
must be increased nationwide to meet this demand and chart our 
children on a path to success from an early age.
    Your budget includes targeted investments in biomedical 
research, which, to me, must continue to be a top priority. And 
I was so pleased with the work of this committee increasing the 
money for the National Institutes of Health. The Cancer 
Moonshot is very exciting, increases in the BRAIN Initiative 
that will deepen our understanding of the human brain to combat 
diseases and disorders, including Alzheimer's, Parkinson's, and 
autism. These investments not only fund research that eases 
suffering for patients, they could greatly reduce ballooning 
costs associated with treatment down the line.
    So, again, thank you for your leadership, and thank you to 
the chair and our ranking member for your important work on 
this bill, and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Cole. Thank you. It is always a pleasure when our good 
friend is able to join us.
    And with that, Madam Secretary, the committee would love to 
hear your testimony.

                           OPENING STATEMENT

    Secretary Burwell. Great. Thank you so much.
    Mr. Chairman, Ranking Member DeLauro, Mrs. Lowey, and 
members of the committee, I want to thank you all for this 
opportunity to discuss the budget of the Department of Health 
and Human Services.
    I think, as many of you know, I believe that all of us 
share common interests, and therefore, we can find common 
ground. And last legislative session, as has been mentioned, 
this Congress made timely investments in programs to improve 
the health and welfare of the American people, and thank you 
for the role that you all played in that.
    The budget before you today is the final budget for this 
administration and my final budget. It makes critical 
investments to protect the health and well-being of the 
American people. It helps ensure that we can do our job to keep 
people safe and healthy.
    It accelerates our progress in scientific research and 
medical innovation and expands and strengthens our healthcare 
system, and it helps us continue to be responsible stewards of 
the taxpayer dollars. For HHS, the budget proposes 
$82,800,000,000 in discretionary budget authority.
    Our request recognizes the constraints in our budget 
environment and includes targeted reforms to Medicare, 
Medicaid, as well as other programs. Over the next 10 years, 
these reforms to Medicare could result in a net savings of 
$419,000,000,000.
    Let me start with an issue that we have been working on 
here at home and abroad, and as we work aggressively to combat 
the spread of Zika, the administration is requesting 
$1,900,000,000 in emergency funding, including $1,500,000,000 
for HHS to enhance our ongoing efforts, both domestically and 
internationally. We appreciate Congress' consideration of this 
important request as we implement essential strategies that are 
time-sensitive to prevent, detect, and respond to this virus.
    I know the rise in opioid misuse and abuse and overdose has 
affected many of your constituents. Every day in America, 78 
people are dying of opioid-related deaths, and that is why this 
budget proposes a significant increase in funding, over 
$1,000,000,000, to fight the opioid epidemic.
    Research shows that early learning programs can set a 
course for a child's success throughout his or her life, and 
that is why over the course of this administration, and 
together with congressional support, we have more than doubled 
access to Early Head Start and services for infants and 
toddlers. Our budget proposes an increase of $434,000,000 for 
the Head Start program and an investment in child care services 
that would allow us to serve over 2.6 million children.
    Today, too many of our Nation's children and adults with 
diagnosable mental health disorders don't receive the treatment 
that they need. So the budget proposes $780,000,000 in new 
mandatory and discretionary resources over the next 2 years to 
try and close this gap.
    While we invest in the safety and health of Americans 
today, we must also relentlessly push forward on the frontiers 
of innovation and research. Today, we are entering a new era in 
medical science. With a proposed increase of $107,000,000 for 
the Precision Medicine Initiative and $45,000,000 for the 
administration's BRAIN Initiative, we continue that progress.
    But for all Americans to benefit from these breakthroughs 
in medical science, we need to ensure that all Americans have 
affordable healthcare. And the Affordable Care Act has made 
progress, historic progress, in that space. Today, more than 90 
percent of Americans have health coverage. That is the first 
time in our Nation's history that that has happened.
    The budget seeks to build on that progress by improving the 
quality of care that patients receive, spending our health 
dollars more wisely, and putting an engaged, empowered, and 
educated consumer at the center of their care. By advancing and 
improving the way we pay doctors, the way we coordinate care 
and use health data and information, we can build a system that 
is better, smarter, and healthier.
    Finally, I just want to thank the employees of HHS. In the 
past year, they have helped end the Ebola outbreak in West 
Africa. They have advanced the frontiers of medical science. 
They have helped millions of Americans enroll in health 
coverage and have just done the day-to-day quiet work that 
makes our Nation healthier and stronger, and I am honored to be 
a part of that team.
    As members of this committee, I think, know, I personally 
am committed to working with you all closely, with you and your 
staff, to find common ground so that we can deliver impact for 
the American people. And with that, I welcome your questions.
    Thank you.
    [The prepared statement and biography of Secretary Burwell 
follow:]


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


             MANDATORY PROPOSALS IN FY 2017 BUDGET REQUEST

    Mr. Cole. Thank you very much, Madam Secretary. And again, 
it is a pleasure to have you here.
    The President's budget is being touted as adhering to 
spending caps agreed on last year, but it does so by the 
inclusion of gimmicks which shift funding onto the mandatory 
side of the budget ledger. For example, as you know and has 
been mentioned here actually by both sides, NIH discretionary 
level is reduced by $1,000,000,000 from fiscal year 2016 
levels.
    Let me just tell you up front that is not going to happen. 
We are not going to be cutting $1,000,000,000 out of the NIH, 
and frankly, we are unlikely to be able to get mandatory 
funding of $1,800,000,000. Again, we have no jurisdiction in 
that area, but I will make a prediction that we are unlikely to 
be able to get that.
    Having said that, that means--and that would probably apply 
to the other mandatory areas that you called on as well, 
although we will look at each one of them individually, 
obviously. Given that, you know, we are going to have to 
shuffle money around to maintain programs because we don't have 
our allocation yet, but the entire discretionary side of the 
budget, I think, was increased by 0.1 percent under last year's 
agreement.
    So there is not a lot extra there. So we are going to have 
to make some really tough decisions. It would be very helpful 
to us if you would tell us what are your top three or four 
priorities within the budget and that you think are absolutely 
critical to being funded?
    Secretary Burwell. So as we think about the issue of tough 
decisions, I think you appropriately reflected, when we look at 
the second year of the deal, it is a very, very small increase, 
and with other things that happened naturally that, you know, 
the question of ``Is it an increase at all?'' for most of the 
bills I think is an important one.
    And I think that is a reflection of where our discretionary 
levels are. In this budget, by 2019, we will have one of the 
lowest levels of our discretionary-to-GDP ratios that we have 
seen as a nation. And so I think the question about priorities 
and tough decisions, I think we feel we made those because 
everything is paid for.
    And that is the issue when we talk about the budgeting. In 
terms of the mechanisms that we use, discretionary or 
mandatory, I think what we are all focused on is how much we 
spend and how that affects and impacts the deficit. And the 
budget overall keeps us on a downward trajectory.
    We made decisions that may not be the ones that folks agree 
with, and we understand and appreciate that, but we do pay for 
everything, and we do continue on our path of deficit reduction 
and making sure our debt-to-GDP ratio is on a declining path, 
as well as our deficit.
    So in making the tough choices and the prioritizing, we 
have done that in the means by which we pay for these things.

                   FY 2017 BUDGET REQUEST PRIORITIES

    Mr. Cole. Well, I am the last person to cross swords with a 
former OMB Director about the budget, but I don't think we are 
on a downward trajectory. Certainly, in gross dollar terms, the 
deficit is going to be higher this year than it was last year.
    And I think this is off our topic, but I think one of the 
great missed opportunities of the President's second term was 
real entitlement reform. There was a couple of times he was 
close. I mean, he put, to be fair to him, change CPI on the 
table, and he put means testing for Medicare on the table.
    But he also put--demanded tax increases, a lot of other 
things with those. We could have probably passed those things, 
and I think they would have been a material improvement on 
where we are now.
    But that aside, we are unlikely to be able to do that in 
the short term and the amount of time that we have left, and 
what we do have to do and want to achieve is to actually give 
you a real budget. So I am going to return again, of the budget 
itself, what are the three or four top things of what you have 
submitted that you think are absolutely critical to the 
functioning of health and human services?
    Secretary Burwell. So, as I said, I think we have put 
together the budget in a way that reflects our priorities. I 
think we have heard criticisms, and I am sure I am going to 
hear them today, in terms of the cuts that we have made to 
other areas, places where we have not fully funded and had to 
make choices. And I am sure we are going to talk about those, 
whether that is, you know, the issues of REACH or the issues of 
BARDA. I am sure that we will talk about those today and have 
made a number of those choices.
    The other thing I would just reflect, as we think about the 
overall budget picture, is the question of demographics in our 
country. And we know that healthcare is one of the most 
fundamental drivers of the costs causing these issues. But I 
think we also know that the basic demographics in our country 
with regard to we are going to have more people who are in that 
Medicare band, and so how we think about a balanced approach.
    And that gets to this question of revenues versus cuts 
because the problem isn't simply a problem of a set number, you 
know? It is that increase. And I keep my eye on per capita 
healthcare costs, and in Medicare, we have seen those be very 
low for six consecutive years.
    And so, as we continue to think about it, I think that is 
an important part of the conversation, which I think you know I 
welcomed in my OMB job and I welcome here.
    Mr. Cole. You did. And you have always been a good person 
to have that dialogue with. With that, I want to move to my 
ranking member for whatever questions she cares to put to you.
    Thank you.

                         FLINT, MI WATER CRISIS

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    I just would like to remind everyone that Labor, HHS has 32 
percent of the nondefense discretionary budget. If we had 
received an allocation that was commensurate with our portion 
of discretionary spending, we would have received an additional 
$5,200,000,000 to what we have had. If that happens this time 
with our allocation, yes, in fact, we can accomplish what we 
want to accomplish in this budget.
    And that is our portion of discretionary spending, and we 
were shortchanged last time. And we should not be shortchanged 
this time. And with that, Madam Secretary, let me just say that 
and let me talk about Flint for a second.
    Unbelievable tragedy, 8,000 kids. Doctors, everyone tells 
us lead poisoning is irreversible, OK? But it is the short 
term, we need to ensure Flint's drinking water is safe. We also 
need to think about medium term and long term, and I know you 
are the lead agency here, and I just want to run down a few 
things to find out where you are overall in addressing this 
issue.
    What is HHS doing to ensure that every child who has been 
exposed to lead has a case manager to ensure they receive the 
services they need? You provided $500,000 to two community 
health centers. That is a start.
    I would like to know how we are going to ensure that Flint 
has sufficient capacity to treat these kids for years to come. 
It is the longevity of the Federal response here.
    Head Start serves about 1,000 kids in Flint. Another 150 
are enrolled in Early Head Start. According to the 
Administration for Children and Families, more than 1,000 
income-eligible children are not enrolled in a Head Start 
program. Nearly 3,000 income-eligible children are not enrolled 
in Early Head Start. How do we ensure that these kids, when the 
two areas that we have been told by doctors and scientists, 
that where we can make a difference in mitigating this lead 
poisoning for these children, is in good nutrition and early 
nutrition and in early childhood education. These are the two 
areas where we can play a role.
    So how do we ensure that they don't fall behind and suffer 
the effects of lead exposure for the rest of their lives? Let 
me ask you to answer those questions.
    Secretary Burwell. So as you mentioned, the Department of 
Health and Human Services has been asked to lead the Federal 
response in Flint, MI. As we lead that response with our 
objective of supporting the State and local community in 
getting to a better place, there are two main goals.
    The first is clean and safe water in the short term, in the 
medium term, and the long term. And then the second is 
understanding the damage that has occurred and then working to 
mitigate that in support of the State and local community.
    With regard to the specifics of your question, a number of 
them, two of them, I think, come together--the case management 
question, as well as the question of the capacity and how 
things come together for those children who may have damage. 
And I think probably the most important thing, which we are in 
the process of doing, we will improve a Medicaid waiver in 
Michigan. The Governor has asked. I met with the Governor. I 
was in Flint--was it last week, was in Flint, met with the 
Governor, had these conversations.
    There are two very important elements to the Medicaid 
waiver. The first is expansion to pregnant women and children 
in terms of the expansion, which we will do. The second, 
though, is comprehensive case management, which will be a very 
important part. And the funding to do that will help us in that 
space.
    With regard to the issues of the programs that you 
mentioned, a number of those programs had conversations also 
with the Governor and others about how we make sure that those 
services are going to reach those children.
    Ms. DeLauro. Are we examining the opportunity for Head 
Start for all eligible children?
    Secretary Burwell. That has been a part of the 
conversation.
    Ms. DeLauro. We have got, what, about 38 seconds. So we are 
going to continue this, I think, for a while. So I won't 
overstep my bounds, Mr. Chairman, but will come back on some 
other things.
    Mr. Cole. I thank the gentlelady greatly for staying within 
the time limit.
    With that, we go to my good friend from Arkansas, Mr. 
Womack.

                       ELECTRONIC HEALTH RECORDS

    Mr. Womack. Thank you, Mr. Chairman.
    And my thanks to the Secretary also for her service to our 
Federal Government and our friendship that dates many years.
    Secretary Burwell, Congress enacted the High Tech Act with 
the intention to encourage providers to adopt electronic health 
records, and today, over 80 percent have them. However, as the 
meaningful use program has been developed, its regulations have 
grown far beyond the intent of Congress and have put layers of 
new requirements on the backs of our doctors. Not only have 
these requirements become so onerous that it is darned near 
impossible to comply, but ultimately, they force providers to 
spend more time on the computer than with the patient.
    It seems to me that there has been more of an emphasis on 
ensuring compliance by providers in achieving meaningful use 
than there has been on ensuring our providers can comply and 
that EHR use is actually meaningful. That is very concerning to 
me.
    I have heard these concerns from Arkansas providers 
frequently. In fact, as of yesterday, another round of visits 
yielded the same, and I was encouraged to learn that the CMS 
Acting Administrator and the National Coordinator of Health IT 
are using the tools provided by the passage of the Medicare 
Access and CHIP Reauthorization Act of 2015 to transition the 
Medicare EHR Incentive Program for physicians towards a reality 
of where we want to go next.
    On the eve of these changes to electronic health record 
meaningful use, can you help me understand how the changes will 
shift emphasis from the rigid enforcement to making the program 
truly meaningful to patients and providers? Will the changes 
provide flexibility for providers? Will they ensure EHR 
interoperability? And when can we expect these improvements to 
be released and implemented?
    Secretary Burwell. So I think, as you have heard, we have 
taken the comments and feedback that we have received and, even 
as we were doing rulemaking in the fall, announced changes. 
Acting Administrator Slavitt, as well as Karen DeSalvo at the 
Office of the National Coordinator, have talked specifically 
about that.
    In terms of the specific things that we will do, MACRA is 
giving an opportunity to make changes as we go forward. Some of 
those, though, we already have put in place. One is we have put 
out standards. And historically, we hadn't taken the step to 
articulate what we believe are the correct standards that 
people should use because that gets us to interoperability.
    The second thing, and you will be seeing more on this as 
soon as Monday, I will be--I am trying to think which day, but 
I will be speaking to a gathering of 4,000 technology providers 
in the private sector that are the people who are providing 
this software. And we will be talking specifically about steps 
that we are taking forward--together forward in partnership 
with those companies.
    And so what we are trying to do is in the places where we 
can lead and we give directions, such as setting standards and 
an interoperability roadmap, that we take those actions, and 
where we can work with the private sector and where they need 
to lead to do that. So it is the combination of the two things, 
and part of that will also be the implementation of MACRA, 
which we are pleased to do.
    It is aggressive. Everyone, I think, should know what you 
all passed is aggressive. We are excited about that and think 
that gives us a tool. At the same time, we need the private 
sector with us, and we are working with them, and you will hear 
about that on Monday.
    Mr. Womack. How soon can we see change on this front? How 
soon can the wheels of progress turn and actually bring some 
relief to the essence of my question?
    Secretary Burwell. So this was a meeting I had, actually, 
with the team on Tuesday in specific terms because, for me, the 
answer to that question has to be 10 months and 20-some days in 
terms of real change that providers can feel. And I think what 
providers and consumers are both going to feel, and this is 
something that you all will probably also work on, is at a 
minimum, when we take away data blocking, and two things have 
happened.
    We have been clear that we are going to take action in any 
way we can against data blocking and that we are articulating 
it. When the Congress articulated that it would act--and data 
blocking is where these providers of the technology, they can 
do it either, it can be omission or commission. They can 
actually do things that block an ability of consumers to get 
that data, or they can do things that don't really completely 
block it but make it harder in terms of not providing.
    There are things that are happening in that space that we 
are going to feel a difference within the year.
    Mr. Womack. One of the real concerns I have, we have a 
number of providers that fall into this category that are 
getting to the age now where they either have to comply or they 
may choose to just leave the profession. There are a number of 
providers out there that still have a lot to offer in terms of 
medicine, but yet are just leaving the enterprise. So is that 
of concern to you?
    Secretary Burwell. It is, and that is why--yes, it is, 
which is why we have got to get it to where the value of this 
outweighs the difficulty in doing it. And I would just ask 
everyone to watch for that when you all conference on 21st 
Century Cures, the Senate side will put in provisions that are 
related to this very issue.
    And as it comes back, my expectation, there will be a 
conference, please watch there because that is a place where 
legislation may help us.
    Mr. Womack. Thank you.
    Mr. Chairman, I yield back.
    Mr. Cole. Thank you.
    With that, I move to my good friend, the gentlelady from 
New York.

                         GUN VIOLENCE RESEARCH

    Mrs. Lowey. Thank you again, Mr. Chairman.
    Thank you, Secretary Burwell.
    According to the Brady Campaign, 31 Americans are murdered 
with guns each day. One hundred fifty-one are treated in an 
emergency room due to a gun assault. That is not all. The U.S. 
firearm homicide rate is 20 times higher than the rates of 22 
of our peers in wealth and population combined.
    So I really think about it and wonder why. For instance, is 
it possible there are societal trends or other factors 
unrelated to gun purchases and ownership that may be important 
to study to reduce gun deaths? The Federal Government and in 
particular agencies within your department, such as the 
National Institutes of Health, Centers for Disease Control, are 
some of the leading public health research institutions in the 
world.
    So I am baffled that rather than arm them with the 
scientific knowledge to save lives, some on the other side have 
supported efforts to stifle this research. Now I just want to 
say I worked with former Representative Dickey, and I remember 
when that amendment about 20 years ago was put on the bill. And 
he has already spoken out against it and said we should do the 
research.
    So I would like to ask you, are there public health reasons 
why the CDC should not be conducting research into injury 
prevention due to gun violence? If the committee were to fund 
the President's request of $10,000,000 to study injury 
prevention due to firearms, what type of research could be 
funded?
    Secretary Burwell. We believe that we should do the 
research, and it is a matter of funding. So for us at the 
Centers for Disease Control and Prevention, if we had those 
monies, we would do the kind of research that you described in 
terms of trying to understand why they occur, and as you said, 
it can be a range of reasons, societal reasons and other 
reasons. But we actually don't know because we haven't been 
able to do the research.
    So as we have proposed in our budget, we would like to see 
that money so that we can start that work.
    Mrs. Lowey. Thank you. And I hope we can make that happen, 
Mr. Chairman. It would be a good thing for the country.

                          EBOLA VIRUS RESPONSE

    We have made great progress since the Ebola epidemic 
reached historic proportions in 2014, but we are not yet done 
combating the Ebola threat, and our public health 
infrastructure, including researchers, hospitals, physicians on 
the front line, have not yet completed the mission to eradicate 
this deadly disease and protect the public. In short, rather 
than continue to wipe out Ebola, my friends on the other side 
seem prepared to declare mission accomplished when cases may 
still emerge.
    What remaining Ebola efforts would be prevented or delayed 
if funding were to be used for the Zika virus, and in 
particular, are there medical countermeasures that could be 
impacted as a result of using Ebola funding for the Zika virus?
    Secretary Burwell. With regard to the countermeasures, yes, 
there are a number of things. We should be hearing from the 
WHO. I will be meeting with Margaret Chan tomorrow morning at 
7:00 a.m. because we need the results of the ring trial that 
was done on the Ebola vaccine.
    We are also seeing the work on ZMapp, which was one of the 
issues, and I read this morning there will be another study 
coming out in terms of some of the types of tools that we can 
use even in the treatment space, which we haven't historically 
seen. So we are going to be seeing a number of things that 
would come online that we will use those monies and ask for 
BARDA and Bioshield to move forward if we can.
    The other thing that I think is extremely important in 
terms of those monies is the Global Health Security Agenda. 
Right now, in Nigeria, we have Lassa and measles. But because 
we are investing those monies in prevention, detection, and 
response, that is what the Global Health Security money that 
you gave us to spend over 5 years for countries to put together 
plans, we are exercising those monies.
    Three hundred individuals were at CDC, and I will not go 
through all of the outbreaks that are occurring or the fact 
that last year, we had the most cases of Middle East 
Respiratory Syndrome coronavirus--respiratory, these are the 
ones that really spread quickly--out of the Middle East, Saudi 
Arabia, that we have ever had as a nation.
    MERS was controlled because Korea had the capability to do 
it. We supported them. We sent people from CDC. But it 
happened, and no one even knows about that, which would have 
been like Zika, if it had grown.
    And so those are the things the money is being used for, 
and we think those are priorities. As you probably know, 
yesterday we sent up letters. I have done a reprogramming of 
existing monies from the Prevention Public Health Fund to keep 
CDC going, and we have sent you all a letter on two transfers.
    And so we are doing everything we can to keep our efforts 
going right now on Zika, but the demand is great. Today, I got 
my numbers this morning. There are 155 cases in the United 
States. You have seen the numbers, and you have seen the sexual 
transmission.
    In Puerto Rico, we think those cases--because we depend on 
a set number, I think the cases are actually higher. So those 
numbers will continue to rise quickly.
    Mrs. Lowey. Thank you. And thank you, Mr. Chair.
    Mr. Cole. Thank you.
    The gentleman from Tennessee, Mr. Fleischmann, is 
recognized.

                       SPECIAL ENROLLMENT PERIODS

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being before us today and 
appreciate your phone calls and all of your hard work and hard 
efforts. Thank you.
    Madam Secretary, I have got some questions. I am concerned 
that the recent news indicates too much instability in the 
individual market. Although you are highlighting a 90 percent 
coverage rate, enrollment expansion in the individual market 
are far below initial projections.
    Consumers who are willing to do their part by paying a full 
year of premiums are paying higher rates because the exchanges 
allow people to sign up for just-in-time medical services 
during what are designated as special enrollment periods.
    I am also concerned about the ever-moving and expanding 
open enrollment period. The original ACA regulations had open 
enrollment periods that ended in early December. Allowing 
individuals to continue to enroll after the current policy year 
can encourage anti-selection and letting purchasers pay for 
only a partial year of coverage while still receiving a full 
year of coverage.
    My two questions, Madam Secretary, are does the HHS plan to 
significantly eliminate more SEPs in the near future, and does 
HHS plan to limit or expand the open enrollment period?
    Thank you.
    Secretary Burwell. So with regard to the issue of the 
special enrollment periods, we have announced that we have 
gotten rid of a number of those special enrollment periods, as 
your question reflects. So, yes, we have gotten rid of them.
    In addition to that, we have put out clearer guidelines 
with regard to making sure people know so that we narrow that 
frame in terms of people doing it. And yesterday, we actually 
put out information that you will have to provide 
documentation, which is one of the issues that the issuers have 
talked to us about, in order to promote a more stable market. 
So we are taking those steps in terms of those that were in 
your suggestion.
    With regard to the broader question of numbers, I do think 
it is important that when we think about what the objective 
here was, the objective was access to insurance and then moving 
to coverage when we think about the Affordable Care Act. And 
with regard to the CBO numbers, in the original CBO numbers, as 
we look at the tracking of the number of the uninsured--the 
reduction is slightly higher than CBO projected.
    What we know is that not as many people have moved from 
employer-based care into the marketplace, and we actually think 
that is fine in terms of the marketplace not growing by taking 
employer-based care in. And so we think that is an acceptable 
thing.
    Having said that, we want to make sure we are listening, 
and that is why the issues you raised are a number of issues 
the issuers have raised with us, and we have taken action on 
those as they go into this period to determine their 
participation in the next open enrollment.

                        COMMUNITY HEALTH CENTERS

    Mr. Fleischmann. Thank you. I would like to shift to 
community health centers, if I may?
    Madam Secretary, I would like to discuss the funding cliff 
that community health centers face. As you know, mandatory 
funding is due to end after fiscal year 2017. It is my 
understanding that a large portion of this funding supports 
basic, ongoing health center operations. Can you share with us 
what the alternatives are if the authorizers do not act on your 
request for an additional 2 years of mandatory funding?
    I know these centers have been a source of medical care for 
the uninsured. Can you explain to us the implementation of the 
Affordable Care Act and how it is affecting the health center 
financial model, given that nearly everyone ought to have some 
form of insurance coverage by now that the health centers can 
bill.
    Secretary Burwell. So we are hopeful that we can get the 
extension because it serves so many people, as you articulated, 
in terms of the millions and millions of folks. I think it is 1 
in 14 Americans are served by a community health center in the 
country. And so the amount of services those are providing is 
extremely important.
    With regard to the issue of the finances, when I go and 
meet with federally qualified health centers, their finances 
are improving. They are improving in two cases. One, they are 
improving because people have coverage now, and they use that 
to expand their services. And whether that is in the issue of 
dental or other services that they can provide, behavioral 
health and that sort of thing. So they are using that money.
    And in Medicaid expansion States, that is the other place 
where they are getting those benefits. These health centers are 
going to be the backbone of everything from some of our 
behavioral health work to increasing our medication-assisted 
treatment programs with opioids, and in our budget right now, 
we have proposed that we can start using telemedicine. So they 
can be the centers, and this is important for rural America in 
terms of issues in rural settings where telemedicine can be a 
real opportunity for both quality improvements and cost 
reduction.
    So those are some of the reasons we think it is extremely 
important to continue.
    Mr. Fleischmann. Thank you, Madam Secretary.
    Mr. Chairman, I will yield back.
    Mr. Cole. I thank the gentleman.
    My good friend from Philadelphia is recognized next, Mr. 
Fattah.

                            BRAIN INITIATIVE

    Mr. Fattah. Thank you.
    And Madam Secretary, it is good to see you this morning. 
Your focus on the Affordable Care Act and its implementation 
has led to an historic level of participation. And particularly 
in Philadelphia, and you came personally to my district and 
helped launch an enrollment effort.
    And I think we lead the country. We might still be in a 
competition with Miami. I am not sure. But I will just claim 
the victory and credit your great leadership with it.
    There is so much that I want to ask you about. We only have 
a few minutes. Let me start with our work on the neuroscience 
front, on the BRAIN Initiative.
    NIH's participation and leadership in it is obviously 
critical. I want to thank the chairman. Working with us last 
year, we were able to fully fund these initiatives. And as the 
administration comes to the end of this period, it is going to 
be important that this work not be interrupted.
    We have some 50 million Americans suffering from a brain-
related illness. The efforts of NIH, along with the National 
Science Foundation and DARPA and a host of a dozen other 
Federal agencies, the VA and so on, this work is critically 
important.
    So be interested in your thought about how to make sure 
that we can structure the baton pass correctly and that this 
work can go forward.
    Secretary Burwell. So I think one of the most important 
things is that it is housed at NIH, which I think under any 
administration will continue. And I think the BRAIN work and 
the demand around the BRAIN work, whether that is concussions, 
Alzheimer's, is great. And so I think we are hopeful that this 
will continue to be a priority.
    I think the other way we get the continuity is already 
happening. Thank you all for the support that you provided last 
year. We have already issued 125 awards. So those scientists 
are doing their work to provide the input, and I think, as you 
know, it is not one effort. It is about research in a number of 
different areas and places because the brain, right now, our 
knowledge is pretty limited, and there are so many conditions 
and diseases that are related.
    And so those 125 awards are out, and I think that is the 
other place and way that we will be able to continue this 
effort and get results.
    Mr. Fattah. Thank you.

                        COMMUNITY HEALTH CENTERS

    And the--in your testimony, you talked about the community 
health centers, and my colleague has already asked you because 
we are going to arrive at an important challenging moment for 
the community health centers. Now this is my priority and a 
number of our other colleagues, I know Barbara Lee and others. 
In the Affordable Care Act, we provided a very significant 
ramp-up for federally qualified community health centers. The 
last thing we want to do is have one out of every nine 
Americans being able to use those centers now and then get to a 
point in 2017 to have a problem.
    So we want to work with the authorizers and the 
administration and get what we think is a modest request. Your 
request is for a 2-year?
    Secretary Burwell. Yes.
    Mr. Fattah. Right. To make sure that that happens. So this 
is very, very important.

                     PRECISION MEDICINE INITIATIVE

    And then you have a very significant increase in the 
precision healthcare portion of the budget. We provided money 
last year, and this is an area that is vitally important and 
builds on the work of the Human Genome Project and a host of 
things.
    So if you could talk a little bit about how you see the 
progress from last year's funding. I know you just started to 
move that money, but if you could talk to us a little bit about 
that.
    Secretary Burwell. So two places in terms of specifics 
where the Precision Medicine Initiative, and thank you all for 
the support for the funding, in terms of where the progress is 
being made.
    The first is, I would say, in the cancer area. That is the 
place that is the most ripe and where we are moving the dollars 
through the National Cancer Institute to continue to do 
research in the genomic space. And this is about the genomics 
of the tumor. And so that we can actually instead of saying, 
``You have kidney cancer,'' we look at your tumor.
    And I met the gentleman at NIH who his family had had a 
number of members die. He lost one kidney. He had over 30 
tumors removed, and they kept growing back. But once we 
analyzed his tumor genetically and treated it in that form, 
versus treating kidney cancer, we were able to make progress. 
And so those are the kinds and types of examples.
    The other place where that money is going to come to 
fruition is, and I think the President is doing an event either 
now or this afternoon on Precision Medicine, we will be working 
with the private sector on some of their engagement. But I 
think the big thing is getting the cohort, the group of people 
who will come in and be a part of creating a broad group of 
people where research can be done.
    And so we have put in place some of the privacy 
recommendations, some of the security recommendations, so that 
we build the right platform as people want to and can come in.
    Mr. Fattah. Thank you.
    Thank you, Mr. Chairman.

                           DEFICIT REDUCTION

    Mr. Cole. Thank you. And we next move to Dr. Harris.
    Mr. Harris. Thank you very much.
    And thank you, Madam Secretary, for being here today.
    First, I just got to clear up a question I have got because 
somehow you talk about the budget being--showing deficit 
reduction. And I have got to tell you, I--because I just pulled 
up the President's budget, and am I correct that the 
President's budget projects a deficit in 2026 of 
$793,000,000,000?
    Secretary Burwell. With regard to the specifics of that 
number, I will trust if you have the budget in front of you 
because----
    Mr. Harris. OK. It says $793,000,000,000, Madam Secretary. 
And the CBO estimates this year's is $541,000,000,000. And I 
got to tell you, this is why people don't trust Washington.
    This is why we look at the presidential race, and we 
wonder. We scratch our heads like, ``Why is it going the way it 
is?'' Because only in Washington, honestly, could a Secretary 
come before a committee and say that raising the deficit from 
$541,000,000,000 this year to $793,000,000,000 in 2026 is 
deficit reduction.
    This is the problem, and this is not a question. This is 
comment. This is the problem with Washington.
    That being said, we got a problem because we project and 
the President's budget actually projects a debt of 
$21,300,000,000,000 in 2026, 21.3 the publicly held debt. This 
is a real problem.
    So we got to look at how we fund things, and first question 
I have is the Zika funding request. Is that above the caps?
    Secretary Burwell. It is an emergency supplemental, yes.
    Mr. Harris. So it is above the caps.
    Secretary Burwell. Correct.
    Mr. Harris. So, actually, we are sitting on a 
$541,000,000,000 deficit, and we are--the administration comes 
in and says this is emergency funding. Now I will tell you, 
when I was in the Navy, we had a saying that the Navy went from 
crisis to crisis unimpeded by plans.
    Within one year, we have had requests, I think the last 
request for Ebola, someone can correct me, $6,000,000,000? I 
mean, it is just billions and billions of dollars. That was an 
emergency request. Now we have got an emergency request.
    Is there a plan somewhere? And then I go, oh, my gosh. 
There is a plan. It is called BARDA. It is actually called--we 
actually have a plan to fund projected problems into the 
future. And what did the administration do? They come and say, 
yeah, we got a plan, and we need a certain amount of money, and 
we are only going to spend half of that.
    We are going to ask you for emergency funding, but actually 
one of the plans we have so that we are not going crisis to 
crisis so that, for instance, when there is anthrax outbreak, 
we actually have the medications to treat it. When there are 
the--or I can go down the whole list of BARDA. So that actually 
we don't end up with a crisis, the administration chooses to 
underfund that program.
    Where is the plan?
    Secretary Burwell. So----
    Mr. Harris. Because Zika and Ebola are actually, you know, 
although they are different viruses, they are actually the idea 
that we should have a plan and say we have to develop a method 
to rapidly react without emergency funding.
    So, for instance, could you describe the plan to rapidly 
develop vaccines and get them approved and how much we are 
spending on that plan?
    Secretary Burwell. So, Dr. Harris, I think that the 
fundamental cost in both Ebola and in Zika actually has to do 
with public health for the American people and not the actual 
cost, the amounts of money needed in terms of vaccine 
development and deployment, if you have them. But with regard 
to the cost for both Ebola and Zika, right now what we need to 
do is make sure that we are getting the right information and 
doing the diagnostic testing.
    Right now, the Governor of Florida, I read this morning in 
the newspaper, he has asked me for more tests. Right now, with 
regard to that is a CDC function. The questions of Ebola and 
Zika, right now we know in this country, 14 women are pregnant 
who have had the virus. We don't want that to continue. We 
don't want more.
    We don't know. I can't tell you how long Zika lasts in 
semen. Neither can Dr. Frieden, neither can Dr. Fauci.
    Mr. Harris. Madam Secretary, I absolutely agree, and I have 
a list of questions.
    Secretary Burwell. Those are the funds----
    Mr. Harris. So I am just going to keep on going.
    Secretary Burwell. Those are the funds that I think you are 
asking for.
    Mr. Harris. Is the public health--you have a public health 
prevention fund in your department, don't you, started by the 
ACA?
    Secretary Burwell. We do.
    Mr. Harris. How much of that money is appropriated to Zika 
for next year?
    Secretary Burwell. In terms of that fund, as I mentioned 
earlier, we have asked--in terms of the prevention fund?
    Mr. Harris. That is right. How much in your budget of that 
prevention fund is going toward it because that----
    Secretary Burwell. There is no prevention fund. I just sent 
up a letter that actually we are using some of the monies for 
those in terms of other carryover balances. Now which 
prevention fund you are talking about----
    Mr. Harris. Now how, Madam Secretary, the public health----
    Secretary Burwell [continuing]. Because there is a 
Prevention and Public Health Fund that you all told us----
    Mr. Harris [continuing]. Prevention fund. The Public Health 
and Prevention Fund that is funded--that was established by the 
ACA for the purpose including vaccines. So we are told, well, 
we have to develop a Zika vaccine. Are we using currently 
available funds before we ask for emergency funds?
    Secretary Burwell. Those fundings have been allocated by 
Congress. It happened 2 years ago. In the first year I was in 
the administration, the administration had choice. After that, 
the Congress, in the last 2, maybe 3 years--I will ask the 
chairman. But in the last 2 at least, you all have given us 
very specific allocations for those monies.
    Mr. Harris. And have you asked for the Zika funding to come 
from that allocation instead of an emergency allocation that is 
outside the budget caps?
    Secretary Burwell. Dr. Harris, we believe in terms of the 
tradeoffs that we need to make in an emergency situation, where 
babies are being born with microcephaly that we believe it is 
an emergency.
    Mr. Harris. I yield back.
    Mr. Cole. Thank you very much.
    We will next go to my good friend from California, the 
gentlelady, Ms. Lee.
    Ms. Lee. Thank you very much. Good to see you, Madam 
Secretary.
    Secretary Burwell. Thank you.

                           DIVERSE WORKFORCE

    Ms. Lee. And I just want to remind this committee, you 
know, I think our allocation right now continues to be, what is 
it, 10 percent below pre-sequestration levels? And so we need 
to really recognize that and try to understand the fact that 
this allocation at this level continues to really hamper our 
ability to address our Nation's current and emerging health 
needs. It is really too bad, and hopefully, we can get a better 
allocation this year.
    A couple of things I would like to ask you about. Of 
course, you know the Health Careers Opportunity Program, I have 
been calling for years now to make sure that we fund it. So I 
am really glad to see that there are resources in this budget 
for that.
    But I want to ask you about why you are eliminating the 
area health education centers, which are really critical for 
minority and low-income families, according to--in terms of 
ensuring medical school training and healthcare training. There 
is a statistic I want to raise at this committee during this 
hearing that the Association of American Medical Colleges put 
forward.
    There were fewer African-American males enrolled in medical 
school now than in 1978, and so by eliminating this program, I 
want to see how you are going to really address the emerging 
needs of diversity in the health workforce and halt this 
disturbing trend.
    Secondly, as it relates to the Asian Pacific American 
Caucus, I serve as the co-chair of CAPAC, and we have many, 
many issues we have been addressing, and thank you for your 
assistance and leadership on this. But the Racial and Ethnic 
Approaches to Community Health, that is the REACH program, it 
has historically provided direct support to the AAPI community.
    Of course, with higher rates of health morbidity and 
mortality, this initiative is so important. REACH has 
documented success in engaging Asian Pacific Americans in 
healthcare, healthcare prevention, but yet this budget proposes 
to cut $20,000,000 out of REACH. And so this is a very 
specific, unique program that really helps with the healthcare 
needs of the AAPI community.
    So I wanted to ask you why the cut? And do we see that 
somewhere else in the budget at this point and just emphasize 
the importance of that to the AAPI community.
    Secretary Burwell. So the issues of diversity, both in two 
forms, in terms of making sure we have healthcare providers 
that are diverse as one of our priorities, as well as the issue 
of making sure we are serving communities and communities that 
sometime have disproportionate needs.
    With regard to the overall educational issue, I think you 
know and as you stated in your beginning comment, we are in a 
state of a limited budget. And with regard to the specifics of 
the program, what we have chosen to do to try and work on those 
numbers that you said, the 1978 to now----
    Ms. Lee. Really big numbers, yeah.
    Secretary Burwell. What we are hopeful is, is by focusing 
on the programs that actually are closer to that point of 
getting the people in. And so the funding that you see in terms 
of our Public Health Service Commissioned Corps, and that is 
not the Commissioned Corps, but the Public Health Service 
Commissioned Corps in terms of that has over one-third 
minorities. And by investing there, we are getting those folks 
in at that point at which they are so close, and they are at 
the point at which they are making decisions.
    And so trying to focus on the point where we would have the 
most leverage with limited resources.
    Ms. Lee. Is that why you eliminated the area health 
education centers?
    Secretary Burwell. Yes. Because in terms of trying to 
figure out in a world of limited resources where our dollars 
can have the most impact, those were the choices that we made.
    With regard to the broader overall issue, our investments 
in community health centers has been articulated as well as 
they are very important to serving and providing monies for 
diverse communities. In addition, the Affordable Care Act and 
the issue of getting people insurance is one of the most 
important things that we believe and we are deeply focused on 
in terms of changing the dynamic of the disproportionate and 
the inequities in minority populations.
    We know that getting people coverage is not enough, and we 
have to move that coverage to care, and in the last year, you 
have seen efforts in that place through CMS, as well as through 
the community health center.
    Ms. Lee. OK. But the cut, the $20,000,000 cut in terms of 
the REACH program, because it has been so successful in 
addressing the Asian Pacific American community, why the cut 
and where do we see that focus again in another line item?
    Secretary Burwell. I think what we want to do with the 
proposal that we have in front of us is to be able to do some 
of that evaluation to understand how we can make that program 
as strong as we possibly can. And when we do that, think about 
then where and how are the places that we can expand it.
    Ms. Lee. OK, not expand it, but why would you cut it? I am 
just trying to understand the cut.
    Secretary Burwell. In a world of limited resources, as I 
said----
    Ms. Lee. That is limited resources. So once again--so 
ethnic minorities, again, are getting cut in this budget like 
everybody----
    Secretary Burwell. Across the board, I think--well, like 
everyone. Because I think what we have tried to do in terms of 
care for these populations, there are a number of other areas 
where we have tried to make sure that we have either maintained 
or increased because we know the disparities are great.
    Ms. Lee. OK. And then viral hepatitis, I have time? Any 
more time?
    Mr. Cole. I would ask you to look at the time.
    Ms. Lee. OK. I will get it next time around.
    Mr. Cole. Thank you. Just with the indulgence of the 
members of the committee, I will say for the record, I know 12 
cardinals and 12 ranking members that are convinced that their 
allocations are too low, and I can say with certainty that the 
cardinals and ranking members on Interior, Defense, and this 
committee are absolutely correct.
    [Laughter.]
    Mr. Cole. With that, I am going to move to my good friend 
and, sadly, retiring Member. So it is also his last appearance 
here, and Mr. Rigell, you have made great contribution to this 
committee. You will be greatly missed in Congress.

                          ALZHEIMER'S DISEASE

    Mr. Rigell. Thank you. Even though I am way down here on 
the end.
    Listen, and what a privilege it is to serve on your 
committee and with the ranking member and just the individuals 
that we get to interact with. And I join the others in thanking 
you for your service. I want to talk about something that is 
affecting so many American families, Alzheimer's.
    I have a kind of a little window into it just because of 
the fact that my parents are still living. They are doing so 
well. They are 93 and 88, and we Facetime every Sunday morning 
at 8:00 a.m. And sometimes the conversation pivots over to 
their friends, and they start describing--they start naming 
names, and well, they are the names of my childhood friends, 
their parents, of course. Their parents.
    So I know them, and they just--they have to talk about how 
painful it is because they don't know where they are and all 
those other symptoms of that horrific disease. And I know that 
we increased research by 60 percent, and I am so supportive of 
that.
    But as I think about how we have extended the length of 
life and not the quality of life, and I think about how 
organizations from time to time miss real critical moments, 
like the housing crisis of 2008-09. You know, we missed that. 
We didn't really see that coming, at least most people didn't.
    And it was like the Challenger disaster, if you look back 
at it from a managerial standpoint, they could see where they 
went wrong. And I feel like we are in that same boat with 
respect to Alzheimer's.
    I am a fiscal conservative, and yet embraced in all of 
this, and I also brought my heart to Washington, my mind, and 
my calculator and everything else. But I really would submit to 
the committee that I think we are far lower than we need to be. 
And I say this as a nonmedical professional.
    But, so I have two questions for you. The first one is how 
have we managed that 60 percent increase? And please don't 
spend too much time on that because our time runs out so 
quickly. But I want to ask a hypothetical question. I think you 
will appreciate the question.
    But if you could invest in that particular area not to the 
detriment of the other areas--I am giving you a hypothetical. 
If you could just--because at some point, the water starts to 
flow out of the glass. I mean, there is just more money than we 
can really apply to the research.
    But what is that theoretical limit of what you would want 
to apply to research to Alzheimer's? Because I think this is 
the number-one challenge facing our country for a host of 
reasons--quality of life and, indeed--and indeed, fiscal, the 
fiscal aspect of it. So could you walk us through that, please?
    Secretary Burwell. So with regard to that answer, I 
actually would want to consult with NIH, and here is why. And 
it actually gets to a part of what Dr. Harris raised. In terms 
of our BARDA monies, in terms of managing the taxpayers' money 
well, those monies that we took down were Bioshield monies, and 
it is because the science is not ready and our contracting 
ability in terms of negotiating, we won't negotiate more. And 
so we have carryover balances.
    And so how I would answer that question actually is related 
to where the science is because I wouldn't just want to put out 
a number. I actually would want to know that we believed that 
we could spend the money well.
    And so I am happy to talk to our colleagues at NIH and get 
back to you with that because I actually think that is 
important that when we care deeply about things and are 
passionate about them, I still think we have to use some 
methods of standards of with regard to using the money.
    Mr. Rigell. Oh, I absolutely support that.
    Secretary Burwell. And I am sure you agree with that. Yes.
    Mr. Rigell. As a business person who--and whether in office 
or out of office, I am going to continue to advocate for this 
because I think it is the right thing for our country, and I 
think I will do so as a fiscal conservative.
    It may surprise the chairman, but I was actually called out 
just a little bit in the Financial Services Committee by one of 
our colleagues on the other side, accusing--well, saying that I 
was like raising my voice, I believe, or something because it 
was an Office of Management and Budget Director there, and I 
was actually pressing this whole point about our fiscal 
situation.
    And I share the views that have been expressed here, 
particularly on our side here, that I don't believe the 
administration has fully grasped the threat of our fiscal--the 
risk that we have, and he is not fighting for it. I didn't see 
him fight for it in the State of the Union, for example.
    I walked out just really stunned at the lack of attention 
to this matter, and I acknowledge easily and quickly that both 
sides have contributed to it. But I am \1/435\th of \1/2\ of 
\1/2\ of this part of the Government that actually works on all 
this. He is one-half. And I am just going to take this 
opportunity to share with you, as I did with Director Donovan, 
that I don't think we are grasping the severity of our fiscal 
situation.
    I want my President in his remaining term of office here--I 
am not expecting much, actually--but to really bring a clarion 
call to this and to do what is needed to set our country on a 
better fiscal path for a host of reasons.
    And I want to respect the time, and Madam Secretary, I 
appreciate your service, and I share the respect that all of us 
here have for you.
    Thank you.
    Secretary Burwell. Thank you. Thank you.
    Mr. Cole. Thank you.

                  RACIAL AND ETHNIC HEALTH DISPARITIES

    We will next go to my other friend, the gentlelady from 
California, Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Madam Secretary.
    Let me begin, first of all, by expressing my concern also, 
as Ms. Lee did, with the $21,000,000 cut to the REACH program. 
And I can't help but question that even though there have been 
150 journal articles documenting the achievements of REACH in 
reducing health disparities, that there is a need for another 
study. So I just want to put that on for the record.

                           ADULT IMMUNIZATION

    But I have another question regarding adult immunization. 
As you know, this country is falling woefully behind in our 
progress toward reaching the Healthy People 2020 goals for 
adult immunization. And the recently released 2014 National 
Health Information Survey data confirms very little change in 
adult immunization rates over the last 4 years, with fewer than 
45 percent of adults receiving recommended influenza vaccines 
and barely 20 percent of adults age 18 to 64 being immunized 
against pneumonia.
    Especially concerning is the fact that immunization 
coverage among minority populations is even lower. The 2014 
data revealed that racial and ethnic disparities persisted for 
all seven recommended adult vaccines and worsened for both 
herpes zoster and TDaP.
    For these reasons, I was pleased to see that your National 
Vaccine Program Office recently finalized the National Adult 
Immunization Plan----
    Secretary Burwell. Yes.
    Ms. Roybal-Allard [continuing]. With four goals centered on 
improving infrastructure, access, and demand for immunizations, 
as well as fostering innovation in vaccine development. Could 
you please describe the short- and long-term steps that your 
department will take to move the NAIP implementation forward? 
Specifically, how does the plan address immunization 
disparities in minority communities, and how will HHS measure 
progress in bringing adult immunization rates closer to the 
Healthy People 2020 goals over the next 4 years?
    Secretary Burwell. So I think those four steps that you 
outlined, especially the access, the infrastructure, and 
demand, and in terms of when one is thinking about all three of 
those steps, making sure that we are going to the population 
that is most underserved in those spaces in terms of the 
minority populations. And that will guide our communication 
strategy, as well as how we reach people.
    And I think you know some of the tools that we have used in 
the marketplace, in terms of understanding how to reach 
consumers where they are, are tools that we will transfer and 
are learning from throughout the entire department to make sure 
we are communicating. Because one of the things that we have 
found is often our communications don't reach people. And often 
they are not done by people who are trusted.
    And so these are two very important lessons that I think 
from the marketplace that we are going to try and apply. It is 
why this year, in terms of the places I went for open 
enrollment, I went to barber shops. I went to beauty shops. We 
went to churches. Those are the places where people get the 
information that they trust and use.
    And so I think we need to shift some of our approaches to 
how we do this. Welcome your thoughts specifically on how we 
can reach the community and the ways that we are reaching them 
that you think are working and the ways that we have tried that 
aren't, so that we can quickly--because I think that consumer 
feedback, which I hope you are hearing, can help us get to a 
place where we can be much more effective because it is the 
larger part of the population with regard to these adult 
vaccinations that people don't do.
    The other thing that I would ask for your help and 
assistance, in Medicare, one of the things the Affordable Care 
Act did was it created, you know, preventive services for free. 
These are included. We have seen some increase in uptake, but 
not enough.
    And so this idea of our targeting needs to be across all 
age groups and especially adults in that band. Because some of 
these adult vaccines are especially important as you get older.

                   MULTI-DRUG RESISTANT TUBERCULOSIS

    Ms. Roybal-Allard. Before he went into politics, my father 
was a public health educator, responsible for educating the 
Latino communities in California about the spread and 
prevention of TB. And because of that experience, I grew up 
with a healthy respect for the dangers of this disease and have 
been closely following the case of the 35-year-old man in Los 
Angeles who has been battling extremely drug-resistant TB for 3 
years.
    And I was pleased to see the December 2015 White House 
release of the National Action Plan for Combating Multi-Drug 
Resistant Tuberculosis, and I want to commend you for this, a 
thoughtful and very comprehensive 5-year plan to develop new 
tools for diagnosis and treatment of the new research 
investments for an effective TB vaccine.
    But I am skeptical that the plan will be successful in 
reducing MDR-TB infection in the United States and abroad 
without any designated funding for its implementation in your 
fiscal year 2017 budget proposal. Why was there no funding 
request for the National Action Plan----
    Mr. Cole. I would ask the gentlelady wrap her question up 
and a quick response, please.
    Ms. Roybal-Allard. Can you provide information on the 
implementation and the cost?
    Secretary Burwell. Yes, we will provide information on 
that, as well as the combating antibiotic resistance funding, 
too, which will be a part of it as well.
    [The information follows:]
    
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Cole. Thank you very much.
    I now recognize my good friend, the gentlelady from 
Alabama, Mrs. Roby.

                         UNACCOMPANIED CHILDREN

    Mrs. Roby. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, and I am sorry that we were 
unable to connect----
    Secretary Burwell. I apologize.
    Mrs. Roby [continuing]. Prior to today. On Tuesday, the 
chief of the U.S. Border Patrol testified before the Senate 
that border agents are seeing a dramatic surge in the number of 
unaccompanied minor illegal immigrants arriving at our southern 
border. In fact, the border agents have apprehended over 20,000 
children from October 2015 to January 2016. That is double the 
number from the same period last year.
    And let me just be clear to my colleagues here today and to 
the people that I represent, I feel nothing but compassion 
towards these children, and I think the most compassionate 
thing that we can do is return these children to their families 
in their country of origin.
    Unfortunately, that is just not happening. Only 4 percent 
of these children, according to a statement made by my 
colleague Senator Jeff Sessions, are actually returned to their 
families in Central America. And as the mother of an 11-year-
old girl and hearing the stories about what is happening to 
these children in this treacherous journey to the United States 
is horrifying, quite frankly. It is the worst of human 
trafficking.
    And so I don't feel as though there is discouragement 
coming from the Obama administration. I don't feel like we are 
sending a very clear message, and I have a real concern about 
the fact that there is consideration, continued consideration, 
to house these children on active military bases.
    We received a letter between Christmas and New Year's--a 
week where most people aren't paying attention, but we were--
that in fact, Maxwell-Gunter Air Force Base in Montgomery, 
Alabama, was under consideration to house these children. I met 
with your Office of Refugee Resettlement recently. We went over 
all the criteria about why and how this should be done with the 
military liaison that was there as well.
    And I am deeply concerned that any of our military bases 
remain on the list to house these children. I can share with 
you, I have a map that shows the buildings where these children 
are going to potentially be housed at Gunter. And for those who 
don't know, what happens is the space on these military 
installations where these children are to be housed is fenced 
off, and an outside contractor then comes in, most of the time 
armed, onto a military base. And these children are fenced in 
an area, a small area, mind you, right next to a neighborhood.
    And this is on a military base, Gunter Annex, where 
everything they do is at top secret clearance. This is a lot of 
cyber warfare going on. These buildings are just adjacent to 
the very buildings where our active military personnel are 
doing very important missions on behalf of the United States 
military.
    So I share all of this with you. I know we might do a 
second round, I hope. In the last remaining 1:45, I would like 
for you to first engage on this, and maybe we can follow up in 
the next round.
    But I just want you to know that I have a very strong 
opposition. We need to get these children home, and in the 
meantime, we certainly don't need to have them housed at a 
military base.
    Secretary Burwell. So I think you know our job is to--once 
the child is in the United States, make sure that they have 
appropriate care and are placed in an appropriate and safe 
setting. And that is the role of HHS.
    With regard to the discouragement issue that you raised, 
which I think is an important one, what we have seen is you are 
right about the numbers. Of that 20,000, we received 17,000, 
the 20,000 that they saw, 3,000 never came to us, which mostly 
usually means they go back immediately through DHS.
    But those that came to us, we now have seen a drop-off in 
January, which is a good thing. But we don't know if that will 
stay. And so my job is to make sure we have enough facilities 
that the children don't back up at the border, as we had in 
that one situation. And this gets to the issue of do we have a 
plan? Yes, we have a plan.
    But in order to have a plan, we have to have an ability to 
open facilities as quickly as we need them because it is a 
balance of the taxpayers' money with regard to maintaining 
empty beds versus when you can bring beds on line.
    We appreciate your engagement in helping us review the 
bases. The bases are an important part of this because the 
process--and we are looking at other private sites across the 
country. But as you said, finding sites that can meet the 
conditions that will work for the city, the community, and the 
children, both the children's safety, the community's safety, 
we weight all of those considerations.
    Mrs. Roby. But would you agree with me--and we will 
continue discussing this. But would you agree with me that a 
military base is the last place that we want to house these 
children?
    Secretary Burwell. The issue with the military bases is 
that they actually have housing and facilities that are needed. 
When I go and get GSA buildings, the millions and millions of 
dollars that it will take me to refit, you know, most of the 
GSA buildings that I would go and try and get in terms of 
accessing. The other issue, to be honest, is when I access a 
nongovernment facility, it has to do a process in every State 
for approval.
    Mrs. Roby. Sorry.
    Mr. Cole. I know we got you with a question right at the 
end. I would just ask----
    Mrs. Roby. I am sorry.
    Mr. Cole. That is quite all right. I understand the passion 
around these issues.
    We have had the good fortune to be joined by who we 
affectionately call ``the big chair,'' and so I am going to 
move directly to him for whatever statement he cares to make 
and whatever questions he would care to ask.
    Mr. Chairman.
    Chairman Rogers. The big what?
    Mr. Cole. The big chair. [Laughter.]
    Chairman Rogers. Well, thank you, Mr. Chairman.
    Madam Secretary, it is good to see you. Welcome to the 
Subcommittee.
    Secretary Burwell. Nice to see you.

                           OPENING STATEMENT

    Chairman Rogers. I apologize for being late, but we have 
got 21 hearings this week across our 12 subcommittees, and I 
had to attend the one across the hall with the Secretary of 
Defense for a period of time. But I wanted to be here to hear 
your testimony and be able to chat with you.
    As you know, the Congress and the administration set 
discretionary budget caps for fiscal 2016 and 2017 in the 
Bipartisan Budget Act, and I am proud to say that the 2016 
omnibus stayed within that agreed-upon cap. The budget proposal 
put forth by the administration for HHS is also touted as 
adhering to those spending caps, but it is really just an 
illusion, to be frank with you.
    This year, HHS requested $75,680,000,000. But that number 
does not include an estimated $3,800,000,000 that you proposed 
in mandatory funds to support what are traditionally 
discretionary programs.
    While I very much enjoy our collaboration over time in the 
immediate past on a host of issues, I am disappointed that the 
important goals that we share for your department are 
undermined, frankly, by what I consider a partisan nature of 
that request. We both know that these figures and budget 
gimmicks are unrealistic, and frankly, it makes the already 
very difficult job that we have even more challenging.
    We all know that the mandatory side of the budget, and that 
is three-fourths of Federal spending is mandatory entitlements, 
growing out of control. We only appropriate a little less than 
a third of all Federal spending, and we have cut that. We have 
cut that for the last 5 years back by almost $200,000,000,000. 
We have cut discretionary, but mandatory just grows willy-
nilly.
    And so you are proposing switching some money over to 
mandatory and outside the jurisdiction of this committee to 
oversee. That is why it is a difficult thing for us to have to 
contend with.
    There are two areas in particular that see astronomical 
growth in mandatory spending under your request. First, NIH. 
National Institutes of Health play an important role in 
groundbreaking medical research. NIH projects often result in 
lifesaving medical treatments that impact people all over the 
world.
    This committee understands the importance of NIH. We are 
all personally committed to NIH and demonstrated that support 
through an increase of $2,000,000,000 over fiscal 2015 that we 
put in the omnibus, thanks to the great work of your chairman, 
Chairman Cole. It was a bipartisan achievement.
    And for the administration to propose its well-publicized 
$1,000,000,000 Cancer Moonshot through mandatory spending 
outside the terms of the BBA, outside the scope of this 
committee's jurisdiction, it is simply disingenuous. We are all 
committed to cancer research, all forms of medical research, 
but we still are governed by the laws of nature. We have got to 
make tough choices about how and where to spend taxpayer 
dollars, and when you thrust this money into mandatory, it puts 
extra burdens on us to try to find money on discretionary to 
fund the things that you are displacing.
    The same can be said for the $1,000,000,000 proposal to 
address our Nation's raging opioid epidemic. Madam Secretary, I 
sincerely appreciate your efforts to keep the national 
spotlight on prescription drug and heroin abuse, and you and I 
have talked about this time and again, month after month, year 
after year. And you are a soldier in that cause.
    I know your roots in neighboring West Virginia. My district 
and your area are next-door neighbors, and the battle has been 
waged there for a decade or longer. It has been a source of 
personal motivation that you have dedicated to that cause, and 
you have taken, indeed, strong, decisive action to eradicate 
abusive prescription practices, educate our communities about 
the dangers of these drugs, and treat those suffering from the 
grips of addiction.
    We undoubtedly share those same goals, and I believe we 
have made some real progress together. But I also believe this 
request exposes our diverging paths to the promised land. We 
have got to continue to provide States the support they need to 
defeat the epidemic, but we have also got to do so within the 
reasonable confines of our budget.
    Supplementing existing funding with mandatory dollars to 
fight substance abuse only hurts our ability to address the 
problem in the near and distant future. While the ideas behind 
this budget request merit consideration, the President's 
request is simply not feasible as written. So I hope we can 
work together to address my concerns because the stakes here 
are far too high for us not to.
    Before I close, let me--I would be remiss if I didn't 
mention that rural hospitals across the country are struggling 
financially, and it is across the board. Many of them are on 
the brink of having to shut their doors, and I have several in 
my district that are at that stage, leaving these small 
communities without a dependable source of emergency and 
hospital care.
    Instead of working with these hospitals to make sure rural 
Americans have affordable, reliable care close to home, some of 
the proposals in the President's budget will compound their 
financial troubles. These harmful proposals range from adding a 
user fee for hospitals that utilize the 340B drug pricing 
program to cutting the reimbursement levels for critical 
hospitals that oftentimes serve the chronically ill and 
elderly.
    While to most it may seem like a few dollars here and a few 
dollars there, each proposal chips away at the sustainability 
of these rural hospitals. So I hope we can talk to you about 
that as time passes to solve a problem that is really crippling 
rural America fast.
    I thank you for your work, and thanks for being here.
    Secretary Burwell. Thank you, Mr. Chairman. Thank you.
    Mr. Cole. With that, I want to go to Mr. Dent, but before I 
do, after Mr. Dent enjoys a full 5 minutes, with unanimous 
consent, I am going to move us to 2 minutes. The Secretary has 
to get out of here. I know she has an engagement. We want to 
try and help her.
    But also there is a lot of questions here, and I want to 
give everybody a chance. So please, again, after Mr. Dent, we 
will try and hold it to 2 minutes. So thank you very much.
    And with that, my good friend from Pennsylvania is 
recognized.

                      COLORECTAL CANCER SCREENING

    Mr. Dent. Thank you, Mr. Chairman.
    And good morning, Madam Secretary. We didn't get to hook up 
either, appreciated your phone call, though.
    As you know, for several years, I have been working on 
legislation that waives co-insurance for colorectal cancer 
screening test for Medicare beneficiaries when the screening 
results in removal of tissue or a polyp. I am encouraged this 
year that the budget includes a recommendation to do just that.
    How can we on the subcommittee continue to work with you 
and CMS to implement this common sense policy that we can 
further encourage more people to be screened for----
    Secretary Burwell. I think we are----
    Mr. Dent [continuing]. Colon cancer, and what was the 
impetus for including this in this year's budget?
    Secretary Burwell. Thank you for your leadership and effort 
in this space. And I think we are hopeful that this is 
something that is a change that people could agree on as part 
of the budget process, and when we have put it in the budget, 
it is because we believe we need to help to get it done.
    Mr. Dent. Well, good. I am pleased to see it in there, and 
it is something that we need to correct.
    Secretary Burwell. We look forward to working with you on 
it.

                       NIH FY 2017 BUDGET REQUEST

    Mr. Dent. And my second question deals with the NIH issue, 
and I would like to discuss the discretionary funding cut the 
NIH faces in the proposed 2017 budget request. We provided NIH 
with a $2,000,000,000 discretionary increase in 2016, and I was 
more than a little surprised that the 2017 NIH request reverses 
this with a $1,000,000,000 decrease from NIH discretionary 
funds.
    The request presumes to backfill these dollars with 
mandatory funds, which are outside the jurisdiction of this 
committee room. And we believe that is a truly unacceptable 
budget gimmick.
    Further, it only assumes the mandatory funding for one 
year. In other words, it creates an out-year mandatory funding 
cliff of $1,000,000,000 in fiscal year 2018 that our committee 
would have to address. Mandatory funding cliffs are one reason 
we appropriators do not support switching discretionary 
programs into mandatory funding.
    The bill always comes back to rest at the doorstep for this 
committee to fix, and I certainly urge all NIH supporters, like 
myself, to avoid efforts to swap discretionary funding for 
mandatory funding streams. On top of this gimmick, the budget 
presumes to add another $825,000,000 in mandatory funds for NIH 
to support the Cancer Moonshot, Precision Medical Initiative, 
and the BRAIN Initiative, all good programs.
    Please discuss the impact on NIH if the authorizers don't 
act to provide mandatory funding. And specifically, how will 
this impact extramural investigator grants, success rates, and 
NIH's ability to sustain research supported with the 
$2,000,000,000 increase provided this year.
    Secretary Burwell. So we are appreciative of the increase 
that we received, and I think this is about putting the overall 
budget together in terms and why we took these steps.
    And I think in a world where--and this gets to Dr. Harris 
and some of his comments. In a world where we have a--one of 
the lowest discretionary as a percentage of GDP, which, when 
one thinks about your spending, thinking about the size of your 
economy, seems like an important way to measure.
    And as we think about that, the question is if that is the 
path we want to choose in terms of our discretionary levels, 
and that is--part of that is in terms of what deal we did on 
the sequestration and the replacement of it, and do we think we 
are at the right discretionary level?
    If we think we are at the right discretionary level, I 
think we wanted to stick with the agreement that we believe and 
have paid for. And one of the things that happens even when we 
do the agreements to raise the discretionary caps, often the 
pay-fors that we have in our budget are those that end up 
getting used.
    And so I think the real question, and I am very 
appreciative, as my former role in OMB, of the issue with the 
discretionary and mandatory. So I am very appreciative of the 
concern and the questions that you are raising. I respect 
those.
    But I think the larger question for all of us is do we 
believe that as a nation we are supporting the things that we 
need to support? And I think you know I came back to OMB with 
regular order, and I am so appreciative to Mr. Rogers and Ms. 
Mikulski for getting the first omnibus since 1987 in terms of 
regular order.
    And so I prefer regular order in a world where that may not 
be people's first choice because they have concerns with 
discretionary levels. That is part of why we are doing it.
    So I think what I am hopeful is that we, together, can have 
a real conversation. And that part of the conversation I think 
we can have because I think everybody is hopeful. I am so glad 
to hear all the hearings are going on. To me, that means 
regular order.
    And so that means that, hopefully, we will get this done in 
a June/July timeframe, and this can be a part of that broader 
conversation in terms of, and it relates--NIH is one piece of 
the issues that Mr. Rogers raised.
    Mr. Dent. I just want to conclude right now just to say 
that this is just one area where we are seeing mandatory 
programs--where funding is being diverted to mandatory 
programs. I have the same problem with the Veterans Choice Act. 
That funding is going to expire. It is going to fall on the 
Appropriations Committee to make it up in discretionary funds 
next year, but that is a subject for another day.
    Thank you. I yield back.
    Secretary Burwell. But I think it does get to the broader 
issue and why I think we should have the broader conversation.
    Mr. Cole. Thank you very much.
    As my chief clerk adroitly reminded me, the chairman had 
not had 5 minutes. So, Mr. Chairman, whatever time you care to 
consume, you are welcome to consume. Everybody else will be 
confined to the 2 minutes when their turn comes.

                       CRITICAL ACCESS HOSPITALS

    Chairman Rogers. I will try to be very, very brief. The 
critical access hospitals, these hospitals face a unique set of 
challenges. In my rural district, we have seven critical access 
hospitals. Many of them are already struggling to keep their 
doors open.
    What do you believe will be the impact of these 
reimbursement cuts that you are proposing will have on these 
hospitals?
    Secretary Burwell. So with regard to the issue of rural 
health care and rural hospitals, I think you know because of 
where I come from, this is an important issue overall. And so 
there are a number of places in the budget in terms of A&R 
regulations where the issue of what it does to rural 
communities, and we can go into some of those places. But with 
regard to this specific question, I think it is our thought 
that because these hospitals actually are receiving more in 
terms of Medicare payments than noncritical access hospitals, 
they will be in a place where the impact of this change is not 
something that overburdens them too much, and that is why the 
proposal is as it is.
    But I think the broader question of how we support our 
rural hospitals is one that I think is an extremely important 
one. And throughout our budget, whether that is how we are 
thinking of providers in terms of some of our support for 
people that will tend to go to rural hospitals in terms of the 
public health funds that we do, to providers, whether it is how 
we are thinking about doing telemedicine and having Medicare 
Advantage.
    One of our proposals is that Medicare Advantage would be 
reimbursed in terms of telemedicine so that we can use those 
facilities, and those rural hospitals can benefit from that. 
And so we are trying to think about the issue of rural 
hospitals overall.
    Chairman Rogers. Good.
    Secretary Burwell. And the other thing, while it is not an 
issue in your State, in other States, we have seen a larger 
closure of rural hospitals in those that have an expanded 
Medicaid. That is not, you know, an issue in your State.

      PREVENTION OF OPIOID MISUSE, ABUSE, AND OVERDOSE INITIATIVE

    Chairman Rogers. Yes, thank you. Your opioid proposal is 
sweeping----
    Secretary Burwell. Yes.
    Chairman Rogers [continuing]. To say the least, and I am 
pleased that the request clearly recognizes and acknowledges 
the importance of our fight against drug abuse. But I am 
interested to hear your views on how these new pieces of the 
puzzle fit together.
    Specifically, the degree to which the request relies on new 
mandatory spending, that part troubles me. For example, the 
budget allocates $1,000,000,000 in new mandatory funding to 
SAMHSA and HRSA for treatment programs. Fifteen to 20 years 
ago, Oxycontin was just rearing its head in Appalachia. 
Certainly, my district was the headquarters of that.
    Ten years ago, heroin was just a blip on the radar, but 
today opioid abuse has spread to every corner of the country. 
Cheap heroin is being laced with fentanyl, so strong that 
unsuspecting users die every day from overdose.
    With the fight against drugs changing at the speed of 
light, it seems irresponsible to tie our hands with inflexible 
mandatory funding. We need to be agile and move with the times, 
adapting to the needs as they arise. The only vehicle that 
makes that possible really is discretionary spending so that we 
can help you adjust to whatever takes place as we march down 
this path.
    What is your take on that idea?
    Secretary Burwell. First, thank you for your partnership 
and leadership. As you mentioned, we have worked on these 
issues together for a long time.
    And with regard to the specific issue because we put most 
of the money in treatment, specifically medication-assisted 
treatment. I think you and I have discussed the strategy. I 
think it is a bipartisan agreement. That is important. Those 
monies will all go to States and communities mostly in terms of 
improving their infrastructure and ability.
    Some of that is to train providers that would be--you know, 
you would want to continue, but that may be more one-time 
money. I think the question fundamentally, with regard to the 
medication-assisted treatment and the behavioral health issues, 
is historically in our country, we actually have had a 
situation where those are funded at the local level. And that 
is one of our biggest challenges right now, 85 percent of rural 
counties don't have behavioral health, and that is because 
often it is funded at the State and local level.
    And so I think, as we think through this question about 
discretionary, mandatory, short-term, long-term, we actually 
need to answer whose responsibility do we believe that is? And 
I think we are going to face these questions. We face these 
questions in Flint, as Ms. DeLauro mentioned. We face these 
questions in behavioral health.
    And whether that is the money we have put in for the 223 
waivers that are part of that proposal or this. And so that, I 
think, is a part of the conversation we are going to need to 
have. Do we believe it should be the Federal Government's 
responsibility over the long term? And if we do, let us think 
about how we can find space on the discretionary side or lift 
those caps.
    Chairman Rogers. Well, we can continue to talk.
    Secretary Burwell. Thank you.
    Chairman Rogers. Thank you, Mr. Chairman.
    Mr. Cole. Thank you, Mr. Chairman.

                         INDIAN HEALTH SERVICE

    Madam Chairman, I am next, and I am going to be very brief 
in my questions, almost code, to give you as much time of my 2 
minutes I can to respond. I will warn you these are matters I 
will be bringing up with you multiple times probably in the 
months ahead.
    The first one, as you know, recently CMS flagged three 
Indian Health Service hospitals as ``posing an immediate 
jeopardy to the health and safety of their patients.'' Those 
hospitals are under the jurisdiction of your department. I take 
this very, very seriously. I have raised it with the Director 
of Indian Health this morning at an earlier hearing. I wanted 
to know that you are focused on this and you have a plan to 
deal with it.

                            WELDON AMENDMENT

    The second question is the Weldon amendment. I am for a 
year and a half asked about--we get constant complaints that 
the State of California is not or is forcing institutions 
against their own conscience and creeds to perform procedures, 
abortions, that they don't believe in.
    We have been told there is an ongoing investigation. It 
shouldn't take that long. They either are or they aren't. But I 
would like you to respond to that and tell me where we are in 
the investigation.
    With that, I yield the balance of my time to you, Madam 
Secretary.
    Secretary Burwell. With regard to the second issue, when 
you and a number of your other colleagues contacted me and 
asked for an investigation to be opened, we opened that 
investigation. As you indicated, we are still in the middle of 
the investigation, and as I stated in the hearing yesterday, it 
has taken longer than I would like.
    Because the investigation is still open and has not come to 
closure, I am not able to comment in terms of that. And in 
terms of setting a timeline, I am not able at this point to do 
that.

                         INDIAN HEALTH SERVICE

    With regard to the Indian Health Service issues, it is a 
priority, and I look for your support as we work through it. 
Right now, we have changed the regional leadership. We have 
added a deputy for quality and a deputy for management, both at 
IHS.
    And I have asked the Acting Deputy Secretary, Dr. Mary 
Wakefield, who ran HRSA, to have a cross-department effort so 
that we are bringing the best experiences of CMS, HRSA, SAMHSA, 
and any of the other best practices we have to increase the 
quality of the service that is being delivered at IHS because 
it is not satisfactory.
    Mr. Cole. I appreciate that very much. This is an area we 
have actually increased funding since 2008 by 54 percent. It 
has been a really good bipartisan effort to try----
    Secretary Burwell. Yes.
    Mr. Cole [continuing]. And get at the problems in Indian 
Country and, frankly, one that the administration can be very 
proud of its role. So I look forward to working with you on 
that.
    And with that, I want to recognized my good friend, the 
distinguished ranking member from Connecticut.
    Ms. DeLauro. Thank you, Mr. Chairman. Just a couple of 
points.
    Labor, HHS is 32 percent of nondiscretionary spending. With 
that and our allocation last year, it should have been 
$10,500,000,000. If we were to get the additional 
$5,200,000,000 this time, we could avoid dealing with mandatory 
funds.
    Very quickly, secondly, the prevention fund, Secretary has 
no flexibility over that prevention fund because for the last 3 
years, the Congress has made those allocations. We just ought 
to read the table.

             OPIOID MISUSE, ABUSE, AND OVERDOSE INITIATIVE

    Medication-assisted treatment. You are talking about your 
opioid initiative. I would like to have you talk about that. I 
had the opportunity to witness it firsthand at the New Haven 
Correctional Center a week ago.

                        PRESCRIPTION DRUG COSTS

    Secondly, you have got some proposals on prescription drug 
costs, bringing that cost under control. I would like to have 
you just expand on that for a moment. The floor is yours.
    Secretary Burwell. I will do those backwards. As far as 
rising cost of prescription drugs, in this budget proposal, 
what you will see is we would like to move to close the donut 
hole faster, which will mean benefits. Right now, we have seen 
$20,000,000 in benefits to 10 million seniors. We would like to 
speed that up as one of the things to help with the costs for 
individuals.
    With regard to the overall cost, we have asked for 
authorities for specialty and high-cost drugs that we would 
have the authorities to negotiate.

                OPIOID MISUSE, ABUSE, AND OVERDOSE DEATH

    With regard to our opioid/heroin strategy, there are three 
main parts, and that is what the funding goes towards, these 
evidence-based strategies. The first is prescribing. We need to 
reduce the prescribing. You will be seeing CDC guidelines that 
will come out about prescribing. That is one of the things. 
There is some funding in the FY 2017 Budget Proposal to help 
support the implementation of those.
    The second is medication-assisted treatment. That is where 
the vast majority of the funding goes because we know as an 
evidence base, that is the place. There are supplemental 
proposals in our budget that include things like who can 
prescribe buprenorphine. We hope you will review those budget 
proposals as well.
    And the third element is naloxone or Narcan. And sadly, 
when people get to the place where overdosed, we must have 
tools for people to help them not die.
    Ms. DeLauro. Mr. Chairman, I would hope we could have a 
hearing on the high cost of prescription drugs in this 
committee and during this period of time.
    Thank you.
    Mr. Cole. Thank you.
    I next go to my good friend from Tennessee, Mr. 
Fleischmann.

                         CYBERSECURITY THREATS

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Madam Secretary, I am very concerned about the recent 
accounts of American hospitals and doctors' offices being the 
victim of ransomware and other cybersecurity attacks that have 
the potential to compromise or delete patients' personal health 
information and other critical and sensitive data that our 
healthcare delivery system relies on.
    I have two questions. What is the department doing in 
conjunction with other Federal agencies to address cyber 
threats to our healthcare system? And as a follow-up to that 
is, in your opinion, how serious is the ransomware threat, and 
what resources are you devoting to protect Medicare data from 
criminal security breaches?
    And with that, I will yield the balance of my time to you, 
Madam Secretary, so you can address that.
    Secretary Burwell. So an extremely important issue, and 
actually, HHS is one of the--I think it has been stated even 
this week has been recorded as one of the lead departments on 
cybersecurity. We need to do it across the whole department, 
but I think you are focused specifically on CMS.
    Some of the funds in our budget this time are very 
important funds to continuing our effort in cybersecurity. To 
answer your question about how important and how concerned we 
are about these issues, when I was confirmed on--for this job 
and had my first meeting with the issuers, everyone--it was 
June 9th, and so everyone thought I was going to talk about 
technology and the marketplace, which, of course, was a topic I 
should touch on, making sure we get that right.
    But actually, the topic I also wanted to talk on was 
cybersecurity, and that was in June of 2014. I think this is an 
extremely important issue that we need to all work together on. 
I think we need the best practices from the private sector to 
learn from them, but I also think making sure we have a close 
tie and connection because when this happens, there are 
questions of breaches of information that could be HIPAA 
violations for individuals, depending on what those are.
    And so making sure that we are working in a forum that we 
are doing our part as we can, learning from the private sector 
and making sure we are sharing as well. And that is not just at 
HHS. To your point, we coordinate with the FBI and others 
because when there is information that is important through 
DHS, we need to make sure that industry has information as 
appropriate around these issues.
    Mr. Fleischmann. Thank you, Madam Secretary. Appreciate 
your testimony today.
    Mr. Chairman, I yield back.
    Mr. Cole. Thank you very much.
    I now go to my good friend from Philadelphia, Mr. Fattah.

                       EARLY CHILDHOOD EDUCATION

    Mr. Fattah. Madam Secretary, if we could turn our attention 
now to another part of your testimony today is around the Head 
Start and early education. So in Philadelphia, over 
$300,000,000 in Federal--mostly Federal funds are used to 
provide Head Start and early childhood education, but we are 
still only reaching something slightly less than 40 percent of 
the children, and there is more to be done.
    I appreciate the fact and will support the administration's 
request for $9,600,000,000 in Head Start funds. I also note 
that you want to create a $350,000,000 fund to work with States 
in terms of preschool development grants. Can you talk a little 
bit about how those dollars would be used and distributed?
    Secretary Burwell. So as we think about this continuum and 
our early education home visiting. Thank you for the support in 
MACRA in terms of home visiting. But we think about home 
visiting, early education, preschool, and child care and Head 
Start. They are together--Head Start serves a particular 
population, but we want to make sure certainly in our child 
care proposal we are serving more.
    In that early education money, those are monies that are 
generally targeted to more low-income communities through the 
States. And so some of those are for broader communities like 
child care, and Head Start and others are targeted more towards 
the low-income communities.
    Mr. Fattah. Thank you very much.
    Can you talk a little bit about where you think--because 
you know the Pew Foundation, which is based in Philadelphia, 
has done a lot of work with States, and in fact, many of our 
State governments have been at the very forefront of this work. 
And I know the administration has taken a leadership around 
these first 1,000 days of a child's life. It is critically 
important in terms of the networking for the brain and for all 
of the health-related issues that are very, very important.
    Talk about how you see the department's work now in 
conjunction and in working alongside of some of your colleagues 
like at the Department of Education and other----
    Mr. Cole. Madam Secretary, you can talk about it, but be 
brief.
    Mr. Fattah. Oh, I am sorry. I forgot we were cutting it to 
2 minutes. I will withdraw the question.
    Secretary Burwell. Thank you.
    Mr. Cole. OK. Thank you very much. I appreciate that.
    Dr. Harris, I don't know if you were here, but we are at 2 
minutes.
    Mr. Harris. Two minutes.
    Mr. Cole. OK.

                       NATIONAL CANCER INSTITUTE

    Mr. Harris. All right. Three very brief things. One, I am 
concerned, and I won't ask you to address it now. You know, we 
are almost one year out from--from the NCI Director announcing 
his retirement, and we still don't have an NCI Director. That 
is of concern for me, you know, when we are talking about 
Cancer Moonshots that, you know, the leading cancer person, his 
replacement hasn't been appointed.
    Let me just mention one other thing. You know, the rosy 
assumption in the President's budget, of course, is 4 percent 
GDP growth. We haven't had 4 percent GDP growth in 10 years. In 
fact, as you know, the last quarter was 0.7 percent GDP growth. 
So that is a really rosy assumption.
    And one of my concerns is that part of the Medicare 
savings, correct me if I am wrong, that is projected in your 
budget, that, you know, comes in under all--you know, balances, 
whatever you want to call it, is the change in the target rate 
growth from GDP plus 1 to GDP plus 0.5.
    Is that right? That does achieve some of the savings?
    Secretary Burwell. With regard, I will have to go back----
    Mr. Harris. The Medicare----
    Secretary Burwell. I will have to go back and check, 
Congressman. Some of these questions in terms of those are--are 
no longer----
    Mr. Harris. Well, I am assuming, since it triggers the 
IPAB, the Independent Payment Advisory Board, at a lower rate, 
you must be making that to achieve savings, I would imagine. My 
concern again is with the Independent Payment Advisory Board. 
No one has been appointed to it.
    It is going to be a rationing device, and I just hope 
Medicare beneficiaries realize what the--what your budget does 
to Medicare over the next few years.

                          ZIKA VIRUS RESPONSE

    Finally, with regards to the Zika request, is it my 
understanding the administration said they actually want to use 
some of the Ebola leftover money for malaria last week?
    Secretary Burwell. Well, with regard to that, that is a 
question that would go to the State Department or USAID. Those 
are funds that are in their areas, not in mine.
    Mr. Harris. So if that is true, the administration has 
already made a decision to use some of the Ebola monies for 
other diseases. And I would just suggest that that is what the 
State Department thinks they ought to do, that is what you 
ought to do for the Zika and not come in with a budget-busting 
$1,800,000,000 request.
    And I yield back the time.
    Mr. Cole. Thank you.
    The gentlelady from California is recognized for 2 minutes.

                         UNACCOMPANIED CHILDREN

    Ms. Roybal-Allard. Madam Secretary, in your response to a 
question that was asked by my colleague Mrs. Roby, you said 
that it was your job to make sure unaccompanied children were 
safe. And so I was truly shocked to read about the release of 
unaccompanied minors from ORR in care into the hands of human 
traffickers, as was documented by the Permanent Subcommittee on 
Investigations in the U.S.
    Can you tell me how much money is ORR requesting for home 
studies, which investigates the background of sponsors before 
children are released to them and post release services in 
which HHS can continue to check in on a child? And is the 
amount requested sufficient to take care of the anticipated 
number of unaccompanied children?
    And if you have the time, if you could comment on the 
department's plan to continue and expand the pilot program 
where home studies are now required for all unaccompanied 
children 12 and under placed in Category 3.
    Secretary Burwell. The issue in Ohio is a tragic one of 
people breaking the law, and we will work with the Justice 
Department to do everything we can to the full extent of the 
law in terms of that tragic circumstance.
    With regard to the overarching question of how we do this, 
there have been a number of improvements that we have made over 
time with regard to the safety of the children. And whether 
that is background checks on all adults who might be in the 
home, whether that is follow-up calls, whether that is 1-800 
numbers, there are a series of those steps. I am happy to get 
those to you.
    With regard to the funding issue, because of the 
unpredictability of the flows, as we discussed with 
Congresswoman Roby, our ability to do certain parts of this is 
dependent on the funding flows. Our ability to answer the 
question you asked would be enhanced greatly by having 
$400,000,000--the contingency fund that we have put in. Because 
that way we could actually focus on if there is a flex, we 
would know where we would get that money, and we wouldn't use 
it unless we needed to flex. And then we could have surety of 
our money for the other services we provide.
    Mr. Cole. Thanks very much.
    The gentlelady from Alabama is recognized.

                     OFFICE OF REFUGEE RESETTLEMENT

    Mrs. Roby. Madam Secretary, I would appreciate, based on 
that last line of questioning, the opportunity to discuss that 
further with you. The GAO issued a report of the ORR, and it is 
quite concerning. They uncovered myriad problems regarding the 
handling of the detained minors--abuse, lack of oversight, a 
lack of control over the whereabouts and livelihoods of these 
minors.
    So what I read in the Washington Post certainly, and I am 
sure you saw that article as well, doesn't give me any 
confidence about what is actually happening within the 
department, particularly if we have another influx, as is being 
predicted.
    So what are your comments on GAO's findings, and how is 
your agency addressing the concerns that were outlined in the 
GAO report?
    Secretary Burwell. With regard to the specifics, as I said, 
we have made a number of improvements. But I would have to see 
which report at this point, in terms of the GAO report, the IG 
report, and I want to make sure I am referencing the right 
report. And so we can come back on that.
    But a number of improvements are made with regard to the 
children. What I would say that is so important is our ability 
to focus on those issues is extremely important. We want that, 
and I think you know I came to the committee and asked for 
additional funding for this year, the year we are currently in, 
the fiscal year we are in, not the budget conversation we are 
having.
    I asked. I sent letters. I talked to all four corners, all 
of those, because this ability to have standardized funding 
that we know we can depend on is a part of our ability to 
manage these problems well. And so that is the one thing as we 
are having this conversation especially around the budget that 
I think is extremely important.
    We want to hear if people have suggestions for things we 
can do more. I think you have heard we have made a number of 
changes to make sure that we are checking the children, things 
are checked before.
    You know, many of these children go to their parents here, 
and that is one of the issues that I think is an important one 
to recognize, that they are children. They make the journey, 
and they actually are placed with their parents. We still do 
checks in terms of that as well.
    Mrs. Roby. I yield back.
    Mr. Cole. Thank you very much.
    And for the last questions of the morning, I recognize the 
good gentleman from Pennsylvania, Mr. Dent, for 2 minutes.

         BIOMEDICAL ADVANCED RESEARCH AND DEVELOPMENT AUTHORITY

    Mr. Dent. I will keep it real quick. Thank you again, Dr. 
Burwell.
    Just on the issue of BARDA, and I just wanted to make, I 
guess, a quick comment. It is my understanding that a vaccine 
platform, these technologies or these platform technologies 
could now be called upon to quickly develop a Zika vaccine and 
in general respond more expeditiously to the next outbreak or 
threat.
    What is BARDA or HHS doing to support and facilitate 
platform-based technologies against known and emerging threats? 
And I mentioned Zika, but you know, there are other threats 
that are out there, obviously, from SARS, Ebola, H1N1 and H5N1, 
et cetera. So could you comment on that?
    Secretary Burwell. Right now, BARDA is a part of 
conversations that we are having with the private sector, and 
it is not just in the vaccine space. It is in the diagnostic 
space as well. Certainly for Zika, but for many other things as 
well, and so--and in the treatment place.
    Mr. Dent. CDC, right? CDC doing the diagnostics or----
    Secretary Burwell. Ah, yes. CDC is doing the diagnostics, 
but we are really looking for private companies to actually 
take over manufacture of it because right now, it is all 
happening through CDC.
    We also would like to see the private sector improve the 
technology. We have a technology. This is one of the difficult 
things about Zika. The diagnostic that is for you have the 
full-blown disease, it works pretty well. We know that you have 
Zika if you are symptomatic and we test you.
    If you have passed and we want to test you--you went to 
Mexico, you came back. Eighty percent of people don't have 
symptoms, and we want to test you for that, that is a problem 
because we could show a positive, but you actually could have 
had chikungunya or dengue instead.
    And so, our ability on that, so we are looking to the 
private sector as we advance. We will move as quickly as we 
can, but we are happy if the private sector can. So BARDA is 
playing an important role. In the supplemental, you will see 
funding asked for for that.
    Mr. Dent. Thank you. I will yield back my last 18 seconds. 
[Laughter.]
    Mr. Cole. I thank the gentleman for his generosity.
    Madam Secretary, I want to--this is probably your last 
appearance before this subcommittee, although we will certainly 
have the opportunity to continue to work together for the 
balance of the year, which I look forward to a great deal.
    And again, I want to echo and reinforce the sentiments of 
everybody on this committee on both sides of the aisle about 
how much we appreciate your service, what you have done, what I 
know you will do in the next year, what a delight it is to work 
with you. Frankly, how thorough and professional you are and, 
frankly, how much we will miss you in front of this committee, 
although I suspect you will not miss us very much. [Laughter.]
    Mr. Cole. You have hardly been able to wipe the smile off 
your face as the minutes have ticked down. So I recognize that, 
but you will be missed by both sides of the aisle.
    And thank you very, very much for your distinguished 
service to our country in a variety of capacities under two 
different administrations. It is something that you can take a 
great deal of personal pride in. It is something that, again, 
every Member on this dais certainly respects.
    Secretary Burwell. Thank you, Mr. Chairman. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
                                               Tuesday, March 1, 2016.

     BUDGET HEARING--CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                                WITNESS

WENDY SPENCER, CHIEF EXECUTIVE OFFICER, CORPORATION FOR NATIONAL AND 
    COMMUNITY SERVICE

                        INTRODUCTIION OF WITNESS

    Mr. Cole. I will go ahead and convene us, and I will get to 
my opening statement, but before I do, as we were discussing, 
Ms. Spencer, in the back, it has been 16 years since this 
committee has had the opportunity to hear about some of the 
wonderful things you are doing at the Corporation for National 
and Community Service, but it hadn't been 16 years since any of 
us have seen you. We see you regularly around the country and 
across our districts, and so I appreciate very much the manner 
in which you run your agency, and frankly, how accessible you 
have been to every member of this committee, quite frankly. So 
it is a genuine pleasure to have you here.
    Good morning. Again, my pleasure to present Ms. Wendy 
Spencer, the CEO of the Corporation for National and Community 
Service to the Subcommittee on Labor, HHS, and Education to 
discuss the agency's fiscal year 2017 budget request.
    We are looking forward to hearing your testimony, 
especially since it has been quite a while since this 
subcommittee has held a hearing on the Corporation's budget. We 
tried to have you up last year, but unfortunately, we had to 
cancel because of conflicting schedules. So we are very happy 
that you are able to be here today and join us.
    America has a long and rich history of service and 
volunteerism. About one in four Americans formally volunteered 
with an organization in 2014, contributing in ways ranging from 
tutoring to preparing meals for the homeless to assisting their 
neighbors in the wake of natural disasters.
    The Corporation's programs support, enhance, and expand 
upon these efforts through helping to build capacity at the 
State and local level and by awarding grants to place 
volunteers where they are needed across the country. Both the 
Corporation and Congress have a responsibility to conduct 
oversight of the Corporation's approximately $1,000,000,000 in 
budget authority to ensure that taxpayer funds are being spent 
wisely. We look forward to hearing about the Corporation's 
accomplishments over the past years and plans for the upcoming 
fiscal year.
    As a reminder to the subcommittee and our witnesses, we 
will abide by the 5-minute rule so that everyone will have a 
chance, but we may be a little more generous on the 5-minute 
rule than normal. So anyway, again, we are very anxious to have 
you here.
    And with that, I would like to yield now to my ranking 
member, the gentlelady from Connecticut, for her opening 
remarks.
    Ms. DeLauro. Thank you so much, Mr. Chairman. And my 
apologies for being late, but great to be here. And as I said, 
listen, if it is the two of us, it is the two of us. Why not, 
you know? So here we go.
    I want to say thank you for holding the hearing because I 
think we share the view that the programs we speak of this 
morning tap into one of the best attributes that we have as a 
nation. National service is a core American value. It makes 
this country exceptional. Service provides an unparalleled 
richness for those that participate and gives citizens the 
greatest potential to change the face of the communities that 
they serve.
    So I welcome you, Ms. Spencer. I look forward to talking 
with you. And yes, it has been 16 years, and we know we tried 
last year, so delighted you are here today. But fortunately, 
your work over these years has demonstrated how valuable these 
efforts are.
    The Corporation for National and Community Service was 
founded on the idea that government can and should play a role 
in giving citizens the opportunity to address pressing problems 
across the country. It is a powerful idea that carries on 
despite whatever happens in this institution on both sides of 
the aisle.
    Last year, we were able to make important investments in 
the Labor, HHS bill, including a small, much-needed increase 
for the Corporation. We provided an additional $50,000,000 for 
AmeriCorps, an additional $10,000,000 for the National Service 
Trust. We supported an increase of more than 10,000 new 
AmeriCorps members to serve and created new opportunities in 
communities across the country. And in many ways, last year's 
omnibus moved the Federal budget in the right direction.
    The chairman has heard me say this last week, and he will 
continue to hear me say this. With Labor, HHS, we received a 
fraction of what I believe is our fair share last year of the 
$66,000,000,000 increase that was provided by the budget deal. 
Other nondefense subcommittees received an average increase of 
6.9 percent. Labor H was about 3.4 percent. And we do have 32 
percent of the nondefense discretionary budget.
    So the issue for me is how we continue to try to move in a 
direction that allows us to get increased resources in order to 
meet the needs, your needs and our needs. Because if we take a 
look at what happened last year and we reversed it, we had a 
House mark that slashed the Corporation's funding by 
$367,000,000. It was a cut of 35 percent. And that would have 
really decimated programs that serve millions of our most 
vulnerable citizens. And fortunately, really, and I mean that 
very sincerely because it was hard-fought to get an agreement 
and to avoid what were harmful cuts.
    So again, it is the richness of the experience that these 
programs provide. It makes young people really become engaged 
in the fabric of our society so they are not little islands by 
themselves, but they understand that they have a 
responsibility, that they are not out there for himself or 
herself, that we share a responsibility for what happens in our 
country. And that helps us to move the needle on the great 
issues of the day.
    Volunteers today are preserving our parks, our public 
lands, mentoring our students, providing job training for 
veterans, responding to national disasters, and as I said, 
supporting our most vulnerable citizens.
    Communities want programs like AmeriCorps. In 2015, CNCS 
was only able to fund a third of all grant applications that it 
received. Last week in our hearing with Secretary Burwell, we 
talked about the tragic situation in Flint. Thousands of 
children have been exposed to lead-poisoned water for more than 
a year. Your folks have responded to this crisis working with 
Michigan agencies, nonprofit organizations for the past few 
months to address the crisis. They are boots on the ground. 
They are there. Nine members of AmeriCorps National Civilian 
Community Corps are on the ground in Flint. They are going door 
to door. They are trying to educate residents on using water 
filters appropriately, providing information on nutrition 
related to lead exposure. I am going to be in Flint on Friday, 
and I would love to talk with you about trying to get to meet 
some of your folks there.
    Senior Corps volunteers and other CNCS member volunteers 
are assisting in public education, providing bottled water, 
managing donations, helping to process hundreds of non-CNCS 
volunteers, placing them where they are most needed. This is 
why our investment here is essential. You connect volunteers to 
communities in their hour of need.
    I am pleased in the budget to see a request for a modest 
increase to the VISTA programs, an additional 230 full-time 
VISTA members who commit to serve for a year in some of our 
most impoverished communities. I am disappointed to see level 
funding for the National Senior Volunteer Corps and that the 
budget request is more than $50,000,000 below the agency's 
budget. As I have said, this is a smart investment in these 
programs. You help Americans graduate. You help people pursue 
higher education and find work.
    So, again, every dollar invested in national service 
results in a return to society of nearly $4 in terms of higher 
earnings. I will repeat something that I have said, and that is 
these programs are so important, and that is why I will 
continue to fight for a higher allocation for this subcommittee 
for the good of the communities who depend on us.
    Thank you so much, and we look forward to your 
participation and your discussion. Thank you, Mr. Chairman.
    Mr. Cole. Before we move to you, I know my friend from 
Connecticut will know that while I appreciate her efforts, I am 
always happy to see level funding because that is probably what 
I am going to get. So I am very grateful that you have come in 
the door that way. That is a good start. [Laughter.]
    Mr. Cole. But with that, if we may, Ms. Spencer, let's turn 
to you for your opening remarks and then we will move to 
questions and answers from the committee and obviously from 
yourself.

                       WITNESS OPENING STATEMENT

    Ms. Spencer. Thank you so much, Chairman Cole and Ranking 
Member DeLauro, Congresswoman Lee. It is really great to be 
here, and this is a wonderful opportunity for us to testify.
    We are grateful for the funding increase Congress provided 
last year to support our vital work. And I want that to be 
noted. We are very grateful and very appreciative.
    Our 2017 budget request is $1,100,000,000, which is almost 
level funded, as you mentioned, from last year. This budget 
will support our mission to improve lives, expand opportunity, 
and tackle some of the Nation's most important needs.
    Allow me to describe some of our work to you. First, we 
empower citizens to solve problems. Senior Corps and AmeriCorps 
members serve at more than 50,000 locations across the country. 
These dedicated Americans serve in tough conditions to meet 
local needs like tutoring and mentoring youth, eliminating 
hunger, responding to disasters, supporting veterans and their 
family members, just to name a few, all while recruiting 
millions of Americans to serve alongside them, multiplying the 
impact.
    Second, we leverage substantial outside resources. I am 
very pleased to share with you today that for the first time in 
our agency's history we were able to report that our local 
support has exceeded our Federal appropriation, a goal of mine 
since I started 4 years ago. Last year, our programs generated 
$1,260,000,000 in required match, additional resources from 
corporations, foundations, local community organizations, and 
also resources raised by our members. This local support boosts 
our impact and stretches the return on the taxpayer dollar, so 
I am very, very proud of this announcement, which we have just 
been able to make.
    Third, we really recognize and support local control. 
Governors play a very key role in deciding where AmeriCorps 
resources go through State service commissions, as an example. 
Local groups recruit, select, and supervise their members. This 
is done at the local level. Mayors and county leaders also see 
us as a key partner. In fact, last year, just shy of 2,800 
mayors and local leaders and tribal leaders representing 150 
million Americans united to recognize AmeriCorps and Senior 
Corps on a single day.
    And fourth, we expand opportunity in so many ways like 
keeping students on track to graduate, housing homeless 
veterans, helping seniors live independently, and connecting 
people to jobs. Plus, AmeriCorps members provide valuable 
skills and scholarships to help themselves. These scholarships 
pay back college and student loans or help them go to college 
for the first time. It is a great benefit if you want to serve 
and you can receive a benefit to increase your higher education 
goals.
    Our 2017 budget builds on this foundation to meet community 
needs with greater impact, accountability, and efficiency. Our 
budget request supports the following: 88,400 AmeriCorps 
members serving in programs that depend on their skills and 
their leadership, programs like Habitat for Humanity, Teach For 
America, City Year, Catholic Charities, Veteran Corps, 
conservation corps, and in tribal communities. It also supports 
270,000 older Americans in Senior Corps programs while 
introducing competition to Foster Grandparents and Senior 
Companion.
    It will help support evidence-based programs through our 
Social Innovation Fund, including our Pay for Success pilot. 
And it will support investments in our IT systems to increase 
accountability, efficiency, and provide first-rate support to 
our grantees and partners, something we need and it is overdue.
    So, Mr. Chairman and members of the committee, our programs 
empower citizens. They bolster civil society, expand 
opportunity, encourage personal responsibility, strengthen our 
communities, and I contend they unite us as Americans.
    Thank you for your support. Thank you for inviting me 
today. It is a true honor to serve in this role to help engage 
Americans in service and help support our local organizations. 
I am happy to answer your questions. And as always, I seek your 
guidance and advice. Thank you.
    [The prepared statement and biography of Wendy Spencer 
follows:] 


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


                         SOCIAL INNOVATION FUND

    Mr. Cole. Thank you very much for your testimony. If we 
can, I want to have a couple of questions that will focus 
around the Social Innovation Fund in particular. In your budget 
justification, you mentioned several examples of positive 
outcomes that stem from efforts supported by the Social 
Innovation Fund such as improving employment retention for 
individuals that participate in job-training programs and 
increasing reading proficiency among K to 12 students. However, 
the process and criteria by which grantees and especially the 
sub-grantees are chosen in this program is a little unclear to 
me. So would you just elaborate about how you go about making 
the decisions on grantees and sub-grantees?
    Ms. Spencer. Thank you for that question. So the Social 
Innovation Fund is something we are very proud of. It is one of 
our newer programs in our 21-year history. We have been working 
on this for 6 years now, so it is a new program. And we are 
always looking for ways to improve it. But what I like most 
about the Social Innovation Fund, two things. One, it really 
does a deep dive on some of our nation's most difficult 
problems, addressing chronic homelessness, chronic 
unemployment, third-grade reading level for our students. So it 
really goes after some of the toughest problems with a surge of 
investment both at the Federal level and even more so at the 
local level.
    The financial match for this program is really rigorous. It 
is almost three to one. The minimum grants are $1,000,000 to 
the intermediary. It has to be matched by cash, dollar for 
dollar. And then when that intermediary is selected, they then 
have to subgrant out their grants in $100,000 minimum 
increments and that has to be matched at the local level dollar 
for dollar.
    So it is a very, very significant investment from the 
private sector. In fact, over the last 6 years, the Federal 
investment is about $270,000,000, and the local investment is 
exceeding $580,000,000. Now, let me just make this, you know, 
to a personal one, a couple that I visited, and I really like 
this example.
    REDF is a program that focuses on chronic homelessness and 
unemployment. One of the sub-grantees is called Chrysalis. And 
I went in and met some individuals who have been unemployed and 
homeless virtually all of their adult lives, grown men in their 
40s and 50s. And for the first time in their lives, they now 
have housing and a job, and the way they have it is the 
Chrysalis organization worked closely with them to provide a 
job through what they call a social enterprise. They have pest 
control services, they do corporate cleaning, they do wonderful 
training in addition to this.
    And the one gentleman that I met who had been virtually 
homeless his entire life, he said this is the first time that I 
have had a job that I feel confident in and that I can do. One 
was working in pest control services, something that he could 
train for easily and be on time for and be prepared for. And 
the other gentleman is now driving a garbage truck for the 
local county.
    So how do we get there? We get there through a rigorous 
competition. We had great interest in our applications. But it 
is difficult because you have got to have so much match from 
the local level, and it is hard for intermediaries to do that, 
especially when we started, which was right in the beginning of 
the recession.
    But one of the things that I asked these intermediaries, I 
said how have we been able to scale your program? And they said 
the thing about partnering with the Federal Government is that 
this was a seal of approval. We were able to get to the table 
new funders for the first time from foundations in the private 
sector because we were qualified to meet your rigor. We were 
also able to increase existing investments from organizations 
and foundations that we haven't been able to do in the past. So 
that is what they have told me, and it has been consistent.
    So I do believe the process is very rigorous, but I always 
welcome improvements. It is new to us, so we are always trying 
to grow.
    Mr. Cole. Thank you. I will have some other questions, but 
in the interest of time, let me go to the gentlelady from 
Connecticut for her opening questions.

                       EARLY CHILDHOOD EDUCATION

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And I would just say I think that we helped to restore 
funds in that program last year, and I think the explanation 
that Ms. Spencer has given us about the value of the program 
moves us in the direction of looking at really public 
investment and private investment and making it work. And that 
is a goal that we really all have here.
    Let me ask about early childhood education and your work. 
Six million kids ages 5 and younger living in poverty in the 
United States. Deficits lower-income kids face during early 
years leads to unbelievable struggles later with academics, 
behavior, absenteeism. Between birth and age 6, children from 
more affluent families will have spent as many as 1,300 more 
hours than poor children on child enrichment activities, music 
lessons, travel, summer camp. Without early learning, low-
income kids enter kindergarten as much as 60 percent behind 
their more affluent peers, and that gap just persists through 
adulthood.
    In your testimony, you referred to the support that CNCS 
provides to schools through tutoring and mentoring programs. I 
am particularly interested in programs that support our 
youngest kids who are living in poverty. What early childhood 
programs do you all partner with? What percentage of your 
resources go to these programs? Is there a waiting list of 
early childhood programs that would like to work with you? And 
is there more you could do if you have additional resources?
    Ms. Spencer. Thank you so much for that question. This is 
an area that I am very passionate about. And let me tell you 
our footprint so you have a real clear picture, as you asked. 
We have six areas that we focus on: environment, education, 
economic opportunities, disasters, veterans and military 
families, and healthy futures. We could legitimately make a 
case to you to divide our funding six ways because those are 
all very important areas. But we have decided not to do that. 
Half of our budget and half of our resources are focused on 
education. And I do contend that many of those other problems 
in the other areas can be supported through education and 
having a better-educated America as well. So it is very 
important that we are focused on this.
    Our footprint is we looked and we counted between our 
Senior Corps, AmeriCorps and the Social Innovation Fund. We are 
serving of at least unduplicated grant and resources in 11,714 
schools. That is huge. With 100,000 public schools in America, 
that is right at 10 percent. Of those schools that we are 
serving in, one in four of those are persistently low-achieving 
schools. So I feel like we have got them in the right places.
    Now, early childhood examples, one of my favorites is the 
Minnesota Reading Corps. We did a rigorous third-party 
evaluation recently on the Minnesota Reading Corps, which was 
started in Minnesota and now is in 12 States, including DC, so 
it is being replicated, which is another passion of mine. Let's 
find what works and let's replicate it across the country.
    Here is what it told us: This program is enrolling full-
time AmeriCorps members as tutors, full-time, key word. They 
are tutoring in schools everything from preschool, 
kindergarten, first, second, and third grade. This study was 
really focused on kindergarten and early childhood, and here is 
what the study told us, that those students who had the access 
to the training and tutoring by the AmeriCorps members, the 
Minnesota Reading Corps AmeriCorps members, outperformed 
students that did not have access to AmeriCorps tutors, almost 
twice as much. And they outperformed in all five literacy 
testing areas that they looked at, all five. So this showed us 
that it is working. And I was so happy to be able to provide 
this evaluation, which I am happy to provide to you and your 
staff----
    Ms. DeLauro. Yes.
    Ms. Spencer [continuing]. In full. But that tells us we are 
doing the right thing. And we have learned over the years that 
education really is the sweet spot for service. It is a great 
way for us to increase volunteerism as well. And I serve as a 
volunteer each week in an AmeriCorps program myself, and it is 
a curriculum-based program. It is not just I walk in and read 
to a student. I work through a curriculum. So it is working and 
we are focused on it.
    Ms. DeLauro. Thank you. Do you deal with the HIPPY program, 
the Home Instruction for Parents of Preschool Youngsters 
program?
    Ms. Spencer. I feel that we do, but I can get back to you 
more but----
    Ms. DeLauro. Please do because, Mr. Chairman, let me just 
tell you, my stepdaughter, who is now married with two 
children, she came home after she finished, you know, and she 
was in school and she said after college she was going to get a 
job and she was going to go work for the HIPPY program. Well, 
Stan and I were not quite sure what she was really going to do 
at that juncture----
    [Laughter.]
    Ms. DeLauro [continuing]. But it is the Home Instruction 
for Parents of Preschool Youngsters. This is working with 
parents and their children and using parents as a vehicle for 
reading and for their kids being able to be literate, and it 
follows a very strong curriculum, et cetera, to move forward on 
so----
    Ms. Spencer. Right.
    Ms. DeLauro [continuing]. A good investment. Thank you very 
much.
    Ms. Spencer. Thank you.
    Mr. Cole. You may have dated all of us who laughed so----
    Ms. DeLauro. Right, exactly.
    Mr. Cole. All right, good. We will go to my friend from 
California, the gentlelady, Ms. Lee.

                COMPUTER SCIENCE AND TECHNOLOGY TRAINING

    Ms. Lee. Thank you very much, Mr. Chairman.
    First, welcome, and thank you very much for your testimony 
and for your service.
    Programs like AmeriCorps VISTA, I mean, the taxpayer gets a 
heck of a lot for our investment, and I, too, believe we need 
to increase the budget, flat funding, fine, but for what you do 
and for what these volunteers do, we are saving a lot of money 
and providing real pathways out of poverty at a very cost-
effective rate.
    And so I think overall our committee is still 10 percent 
below pre-sequestration levels, so of course I join with our 
ranking member in wanting to see more funding for your very 
important agency.
    A couple of things just as related to my district and how I 
know AmeriCorps VISTA, and what you are doing, the Reading 
Partners, you partner with local districts. And in my area, 
Oakland, Berkeley, San Leandro, you all help, the volunteers 
help lifelong readers, you provide critical one-on-one 
tutoring, and really ensure that children receive the literacy 
skills that they need to reach their fullest potential. It is 
still mind-boggling to think we have a literacy problem in 
America. And so what your volunteers are doing really makes it 
very clear what the benefits are by enrolling them in Reading 
Partners. It doubled their rates of learning, I know, in my 
district.
    I chair the Congressional Black Caucus's Tech 2020 
Initiative, which is an initiative to ensure that all 
Americans, including African Americans and people of color, are 
included in the levels of technology that we see booming in our 
country. And we are way under in terms of parity in the tech 
field.
    So I am pleased to see that the President's budget includes 
$135,000,000 in existing funds under the STEM AmeriCorps 
program, which is in partnership with the National Science 
Foundation, to help teachers learn computer science 
fundamentals and to really teach and inspire the next 
generation of STEM teachers.
    So how do you see this through this partnership and the 
training of computer science teachers? Because they are 
directly building a pipeline for everyone, including 
communities of color, into the STEM and tech workforce, yet 
teachers need this training.
    And so, once again, I think we need more resources for 
this, but I know in my district, again, in the city of Oakland, 
we care much about ensuring that all young people have access. 
And this is clearly a pathway out of poverty, but again, I 
don't think the budget is adequate enough for that.
    Ms. Spencer. Well, let me talk about Computer Science for 
All, a brand-new initiative we just announced, and also share a 
comment about Reading Partners. That is the program that I am a 
volunteer with. So the way Reading Partners works is there is 
an AmeriCorps member who is well-trained in a very rigorous 
science-based, research-based reading curriculum program. So 
one AmeriCorps full-time member is in a school, and in my case 
here in DC, it is at Shaw Elementary School, and Elizabeth 
Strader is the AmeriCorps member. She has 83 of us, so there 
are 83 volunteers. We all go through training. We are matched 
with our mentee. Mine is a first grader. I have been doing this 
for 4 years, a different child every year, and I hate breaking 
up with them because I love, I love my children.
    But what is great is, as I work through that rigor, at the 
end of the year I get a report card on my student and I see her 
gains in her literacy levels. That is a really good program. So 
Reading Partners is a great example of leverage, right? One 
AmeriCorps member is leveraging 83 volunteers. We are all 
committing and working with the students. So I am glad we have 
a great presence at Oakland.
    Computer Science for All is exciting for us. So this is 
where we try to get very creative and figure out here is a 
problem. What can we do with our resources to do something 
different and unique? And I am always willing to experiment, 
especially when it is in the education arena.
    So what we have done is we have set aside $17,000,000 in 
our education awards, college scholarships. That is going to be 
set aside for up to 10,000 teachers over the next couple of 
years for them to use that towards training to learn coding, to 
learn computer science, to be able to maybe have them teach 
afterschool, summer courses. Some of our teachers need extra 
income. And so they are going to be able to do some service, in 
exchange for the service get scholarship money from us, they 
learn to teach these afterschool programs and summer programs, 
and integrate it into their classroom if that is appropriate.
    We have got to get more teachers in the STEM area, and I 
don't know if this is perfect, but I am willing to try 
anything. So this is our first shot at this, and I think it is 
going to be exciting.
    Ms. Lee. Thank you. Mr. Chairman, I would just say that if 
the Department of Ed. funded this, it would probably be 
millions more than what this budget suggests. And so once 
again, big bang for our bucks.
    Ms. Spencer. Thank you.
    Ms. Lee. And thank you very much.
    Ms. Spencer. Thank you.
    Mr. Cole. Thank you. We will next go to my friend, the 
gentleman from Philadelphia, for any questions he cares to ask.
    Mr. Fattah. [Audio malfunction in hearing room.]
    Mr. Cole. Actually, you were here before Congressman Dent 
so----
    Mr. Fattah. Well, let me proceed then. Let me thank the 
chairman and thank you for your great service. You have a long 
line of people, you know, playing an extraordinary role in 
building this organization, and I think the storm clouds have 
passed and the Nation has fully embraced AmeriCorps under your 
stewardship. So thank you----
    Ms. Spencer. Thank you.
    Mr. Fattah [continuing]. Because I think it means so much 
for improving the life chances of young people throughout the 
country. And the service they provide, you know, I am convinced 
that they get more out of it than the very-needed service that 
they are providing to others.
    So I visit schools regularly, and in dozens and dozens of 
schools in my district in Philadelphia in which when you show 
up, the AmeriCorps volunteers, corps members who are there both 
in our City Year program and community, there has been Learn to 
Serve efforts. You get older students working with younger 
students, which has been quite an extraordinary lift because 
both sets of grades go up----
    Ms. Spencer. That is right.
    Mr. Fattah [continuing]. Both for the tutor and the young 
people who are receiving the tutoring.
    I met a young man who is in PowerCorps now, and he had 
recently been engaged in some antisocial activity and then had 
an epiphany, Mr. Chairman, and decided to move in the right 
direction and now is just doing great work at a community 
level.
    So, you know, our job here is to dispense, you know, 
discretionary dollars. I can't think of a better place for us 
to be investing them.
    And I got a chance to speak at a graduation, conclusion of 
a training session for some of your VISTA AmeriCorps members in 
Philadelphia, but they were from around the country and we were 
glad to host them.
    So I don't know, as we go forward, because there is going 
to be a change in administrations, but I think one constant 
will be national service and AmeriCorps. And as you think 
about, you know, what is going on in the country--today is the 
founding of the Peace Corps in 1961 by John Kennedy--I know 
that you are now 22 years old. I know this because I was 
around, one of the cosponsors when we created this program. And 
there were some challenges, Eli Segal in Harris Wofford's 
period, and I was with Harris on Martin Luther King Day, that 
day of service and we had tens of thousands of volunteers----
    Ms. Spencer. Right.

                 OPPORTUNITIES TO GROW NATIONAL SERVICE

    Mr. Fattah [continuing]. In Philadelphia for that activity. 
But as you think about the bigger picture now for the Nation, 
not about, you know, whether or not we are going to, you know, 
be able to deal with small incremental bites, but if you would 
talk to the committee about what you see as, you know, the 
opportunities to further build on national service for whoever 
may be coming in as the next President and the next 
administration. I would be interested in your insights. You 
have seen the country, you have seen what is going on out 
there. If you would share with the committee--the chairman is 
interested in big picture and not just small picture issues. It 
will be helpful to us as we go forward to get a sense of what 
you think is doable.
    Ms. Spencer. Thank you so much for that very thoughtful 
question. And you mentioned two giants in the national service. 
Eli Segal, sadly, is deceased, but Senator Harris Wofford, he 
is doing fantastic. And no coincidence I was inducted into this 
job on his birthday, April 9, so we share a great bond in many 
ways.
    I would like to share with the committee that this year we 
will induct the one millionth AmeriCorps member. It is pretty 
exciting, just 21 years ago when this idea was conceived so 
that we will have one million.
    So where does that take us? I am seeing these AmeriCorps 
alums all over the country. I went to a national conference on 
volunteerism that had some of the strongest nonprofits in the 
country in Houston last year, several thousand people, and the 
question was asked, how many of you are AmeriCorps alums? And 
half the audience raised their hand. They are now running 
nonprofits. They are engaging volunteers. They have taken what 
they have learned in their year of service and they are using 
that for the greater good of communities.
    A longitudinal study tells us that 60 percent of AmeriCorps 
alums pursue public service. That is a great need. While we do 
need our young people pursuing STEM, we can't overlook 
teachers, public service, law enforcement, nonprofits, the 
faith community. We need leaders in these careers as well. So I 
am so pleased that national service helps influence young and 
old and how they can contribute back.
    And one thing that excites me, too, is the number of young 
men who join AmeriCorps for lots of different reasons. Some are 
between college and high school or after college or trying to 
figure out their way and they serve in an education program. 
And so many of them have told me I have decided to change my 
major from business to education, from engineering to 
education, from this to education. And I ask them why? And they 
say when I am in the classroom, as a male figure, I can tell 
that these young boys are starved for attention and leadership 
in role models, and I am so drawn to the influence that I can 
give to them and I want to be in a position to do so. So I 
think there is a great future in attracting men to join as 
teachers as well.
    So I am excited about the future. One thing from our 
research we know is that if you volunteer, especially at an 
older age, you live longer. This is research-based. You are 
happier. You reduce your stress. It has health benefits, 
physical health benefits.
    As many of you may have seen, the 106-year-old who was in 
the White House last week and was dancing in the White House--
--
    Mr. Fattah. Dancing with the President, yes.
    Ms. Spencer. That is Grandma Virginia McLaurin, who I call 
a friend, who will be 107 in a week and we will celebrate her 
birthday. She is a current Foster Grandparent. She is a current 
Foster Grandparent, and she does a great job. She walks to her 
service, her school, and she says oftentimes people offer to 
give her rides; she says no, I need the exercise. [Laughter.]
    Ms. Spencer. But what is great is she is still 
contributing. And I have talked with her, and it is amazing.
    So it is an opportunity for our young and our old. My 
challenge to young Americans in particular, is that everyone 
should give a year of their life either to our military or 
pursuing public service, joining AmeriCorps, doing an 
internship at a nonprofit, serving with your faith community, 
but give something back.
    And I think that that is the direction we need to go in 
because I know it bonds America. When you serve with people 
from different walks of life on a common purpose, you become 
more tolerant of their ideas, their religion, their background, 
and that unifies Americans. In fact, it unifies the world. So I 
hope that is the direction we go in.
    Mr. Cole. Mr. Fattah has managed to use your enthusiasm to 
get an extra 2\1/2\ minutes. That is very clever----
    [Laughter.]
    Mr. Cole [continuing]. Very well done, but for a good 
cause.
    Mr. Fattah. Thank you, Mr. Chairman.
    Ms. Spencer. Thank you.
    Mr. Cole. Yes. I want to go to my good friend from 
Allentown, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Well, it was worth the extra 2\1/2\ minutes. It was a good 
discussion. [Laughter.]

                     VETERANS AND MILITARY FAMILIES

    Mr. Dent. In addition to serving on this subcommittee, I 
have the honor to serve as a chair of the subcommittee dealing 
with military construction and the VA. And recognizing that one 
of the focus areas of CNCS is veterans and military families, 
can you share with us how you are working with the VA at the 
Federal level and with individual State veterans' agencies that 
best coordinate those types of efforts to ensure that your 
investments are augmenting underserved areas or populations 
instead of creating redundancies?
    Ms. Spencer. Thank you so much. You have hit on something 
very personal to me. I am the daughter, granddaughter, wife, 
and stepmother all to men who served in all areas of the 
military, so it is very personal to me that we make this a 
focus of our agency.
    And just to give you a little bit of the footprint, we love 
to count, and we have been able to determine that of our 75,000 
AmeriCorps members and 270,000 Senior Corps volunteers, that 
23,000 veterans are serving today in our programs. I am very, 
very proud of that because I do think it is an opportunity for 
veterans to continue to serve, and we welcome their expertise 
and what they bring to nonprofits and to solving problems.
    Last year, we were able to support 780,000 veterans and 
military family members in our programs, in hundreds of 
programs that are focused on this either as a core part of the 
mission or as a part of their overall efforts.
    So a couple of areas that we are working on, one is with 
Veterans Affairs that you mentioned that I think is something 
of great interest to them is to make sure that every veteran 
has the opportunity to use the G.I. Bill to the fullest extent. 
This is a great benefit that we provide our veterans. But 
sadly, not all of our veterans are successful in their 
experience in attending college and graduating. Far too few 
than should be graduate from college because they run into 
obstacles. Now, sometimes, these obstacles are returning back 
from war. It is a difficult transition not for all but for 
some, and it is hard to get right into going to classes and 
being free of maybe physical and mental needs and support at 
the local level.
    So one of the ways that we decided to tackle this if you 
will is with a program called the Washington Vet Corps. And I 
love this program, and I have met these AmeriCorps members in 
Washington, in the State of Washington. The idea is that you 
take a veteran, and they become an AmeriCorps member, and they 
are placed in a college. And all the State schools in the State 
of Washington have this access to this program. That AmeriCorps 
member who is now a veteran is the key person for the veterans 
attending that public college to go to for any problem they 
have. It is a safe place for them to go and seek counseling, 
support, tell their stories, tell their needs, and then that 
veteran, who is an AmeriCorps member, can connect them in 
overcoming their problems.
    And I will give you one very, very serious example. I met 
one of the AmeriCorps members who said that a veteran enrolled 
in college, female, mother of several children, came to her and 
said I am abused and homeless but I am using my G.I. Bill to 
help get ahead, but I have got to find housing and I have got 
to get away, you know, and have a safe place. That AmeriCorps 
member connected her to the resources that she needed. Those 
are the kind of issues that we are working on.

                  PENNSYLVANIA NATIONAL SERVICE MODELS

    Mr. Dent. That is good to hear that. I also just wanted to 
mention, too, that I am pleased with the G.I. Bill benefits. It 
is a portable benefit. A lot of family members of veterans are 
taking advantage of it, and that is a very good thing. But 
thank you for that comment.
    My final question deals with in your testimony you mention 
how national service investments, you know, helps the local 
communities, solutions, I guess, both in my district and across 
the Commonwealth of Pennsylvania where we are fortunate to have 
a number of very active volunteers and civil servants who make 
valuable contributions to our communities. Could you elaborate 
further on some of the programs that have been successfully 
implemented in Pennsylvania that may serve as a model for other 
States?
    Ms. Spencer. Well, I think one that was mentioned earlier 
is Power Corps. It is a great program, and this program takes 
mostly young people between the age of 18 and 28 who are having 
difficulties. They are out of school and not connected to jobs, 
and they need someone to give them a chance. And so what the 
program does is allow them to enroll as AmeriCorps members so 
they get the living stipend, the opportunity to go to college 
when they complete their term, but they get to learn skills. 
They get to learn about working in the environment. They get to 
learn trades while they are helping the community. That is a 
dual benefit because the individual is supported, and it may be 
the first time anyone has given them an opportunity.
    But the community has helped with local needs as well like 
transforming a brownfield into a park maybe. So I am real 
pleased with that. It is something that I hope we can replicate 
around the country, and I think there is great demand for that.

                            PAY FOR SUCCESS

    Mr. Cole. If I could, I would like to return again to an 
aspect of the Social Innovation Fund. And if I am correct, I 
think the Corporation is one of just a handful of agencies that 
has made awards using the Pay for Success contracting model in 
which private investors support initiatives to, for example, 
prevent homelessness or support youth development, and the 
Federal Government provides payment to the investors only if 
they achieve agreed-upon outcomes. Could you please tell me 
more about what you have done specifically in this area, how 
you evaluate the model, and what you are looking forward to in 
the next fiscal year?
    Ms. Spencer. Great, thank you. This is again exciting, and 
we are glad to be one of the first Federal agencies diving in 
to the Pay for Success-type model.
    So the process, the way it works is our grants are helping 
organizations set up the model so that they can put together 
these Pay for Success models. And here is a great example of 
one that I have had a personal connection with. The Green and 
Healthy Homes Initiative in Baltimore, their goal is to go into 
these houses that are traps for asthma and other allergies. 
These houses have mold; they have other things that are harmful 
to children.
    And one example that I heard about recently was a mother 
and her son. The son has a case of asthma. They lived in a 
house with mold, and this was in Baltimore. That son, a child, 
went to the hospital six times in one year. He missed 14 days 
of school. She is a hardworking mother. She missed 14 days of 
work.
    So Green and Healthy Homes goes in and they do the full 
remediation work on that house and they get the mold out and 
they get the house healthy again. They spent $7,000 doing this. 
The cost to the community is $25,000 for the young boy to go to 
those medical visits and hospitals.
    So the idea is that the health care organizations, the 
hospital will repay--when they set this up, they will repay 
Green and Healthy Homes Initiative that $7,000 they invested in 
remediating that home, and it saved the hospital and the 
community $25,000. But they only get repaid if the work is 
done, completed, and worked.
    And how do they know it actually worked? Because the next 
year this young boy, after living in the healthy home, did not 
go to the hospital one time and he only missed one day at 
school and his mother only missed one day of work. It worked, 
but it was evaluated.
    So we are going to set up all kinds of programs like this 
where the nonprofit can prove that they can solve the problem 
but don't get paid until they do so and it is evaluated. So our 
work right now is setting up the models, and I am really 
excited to watch this over the coming years. I think this is 
something that we all ought to look at in government.
    Mr. Cole. Yes, it is a fascinating concept. Can you give me 
some idea of the scale you are talking about? I know you are 
testing this out and looking at things, so I am just curious 
about the size of the program that you mentioned.
    Ms. Spencer. We have eight grants right now, about 
$12,000,000 investing today in setting up these systems, so it 
is brand new to us but it is very exciting. Jobs is another 
one, you know, getting jobs for people. I mean, it is a hard 
thing to get a job for a chronically unemployed individual who 
has been unemployed for two decades or so. But that is the 
exact kind of problem this Pay for Success should look at. And 
so it is not a big part of our portfolio yet, but I think it is 
a good part, and I think we are going to learn a lot from it.
    Mr. Cole. I would ask you to keep the committee advised as 
you progress through this because it really is a pretty--this 
is an area where it is very difficult to measure success, and 
it appears to me at least in some ways you have and, you know, 
very tangibly, and that is just helpful to know.
    Ms. Spencer. Thank you. We will do so.

              RESILIENCE AMERICORPS AND DISASTER RESPONSE

    Mr. Cole. OK. One quick question and then we will move on. 
You know, I have seen what you guys are capable of doing after 
a disaster in my own hometown where AmeriCorps deployed and put 
people on the ground. It was a tremendous help to us after the 
tornadoes in 2013. But your request also includes a new program 
called Resilience AmeriCorps that is intended to help 
communities respond, you know, to extreme weather and other 
disasters. Define for me the difference a little bit. And I am 
assuming this is sort of a preemptive effort to prepare places, 
but just give me a little background on this if you would.
    Ms. Spencer. It certainly is. And I was leading volunteer 
and donations management under three Governors in Florida and 
one under the horrific storms of 2004 and '05. As we traveled 
the State, I saw so many ways that we could have done a better 
job in preparing the most vulnerable citizens. So this program 
Resilience AmeriCorps is about better preparedness and plans 
for cities.
    It is a wonderful public-private partnership, so we are 
partnering with the Rockefeller Foundation, who is investing 
nearly $2,000,000. Cities of Service across the Nation, 10 
cities to start with, 20 AmeriCorps VISTAs, we are going to go 
to 15 cities soon, and these two AmeriCorps VISTAs in each of 
these cities will work with the mayor and his or her key team 
to put together a strong resilience plan with local nonprofits, 
business leaders, other organizations around a holistic plan in 
whatever their community is vulnerable of. Some communities are 
more vulnerable in certain perils, more vulnerable for floods, 
more vulnerable for tornadoes or hurricanes. Whatever is unique 
to that community, that is what they are going to focus on, so 
it is going to be a very individual case.
    I think this is going to be a national model that we are 
going to want to scale, and I think mayors and county officials 
are going to be calling us and saying when can I get my 
AmeriCorps VISTAs to come in? Mayors tell me something all the 
time. They say, Wendy, I want to end veteran homelessness or 
have a resilience plan or make sure that every third-grader is 
on reading level in my community, but I don't have anyone else 
that I can commit to on my team to see this through. That is 
where AmeriCorps members can step in in a mission-driven way, 
take over, lead the effort, be the instigator, coordinate the 
working groups. And they are doing it in a mission-driven way, 
getting experience and passion for it.
    So you know what I ask AmeriCorps members? I say what is 
your biggest obstacle in your service? And you would think they 
would say the living stipend is not enough, the hours are too 
long. You know the one thing they say to me? I don't have 
enough time to meet all of my objectives. I wish there were 
more time. Because they approach their service in a 10-month 
window or a 12-month window like I have got to meet these 
objectives in this amount of time. And that is what I like 
about Resilience AmeriCorps. They are going to come up with 
great plans for these communities. So we are looking forward to 
it, and I will keep you apprised of its progress.
    Mr. Cole. Thank you. I used Mr. Fattah's trick, so you 
might want to try it as well. I recognize the gentlelady from 
Connecticut.

                         FLINT WATER EMERGENCY

    Ms. DeLauro. Thank you, Mr. Chairman. And let me play off 
of your comments, and this has to do specifically with Flint, 
about which I shudder when I think of 9,000 children who have 
lead poisoning, which is irreversible.
    But your Pay for Success program and your Resilience 
AmeriCorps--and I want to get a sense of what--you know, we 
talked a little bit about what your folks were doing there now, 
but one of the great problems in Flint is looking at--two 
things. In your Resilience AmeriCorps, what I have found out 
about Flint is that the city itself and the mayor, she has no 
staff. There is nobody home. So she is trying to deal with this 
unbelievable crisis with an infrastructure that is nonexistent 
in terms of personnel, so forth. And the other issue is 
engaging nonprofits and others to be able to work with these 
families and these homes and these children about what their 
future is about.
    Does this make sense to you in terms of what your mission 
is and where you can provide help in both of these areas? And I 
don't know the extent to which there have been conversations 
about any of this with, you know, the folks in Flint.
    Ms. Spencer. Well, we are working very closely with Flint. 
In fact, I met the mayor recently. She was attending a meeting 
here in Washington, and we almost shed a tear together over 
this because it is a horrific problem, and I can't imagine what 
they are going through.
    But there are so many ways that we can help and are helping 
and working on a task force, working very closely with the 
United Way of Genesee County there, who is taking a great lead. 
We sent in immediately, as you mentioned earlier, a team of 
AmeriCorps NCCC members. Now, these are the 18- to 24-year-olds 
that can work circles around any of us, and I was delighted to 
see a local television reporter about 2 weeks ago shadow the 
team members for an afternoon and go door-to-door as they were 
delivering water and filters and information about their health 
and what they needed to do.
    So we are getting supplies delivered to people, we are 
recruiting volunteers, we are managing volunteers. We have 
another about 30 AmeriCorps members who are either serving in 
schools or other areas who are being cross trained so that they 
can be a part of the education component.
    I am also looking at putting an AmeriCorps member in every 
school who is a nutritionist because we can----
    Ms. DeLauro. The two areas----
    Ms. Spencer [continuing]. Overcome this with----
    Ms. DeLauro [continuing]. Are nutrition----
    Ms. Spencer. Yes.
    Ms. DeLauro [continuing]. Education.
    Ms. Spencer. Yes.
    Ms. DeLauro. And that is where--and I am going to work like 
hell to be able to get the Department of Agriculture to be able 
to take these kids and get them WIC help from age 5 to 10 
instead of just----
    Ms. Spencer. Right.
    Ms. DeLauro [continuing]. Up to age 5. But those are the 
areas, nutrition and education, where we can bring some----
    Ms. Spencer. We can put a trained AmeriCorps member from 
one of our programs like FoodCorps and others, nutritionists 
literally in every school there teaching the children, their 
parents, the faculty, the community leaders. That is going to 
help mitigate some of this. And this is a long problem, but we 
have got to make a surge and we have got to do it now. And we 
are prepared to help.
    Ms. DeLauro. OK. I really do want to talk to you before I 
go to Flint on Friday with the direction that you would like to 
go in, what we can----
    Ms. Spencer. Thank you.
    Ms. DeLauro [continuing]. Talk about, what is there, et 
cetera, because we need to move on these things.
    Ms. Spencer. Thank you.

                             OPIOID CRISIS

    Ms. DeLauro. These kids are already suffering.
    Now, I don't have to tell you about an opioid problem that 
we have, so let me get right to it. And I know you have people 
in correctional facilities, you have people everywhere. Do you 
have a strategy about leveraging your program in terms of that 
opioid crisis? And are your folks getting trained on abuse, et 
cetera?
    Ms. Spencer. It is a crisis, and every time I meet with a 
Member of Congress, a Mayor, a Governor, it seems like now they 
are bringing it up. And that is a unique, different trend. And 
I think we have all got to focus on it. And this is an all-
hands-on-deck. There is not one sector that should not be 
involved in this.
    Let me give you one example that I think is a shining 
example, and it is in one of the toughest areas in the country, 
and it is in eastern rural Kentucky.
    Ms. DeLauro. Yes.
    Ms. Spencer. It is actually in Chairman Hal Rogers' 
district.
    Ms. DeLauro. Right.
    Ms. Spencer. He had the vision several years ago to start 
an organization called Operation UNITE to focus on this 
problem. And what we did early on is co-invest with his 
nonprofit, and we have 44 full-time AmeriCorps members serving 
each year in Operation UNITE to focus on two things: anti-drug 
activities at the earliest ages in elementary school and also 
focus on education because a smarter child and someone who is 
interested in education and focused on that is not going to be 
focused on things like drugs and things that get them in 
trouble.
    So we focused on math, and they are tutoring thousands. The 
math scores, I am pleased, on our evaluation have increased by 
34 percent since we have been working on them, and that is up 
actually a point over last year, so we measure it every year.
    But the number of children that are joining these anti-drug 
clubs, I have gone with the chairman to tour these schools, I 
have seen rallies. These things work because it gets it into 
the young people's minds early that you must be focused on 
something positive and that drugs are bad for you. You have to 
have a strong drumbeat all the time. This can't be occasional, 
it can't be--you know, it has got to be a part of the school's 
culture, the community's culture.
    And these AmeriCorps members who are from eastern rural 
Kentucky--and I have met many of them who lost family members 
and friends to drugs who died from them, and they are very 
passionate about it.
    So Chairman Rogers has asked me to come talk about this at 
his annual conference in March, his prescription drug 
conference. And I am going to head up the panel, and we are 
going to talk about how service can provide a solution. And it 
is about intervention.
    Ms. DeLauro. Right.
    Ms. Spencer. We have got a lot of areas we need to work on, 
but we have got to work on intervention first and foremost, and 
that is something that AmeriCorps members, Senior Corps 
volunteers, and volunteers like you and me can do as well.
    Ms. DeLauro. Thank you. Thanks very much.
    Thanks, Mr. Chairman.
    Mr. Cole. We have all caught on to Mr. Fattah so it is----
    [Laughter.]

                   TRAINING AND TECHNICAL ASSISTANCE

    Mr. Cole. Ms. Spencer, in fiscal year 2016 omnibus we 
reinstated the authority of the Corporation to support 
training, including at the State and local levels, through set-
asides in AmeriCorps. Would you describe what plans you have 
for the Corporation to use this authority in the coming fiscal 
year?
    Ms. Spencer. Well, training is so important for a lot of 
reasons. I mean, one is there are a lot of rules and 
regulations now, more requirements on Federal grantees than 
there were when we started 21 years ago, and we have to keep 
pace with that. There are a lot of reporting requirements. We 
have got to make sure that we are collecting the appropriate 
data so that we can make sure that our investments are in the 
right areas.
    We have got to make sure that it is working because if we 
invest Federal resources, match it at the local level, and it 
is not working at the scale that it should, that is okay. You 
need to know, you know, what areas you are best at. You can't 
be good at everything, but you should focus on things you are 
good at.
    So it is important that we are training our grantees, our 
intermediaries. We work very closely with 52 Governors' 
Commissions on service and Volunteerism. They are managing 
three-fourths of our AmeriCorps grants. So once that grant goes 
to them, we can't just trust that it is going to be managed 
well; we have got to partner with them to provide training for 
them. And I ran a Governor's Commission on Volunteerism in 
Florida, and I was a recipient of the funds from this agency, 
so I know how important it is to have the resources for 
training.
    So it is something that not everybody wants to fund, but if 
you don't do it smartly, you won't do it well. So that is why I 
am a big proponent of training funds. We are very smart in how 
we do it, very cost-effective, and I am very pleased with the 
direction. We are holding four regional training conferences 
throughout the country where we will have probably 2,000--the 
vast majority of our grantees who are running the largest 
programs and middle-sized programs will be attending this year. 
I will attend every one of those, and we will talk about the 
need for criminal history checks, on time every time, my new 
theme. We will talk about the reporting, we will talk about 
prohibited activities, we will talk about what it means to 
manage a Federal resource, the public tax dollars' resource and 
do so with efficacy.
    So I am passionate about it. I think we ought to continue 
with this, and I appreciate the investment that you have given 
us with this.

                              EVALUATIONS

    Mr. Cole. Somewhat related, let me ask you, your budget 
asked for very little in the way of increases, but one area it 
did was $2,000,000 for evaluations. So that is a fairly 
substantial increase. I think it was 50 percent over what you 
have done in the past. So tell us how you intend to use those 
dollars. How much of it stays with your headquarters? Is any of 
it distributed out through the organization so some of the 
evaluations if you will are local if----
    Ms. Spencer. It is a combination, and I would be happy to 
provide you and your staff with a detailed list, but one is 
going to be with the Social Innovation Fund as well. I mean we 
have got a lot of Federal dollars and also private dollars 
invested, and we have got to make sure, especially since this 
program is one of our newer ones, that it is working well. So 
certainly some of that is going to go into that area.
    It also allows us the opportunity to select some of our 
largest grantees and do a full-on random control trial, third-
party evaluation like we did with the Minnesota Reading Corps. 
That is a large program. It is in 12 States, millions of 
dollars invested in that. I would like to do another evaluation 
like that. So that will be really co-investing with one of our 
large grantees, yet to be determined, but that is important, 
especially when you have an area like early childhood education 
that you want to learn from and you want to replicate and you 
want to scale it. So unless we do evaluations, we are not going 
to know full on if that is something we should replicate.
    So with the Social Innovation Fund, with our goal to select 
other large grantees, I think that combination is going to be a 
wise investment.
    Mr. Cole. Well, no question in my mind it is a worthwhile 
use of the money. Again, you know, one of the tougher things is 
being able to measure outcomes and produce evidence, quite 
frankly. It is tight times for budgets everywhere, and so any 
time you have got something that can show you something works 
or, frankly, saves you money by saying this is really a dead 
end for us, money spent figuring that out is still well worth 
it so you can redirect the resources instead of, you know, 
misdirecting them, quite frankly.
    Let me, with that, go back to my friend, the gentlelady 
from Connecticut.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    Let me ask a question about the Senior Corps in which you--
--
    Ms. Spencer. Yes.

                              SENIOR CORPS

    Ms. DeLauro [continuing]. Have talked about their work as 
Foster Grandparents, tutors, mentors, et cetera. And I just 
know that there are about 3,000 Senior Corps volunteers in 
Connecticut, so----
    Ms. Spencer. That is right.
    Ms. DeLauro [continuing]. I am grateful for that effort. 
And, look, we have got more and more people retiring every day 
and baby boomers, et cetera, so it looks like there would be a 
large population of people who will knock at your door.
    The budget, though, for Senior Corps programs is lower than 
it was in 2010, and the budget request has been flat for the 
past several years. So this sounds like one of the best 
bargains for the Federal Government, Ms. Spencer. How much does 
it cost to support a Senior Corps volunteer? What kind of 
support do we need to provide in order to ensure that they are 
continuing to serve our communities?
    Ms. Spencer. Well, you may have hit on that there could be 
a very strong argument that the Senior Corps program may be the 
best value in the Federal Government. It is a wonderful 
opportunity. In addition to the health benefits of seniors 
volunteering--and, by the way, next month, I will be qualified 
to be a Senior Corps volunteer as I turn 55. So there is hope 
for me in my volunteer life in the future, and I am proud of 
that.
    The two ways we operate these programs, Foster Grandparents 
and Senior Companions, fairly similar. These two programs are 
actually means-tested programs, so these are for seniors. This 
particular program is in great need, living at the poverty 
level. They receive $2.65 an hour as a stipend to defray some 
of their costs for serving. On average, they serve in the 
Senior Companion program about 15 to 20 hours per week, and in 
the Foster Grandparent program closer to 30, 35 hours per week.
    Foster Grandparents are generally in schools. There are 
some exceptions to that like in juvenile detention centers. And 
Senior Companions are serving in homes doing one of two things: 
keeping other seniors living longer because they are there to 
help them with some of the basic needs and also providing 
respite care for family members who can't get out of their home 
unless they have some respite to do so during the week.
    While $2.65 doesn't sound like a lot, to someone who is 
elderly, doesn't have a lot of resources to depend on, doesn't 
have a good retirement but does have the physical ability and 
great nurturing ability to get into schools, it has something 
to offer, which all of our Foster Grandparents and our Senior 
Companions do. That $2.65 can mean a lot to them. It can help 
them with their basic medical needs, transportation, some basic 
things like food, their utility bills.
    So we are solving two problems here. We are providing 
caring and nurturing adults in schools, which the teachers are 
so grateful for, but we are also providing a benefit to the 
senior.
    Now, the other program is RSVP. That is not a means-tested 
program, but that has the largest participation--about 230,000 
seniors are serving in RSVP. So think of it like a mini 
volunteer center, if you will, for seniors. And they show up 
and say ``I would like to serve in education'' or ``I would 
like to work in the environment'' or ``I would like to do tax 
returns for the poor.'' So we connect them with this.
    Those grants average about $75,000 to each organization--
the individuals don't get a stipend--to the organization, and 
the organization uses our funds to manage and coordinate 
volunteers, many of them, hundreds of them. So that is a really 
great bargain as well.

                     SUMMER OPPORTUNITY AMERICORPS

    Ms. DeLauro. So we are getting great return on a very 
minimal investment in this program.
    Let me ask you about summer youth programs. You have got 
Summer Opportunity AmeriCorps, you are going to create up to 
20,000 positions for low-income students, high school age in 
the next 3 years, help them build skills and earn money for 
college. Can you tell us a little bit about this program and 
how they are going to deal with low-income kids?
    Ms. Spencer. So our young people are really faced with a 
lot of tragedy in communities across the country today and 
obstacles that get in their way from being successful. But one 
of the ways that we have found to do an intervention is to get 
them engaged in something positive. Service can be the one 
thing that our young people--and this is targeted at high 
school students in the summer who have a lot of time on their 
hands and can get in trouble while their parents are working 
and they are left at home alone. But if we can coordinate 
activities and work with great organizations who work on summer 
learning loss, summer programs, Boys and Girls Clubs, YMCAs, 
these great programs that are proven that they can manage young 
people in something positive.
    We are going to set aside some college scholarship money as 
a carrot, if you will, so that they can use these funds, serve 
during the summer, get involved in all kinds of great 
activities, run and managed by these programs that do it so 
well, and then set aside a scholarship for them that they can 
look to and say, you know, I now am going to go to college 
because there is a fund with my name on it. I can't tell you 
how many young people I have met who have said I wasn't going 
to college until I earned my college scholarship from 
AmeriCorps and I said why not? It is sitting there waiting on 
me. I hope that same incentive will be there for these young 
high school students.
    Ms. DeLauro. Thank you, Mr. Chairman.
    Mr. Cole. Thank you. Mr. Harris, we haven't given you a lot 
of time, but we are prepared to go or I can take some questions 
if you are sort of getting your----
    Mr. Harris. If you could, I would appreciate it.

                      SELF-SUFFICIENCY OF GRANTEES

    Mr. Cole. OK. No, I would be more than happy to, and then 
we will go to you next.
    CNCS, you support an enormous number of services conducted 
by tens of thousands of organizations across the country, so 
you probably have more experience in dealing with different 
types of volunteer and civic groups literally than anybody else 
in the Federal Government. When you are making your decisions 
on grants, do you look at whether or not these particular 
organizations are self-sufficient, have the potential to become 
self-sufficient? Is there sort of best practices, if you will, 
that you can extend to these organizations so that, you know, 
over time they sort of stand up on their own? It doesn't mean 
we wouldn't continue as the Federal Government or your agency 
to have a relationship with them, but obviously, the more they 
can do for themselves, the more you can spread your services 
into other areas.
    Ms. Spencer. You know, that is a great question, thank you. 
And it is a bit of a blend, and I had a lot of experience with 
this working at the Governor's Commission on Volunteerism in 
Florida because you want to do two things. You want to find 
nonprofits who have new, innovative ideas that may not be 
tested yet but they want to tackle a problem in the community, 
and you also want to blend it with very experienced nonprofits 
who really know how to engage citizens in service. And I think 
it is important that we have a good blend.
    We also--it is important to look at vulnerable populations, 
Native Americans you know we are leaning in. We have invested 
the highest amount in our tribal communities this year, in the 
last 10 years. It may be the largest in our agency's history 
but we know in the last 10 years, there are great needs in our 
tribal communities. Over $5,400,000 we are investing now. Rural 
areas, our assessment about 42 percent of our grants are in 
rural areas. It is very important to support rural communities. 
This youth opportunity that we talked about, these young people 
who are out of school and out of work, seniors, and others.
    So we look at organizations who are tackling difficult 
problems, have a plan, have an ability to scale what works if 
they have been in the business for a while, but they also can 
demonstrate that they have strong local support. That is 
important to us. This is not, you know, just a public program. 
As, you know, I shared in my opening remarks, we have been able 
to now exceed our Federal funding for the first time ever with 
local support. And so now we can call it a private-public 
instead of a public-private partnership. And we look at that. 
What do you have at the local level that says that we believe 
in your cause so much so that we are going to invest locally?
    We are also using evidence. This is relatively new. We are 
looking at preliminary evidence or any evidence that they have 
a plan that actually works. But I also don't want to go too 
far. I always want to increase the opportunity for applications 
to bring us ideas that are untested. That is OK. We need to be 
a breeding ground for new ideas. But we also need to make sure 
that we are monitoring that very closely so that we make good 
decisions.
    So I think our application process, while solid, we are 
always looking at new ways to review it. But those things are 
important, local support, evidence it works, or a new idea that 
you want to test, and you are addressing the problem that 
really needs to be addressed in the highest and best use.

                        PROMISE ZONE INITIATIVE

    Mr. Cole. Related to that, would you please describe the 
Corporation's role in the Promise Zone Initiative and how much 
funding is allocated this year? What are you expecting to be 
doing in 2017?
    Ms. Spencer. I love place-based initiatives because it is 
where we get to really work with the community leaders and 
focus very clearly on a problem. I will get you the exact 
number of the--not only the number of grants but the number of 
members or volunteers who are serving and also the amount of 
funding we are investing in that, and we will follow up with 
you.
    But this is an area that I feel like the administration has 
leaned in on, and I really appreciate the opportunity for the 
Federal Government to be able to actually shift. We need to be 
flexible. We need to be able to turn on a dime like Flint, 
which was mentioned. I mean, we had AmeriCorps members moving 
in before it was declared a disaster. We have got to respond 
quickly. We have got to try to make sure that our processes 
don't inhibit us from being able to turn in to problems that 
arise in local communities no matter what that is.
    So we have got a great--I personally did an announcement in 
Indianapolis with the Promise Zone there, great local community 
needs there. And we are able to be a very good coordinator. 
Sometimes, that is all it takes is--we have committed to 
providing AmeriCorps VISTAs--those are our capacity-builders--
to go in and be able to coordinate organizations in a community 
around the need. If they need to double-down with direct 
service like AmeriCorps and NCCC and send in teams of young 
people or do a grant application for an AmeriCorps program like 
I mentioned with Operation UNITE in eastern rural Kentucky, 
whatever the need is, working with the faith community, that 
may be a real important part of the fabric of the community 
that needs to be better engaged. We can coordinate that. So 
Promise Zones is an important area, and I think it is one way 
the Federal Government is showing flexibility.
    Mr. Cole. Thank you.
    Mr. Harris.

                            GRANT MONITORING

    Mr. Harris. Thank you very much. And thank you. As I am 
sure the chairman said, we have multiple hearings so I am 
sorry. I was down the corridor at one.
    Let me just ask a couple questions. First, just a kind of 
administrative question because on--and I apologize if you 
covered it before, but on page 59 of the book, you go over the 
CNCS strategic goal operation measures, and curiously, you set 
a goal of, you know, a monitoring activity having to do with 
``complete all grant monitoring activity as identified in the 
annual monitoring plan and follow up with grantees where 
necessary,'' where you would think that your goal would be 100 
percent of doing that.
    You know, you started 89 percent in 2013 and then it 
actually went down to 85 percent for all the years with the 
goal of fiscal year 2016 to be 85 percent. Why wouldn't it be 
100 percent your goal? I just have--you know, as we look at 
these grants, and they are widespread, and believe me, I have 
had a Habitat for Humanity, you know, singing your praises in 
my office the other day. I get it. But why would we want 100 
percent accountability? Why are we happy with 85 percent 
accountability?
    Ms. Spencer. Well, thank you so much for the question. And 
I am not sure we would ever be happy with anything under 100 
percent if we have the ability to do so. We have got about 
$740,000,000 invested in around 4,000 grants around the 
country, and 50,000 locations is where we have a presence where 
we have at least one AmeriCorps member, Senior Corps member, or 
one of our grants enrolled in a location. So I think it is a 
matter of balance and what we are capable of doing. And this is 
where we talked earlier about training and leaning on our 
intermediaries, our Governors' Commissions on Volunteerism, and 
some of our larger programs to help us.
    So monitoring is very important. We are constantly working 
on it. It is our checkpoint. It is how we find out if it is 
working. It is where we find problems if we need to address 
those. So I share your frustration that, you know, should we be 
at 100 percent? I think that would be great, but I know it is 
probably just a matter of balance. And we will continue.
    And as you have practices from your seat, observe in other 
Federal agencies or the private sector, please share this with 
me. I am always looking for practices to improve our monitoring 
processes.

                         DRUG ABUSE PREVENTION

    Mr. Harris. And, OK, like I say, this is not my specialty 
but I would say that in the private sector I would be surprised 
if they didn't have controls that actually looked at 100 
percent of their shareholder dollars being protected this way. 
And, you know, these are taxpayer dollars, so I would just say, 
you know, I wish your goal were 100 percent, you know, not 85 
percent for fiscal year 2017.
    Let me just ask because one of the areas that you are 
supposed to be encouraging community service in is the health 
area. And I have looked through the book and I can't find 
examples. Maybe you know of some. The drug abuse and drug use 
is a huge problem, every community, every community. I go to a 
town hall meeting, I will tell you people don't talk about, you 
know, gee, it is the--because I see one of the things Baltimore 
is, you know, tree canopy, they don't want to know about tree 
canopies. They want to know about why did I have, you know, 
five people overdose in the local emergency room last week.
    So I want to know what you are projecting in fiscal year 
2017 to address that specific issue about health because I 
think their role for volunteers and their role for new 
graduates and things. So what specifically are you doing in 
order to address that issue?
    Ms. Spencer. Thank you. And we did talk a little bit before 
you were able to come in about a great program that we have 
partnered with Chairman Hal Rogers on in eastern rural Kentucky 
that could be a fantastic model for the country. And I have 
been sharing that with Members of Congress who are very focused 
on this and Governors and mayors as well. And it is having 
full-time AmeriCorps members focused at early ages, in 
elementary schools, middle schools, anti-drug movements, drug 
rallies, Safe Sons for young people to talk about their 
observations and the positions they are in, where they are 
affected by drugs. And sadly, these children, unlike when I was 
raised, have actually seen family members and neighbors die. 
And it is tragic. And I do agree with you. I think this is an 
area for service. I think volunteers in the faith community can 
do more.
    We also have Community Health Corps. It is probably our 
largest organization. And I would love to provide details to 
you personally at a later time, but a little over 500 full-time 
AmeriCorps members, many of which are going to pursue the 
health sector as a career, but they are testing it through 
AmeriCorps. They are serving in community health clinics, they 
are learning about health needs, nutrition, and other things, 
and they are making a great impact as well. So I would love to 
meet with you and share that with you.
    Mr. Harris. Thank you. One just brief question if I might, 
Mr. Chairman. Do you have a zero tolerance policy for your 
volunteers with regards to drug use?
    Ms. Spencer. Yes, we do.
    Mr. Harris. Any kind of drug, including marijuana where it 
is legal----
    Ms. Spencer. Yes, we do.
    Mr. Harris [continuing]. In the States? OK. Thank you very 
much.
    Mr. Cole. Next go to the gentlelady from Connecticut.

               SUPPORTING VETERANS AND MILITARY FAMILIES

    Ms. DeLauro. Thank you, Mr. Chairman.
    I want to just look at the veterans' area again if I might. 
Connecticut has a large population of veterans and active 
military personnel, and you support military families and 
veterans. And you talked about the number of those who have 
joined your effort, so I think it is a win-win.
    Now, you have a Veterans and Military Families Steering 
Committee, and I understand that was convened recently to look 
at more services that you all can provide. What were the 
recommendations of your steering committee? Do you have waiting 
lists for services? And just in terms of--I know you talked 
about the G.I. Bill and other areas in here--how can we in this 
area provide increased support and effort by both increasing 
the number of veterans who are engaged in the effort again and 
looking at the kinds of services that they might be able to 
provide?
    Ms. Spencer. Let me share with you two ideas we are working 
on, and I think we are very close to making this happen. It is 
on the front end and on the back end of military service. When 
someone leaves the military service, they are handed a great 
tool from their service to transition them out of service. What 
we are trying to do is get in the manual the opportunity for 
them to serve in AmeriCorps written down, I mean, in that book 
so they can see that joining AmeriCorps could be one of many 
opportunities.
    Many of our veterans have the ability to go right in and 
get a job in the private sector or the public sector. Many are 
going right into college, but some need a little more 
transition, and I say that from a point of talking to these 
veterans who have told me this. And what AmeriCorps does for 
them is it gives them that opportunity to transition gently to 
a sense of normalcy from the war zone to stateside while we get 
to take advantage of their great coordinating skills. They 
offer great skills to us and organizations. So it is a win-win. 
So if I can get that opportunity in the formal book, that is 
going to be one way.
    Another way is--and this is a little loosely connected, but 
think about what it takes for a young American to step into the 
recruiter's door of what has gone on in their mind they have 
said I am going to join the Army? Only to find out oftentimes 
that they cannot join because they are overweight, test scores, 
physical limitations. At that moment I want the recruiter to 
hand them an AmeriCorps brochure and say we are not a good fit 
for you, but you have great skills and assets. Would you 
consider joining AmeriCorps? And here is the pathway to do so. 
Because we don't have any restrictions. In fact, we encourage 
people with disabilities to serve with us, people with limited 
education. We want all Americans. So it is a little bit 
different, but you see where there is an opportunity there.
    Ms. DeLauro. Right. What are the veterans' organizations 
that you tap into?
    Ms. Spencer. Like American Legion Auxiliary----
    Ms. DeLauro. Yes----
    Ms. Spencer [continuing]. Is a great one, I mentioned the 
Washington Vet Corps.
    Ms. DeLauro. Right. Right. Right.
    Ms. Spencer. There is a veterans' program in Virginia. I 
mean, there are a lot of them around the country, and they are 
local. You know, these are local grants. Most of them are going 
through their Governor's State commission, and the commission 
is selecting them at the local level. And some are not national 
nonprofits. Some are local organizations that have decided to 
focus on veterans in the community. And a lot of them are in 
areas where you just happen to have large military bases so 
they have a higher population of veterans.
    Ms. DeLauro. Do you think that they know what a resource 
you are to their effort?
    Ms. Spencer. Not enough.
    Ms. DeLauro. OK. Yes, I am just trying to think of----
    Ms. Spencer. No, not enough.
    Ms. DeLauro. Are even----
    Ms. Spencer. We need more help in getting that word out.
    Ms. DeLauro. Or even when we are dealing with the issue of 
substance abuse and so forth.
    I would on that point just say that the specific areas that 
you function in, I think there needs to be a lot more 
understanding, marketing of where you are and what you are 
doing because I think that that helps us to avoid, you know, in 
years past, folks who wanted to eliminate these kinds of 
services and serious cutbacks in the mission that you have laid 
out.
    I don't believe there is enough of an understanding of, you 
know, the functions that you are providing. I think there are 
many folks, and I don't know if you share this view, Mr. 
Chairman, that are here who think, OK, well, this is a large 
sum but you can go off and stay on the public--you know, get, 
you know, a stipend and so forth, and why should we be doing 
that and not understand the gap that is being filled in this 
whole range of services, you know, that you provide. And we 
would love to talk to you more about that.
    And just let me say I was so honored to be able to receive 
the--and it is not in a self-serving way. I can't tell you how 
much it means to me----
    Ms. Spencer. The Kennedy Lifetime Leadership Award.
    Ms. DeLauro. The Kennedy award, it really means so much to 
me personally, and I can't thank you enough for what you are 
doing or how we can expand what you are doing and tap into 
these resources, so thank you very much.
    Mr. Cole. Would the gentlelady yield for just a moment----
    Ms. DeLauro. I would be happy to.
    Mr. Cole [continuing]. Just to respond to your remark? And 
this is something certainly Ms. Spencer ought to be aware of. 
You would be amazed at the number of very conservative Members 
that I have that come and visit with me about your programs and 
what they have seen in their districts. You know, you really 
would. And, you know, it is kind of like cut everything else in 
government but you have got to leave this, you know----
    Ms. DeLauro. That is correct.
    Mr. Cole [continuing]. Particularly--what is it--is it 
Bright Lights, the education program you have in cities that--I 
had a number of Members who had seen that in action in their 
districts and felt like it just really made a dramatic 
difference. And you in particular would be shocked----
    Ms. DeLauro. I would not--right.
    Mr. Cole [continuing]. At the names.
    [Laughter.]
    Ms. DeLauro. I would be happy to know that, Mr. Chair.
    Mr. Cole. I have a whole secret list of allies for you----
    [Laughter.]
    Mr. Cole [continuing]. But I am afraid to put them in your 
hands. But, no----
    Ms. DeLauro. Let's list them.
    Mr. Cole. These really are programs because I think----
    Ms. DeLauro. Unbelievable.
    Mr. Cole [continuing]. People see them very directly in 
their communities in a way that they don't see other parts.
    Ms. Spencer. Yes.
    Mr. Cole. Look, you don't see the National Institutes of 
Health directly in your community, you know, in a way that you 
will see a group of kids immediately after a disaster or you 
are going just as a Member visiting in a local school district 
and here is this program and teachers and kids alike are 
bringing it up to you.
    So, no, your best advocates, frankly, are obviously your 
AmeriCorps members and then the people whom they serve.
    Ms. Spencer. Yes.
    Mr. Cole. I mean, you see it a lot so--anyway, I will yield 
back to my friend, the gentlelady.

                     EMPLOYERS OF NATIONAL SERVICE

    Ms. DeLauro. I would just end with this. There is always a 
quote I use that comes from a woman who served in this 
institution who I have a great regard for, and that is Shirley 
Chisholm, the first African-American woman who served in this 
body. And she said, ``Public service is the rent you pay for 
space on this Earth.'' Thank you for the public service that 
you give and that you are inspiring young people to give as 
well. Thank you.
    Ms. Spencer. Thank you. Well, it is actually carried over 
now to America's employers, and they are taking notice. A year 
ago we announced Employers of National Service, and we asked 
employers all over the country to lean in and recruit 
AmeriCorps and Peace Corps alums, give them an opportunity. 
They have given to their community. Give them an opportunity. I 
am so pleased to report today that we have 339 employers from 
all over the country who represent 1,777,000 jobs. These are 
employers like Delta Airlines; Disney; Comcast NBC Universal; 
the States of Montana and Virginia; cities like Phoenix, city 
of New York, Philadelphia, Nashville; colleges like Arizona 
State University, of course nonprofits galore, and they are 
telling us we are not doing this to get on some list. We 
actually hope they apply. We value the fact that these 
AmeriCorps members have a mission-above-self, organization-
above-self sort of DNA. They work with a team. They are the 
kind of people we want to bring in our organizations. And many 
of our workforce are an aging workforce, so they are looking to 
replace their aging out and their retiring employees.
    So I am so thrilled that America's employers are seeing the 
value of AmeriCorps and Peace Corps, which is our sister in 
service, does a great job. So, you know, it is getting noticed. 
And I am so glad to hear, Mr. Chairman, that your colleagues 
are talking about it. It tells us that our education work, to 
demonstrate, asking you to come out and see firsthand is 
working. So I am really thrilled with that, and we want to do 
more.
    Mr. Cole. Unless my friend from Connecticut has further 
questions, that, I think, is the perfect note to end this 
particular hearing on. Ms. Spencer, I want to thank you very 
much for being able to come and participate with us this year. 
We will try and promise it is not 16 years----
    [Laughter.]
    Ms. Spencer. Thank you.
    Mr. Cole [continuing]. Until you come back. Then you will 
be a fully fledged member of Senior Corps.
    Ms. Spencer. That is right.
    Mr. Cole. And thanks for the great work that you and your 
colleagues do all across the country and the sheer number of 
ways that you have been able to, you know, bring out what is 
best in us as a people and sometimes institutionalize it and 
expand it. It is something you should be very, very proud of. 
And obviously, the people that work with you and preceded you 
have been doing this for a lot of years as well, so just thanks 
for your effort on behalf of the American people.
    Ms. Spencer. Thank you. This is a true honor to serve in 
this role, and it is an honor to support you and your goals in 
your districts. And we really appreciate the support from 
Congress. Thank you so much.
    Mr. Cole. Thank you. With that, we are adjourned.

                                          Wednesday, March 2, 2016.

       SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

                                WITNESS

KANA ENOMOTO, ACTING ADMINISTRATOR, SUBSTANCE ABUSE AND MENTAL HEALTH 
    SERVICES ADMINISTRATION

                           OPENING STATEMENT

    Mr. Cole. Welcome. It is wonderful to have you here, and we 
will go ahead and open the hearing. Today, we are here to 
discuss the budget request from the Substance Abuse and Mental 
Health Services Administration, an agency in the Department of 
Health and Human Services.
    I want to thank Acting Administrator Kana Enomoto very much 
for having you here today, and I look forward to hearing your 
testimony.
    I will start by saying I very much appreciate the increases 
the administration put forward improving access to mental 
health services, targeting suicide prevention funding for the 
most at-risk groups, particularly tribal populations, and 
increasing vital substance abuse treatment and prevention 
programs. I think these are all areas we can agree need 
attention.
    But I share the concerns expressed last week at our hearing 
with Secretary Burwell that mandatory funding is not a 
realistic option. I must stay honestly within the jurisdiction 
of this committee and address these problems through available 
discretionary resources.
    I share the sentiment expressed by Chairman Rogers last 
week that we must find solutions to the opioid epidemic within 
the confines of the appropriations process. As many of you 
know, rising rates of opioid abuse and death are alarming. Drug 
overdose was the leading cause of injury-related death, and 
among those 25 to 65 years of age, drug overdose caused more 
deaths than motor vehicle crashes.
    So we are deeply committed to finding better approaches to 
stop the growing epidemic of heroin use and prescription drug 
abuse. Last year, we made several investments in this area, and 
I look forward to working with you to continue this work in the 
coming year.
    But I do want to stress--and I will be asking you 
questions--this whole question of mandatory funding is one that 
troubles me greatly because, frankly, we don't have the 
jurisdiction in this committee to do that. And my political 
judgment at this point is that that is unlikely to happen.
    But you know, there may be discussion going in this place 
that I know nothing about. That happens all the time. But, so 
if you are involved in some, I want to know about that. And if 
not, then we have got to figure out other ways to help you 
achieve the objectives you outline because, again, they are 
worthy goals.
    With that, I want to yield to my subcommittee ranking 
member, the gentlelady from Connecticut, Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing.
    And I want to welcome Ms. Enomoto. We look forward to 
talking with you today about, as the chairman pointed out, the 
critical programs that fall under the Substance Abuse and 
Mental Health Services Administration purview, as well as the 
budget proposal for next year.
    I want to start by saying a thank you to Chairman Cole 
because last year we were able to make important investments in 
the Labor, HHS bill altogether, including an increase of 
$160,000,000 for SAMHSA. We were able to secure a $50,000,000 
increase to the mental health block grant, and a $38,000,000 
increase to the substance abuse prevention and treatment block 
grant program for 2016. Many families without healthcare 
coverage or whose insurance will not cover mental health or 
recovery programs rely on the services that are funded by the 
grants.
    We were able to more than double the funding for 
medication-assisted treatment for prescription drug and opioid 
addiction through your targeted capacity expansion program. But 
I do have a worry that we are not going to be able to make 
these kinds of increases again without a stronger allocation.
    Last year's omnibus moved the Federal budget in the right 
direction. We raised the caps on defense and nondefense 
discretionary spending, and we increased what was much-needed 
funding for programs that support our economy and the quality 
of life of citizens across the country.
    The chairman has heard me say this before, but I am 
troubled that Labor, HHS, that our bill received only a 
fraction of its fair share of the $66,000,000,000 increase 
provided in last year's budget deal. While the other nondefense 
subcommittees received an average of 6.9 percent last year, 
Labor, HHS increased by only 3.4 percent.
    This subcommittee represents 32 percent of nondefense 
discretionary spending, and in my view, our allocation should 
be proportional to that figure. So I hope that we will see that 
realized this year.
    SAMHSA's programs aim to reduce the impact of substance 
abuse and mental illness on our communities through prevention, 
treatment, and support during recovery. The programs are more 
important now than ever. As the chairman alluded to, we face a 
public health crisis in opioid abuse. The rise in that abuse 
across the country is sounding off alarms that we need to pay 
attention to.
    We face an epidemic that requires a response from all 
levels of government. Every day over 100 Americans die from 
drug overdoses. It outnumbers the deaths from gunshot wounds or 
vehicle crashes.
    The rise in opioid abuse across the country is distressing. 
Of the over 47,000 drug overdose deaths in 2014, heroin was a 
factor in over 10,000 deaths. Opioids were involved in almost 
21,000. Sadly, the deaths are likely undercounted. Thousands 
more people are addicted or in recovery.
    We also need to expand access to naloxone in our community. 
I have urged the Food and Drug Administration to reclassify 
naloxone from a prescription to an over-the-counter medication 
so that more will have access to this lifesaving drug.
    Supporting SAMHSA's work is essential to the well-being of 
our citizens. We can't afford to wait to act when addiction 
affects the lives of so many of our neighbors, our brothers, 
our sisters, our community members. We need to invest in 
programs that put Americans on the road to recovery, which 
brings me to the topic of today's hearing, the SAMHSA budget 
request for 2017.
    There is so much good in this budget proposal and I support 
those efforts. I especially want to highlight the proposed 
increases to the President's Now is the Time initiative, which 
began in the aftermath of the tragedy at Sandy Hook Elementary 
School, still so fresh in all of our minds.
    The budget request includes an increase of $7,000,000 for 
Project AWARE, which helps to identify high school kids with 
mental illness and refer them to treatment, and it includes a 
request of $10,000,000 for a new program to train peer 
professionals.
    On the substance abuse side, I was glad to see that the 
request included $460,000,000 for opioid use disorder 
treatment. Treatment of opioid abuse is critical. However, I am 
wary that all the funding comes on the mandatory side of the 
budget, which is unlikely to happen.
    Which is why I will be introducing a bill that would 
authorize an additional $1,000,000,000 in discretionary dollars 
per year toward substance abuse to support community clinics, 
and expand access to treatment for individuals with substance 
abuse disorders. Treatment seems to have the biggest shortages 
throughout the country. That is what I have heard from the 
folks all over the country.
    It is the responsibility of this committee to fund SAMHSA 
programs. We need to increase the subcommittee's allocation to 
support mental health, and to address the opioid epidemic in 
this country rather than rely on mandatory funding that will 
not materialize, which is why the subcommittee allocations that 
will be released in the next few weeks will be so important.
    I hope my colleagues on the other side of the aisle will 
join us in urging an increase for Labor, HHS in fiscal year 
2017. And with that, I look forward to your testimony and to 
our discussion this morning.
    Thank you, Mr. Chairman.

                        INTRODUCTION OF WITNESS

    Mr. Cole. I thank the gentlelady.
    And now, Ms. Enomoto, you are recognized for your 
testimony.

                           OPENING STATEMENT

    Ms. Enomoto. Well, good morning, Chairman Cole. Good 
morning, Ranking Member DeLauro and members of the House 
Appropriations Committee.
    I would like to begin by thanking you. Thank you for 
inviting me here today. Thank you for shining the light on 
these important issues related to substance use disorders and 
mental illnesses in this country. And thank you for the 
tremendous support the committee showed to the Substance Abuse 
and Mental Health Services Administration in the Consolidated 
Appropriations Act of fiscal year 2016.
    You made important investments in the work that SAMHSA 
does--helping communities in crisis, confronting the epidemic 
of opioid overdose, expanding treatment for people with serious 
mental illnesses, and preventing suicide and substance use 
among our tribal youth. By doing so, you sent a clarion call to 
the Nation that behavioral health is, indeed, essential to 
overall health.
    We are honored by your faith in us to do this important 
work for the Nation, and we are committed to executing your 
charge with the utmost attention to financial integrity, 
operational efficiency, and programmatic outcomes. Working 
together, we will save lives and we will strengthen 
communities. This is what makes me enjoy coming to work every 
day.
    That is why in fiscal year 2017, we hope to build on the 
momentum you have provided. The President's budget outlines a 
$4,300,000,000 investment in SAMHSA. It is an increase of 
$590,000,000. It is also an increase to ensure that every State 
can implement the full array of science-based services that we 
know are needed to serve young people just emerging from the 
fog of a first episode of schizophrenia.
    It is an increase that will ensure that every person with 
an opioid addiction, whether that is heroin, prescription 
drugs, fentanyl, every person who seeks treatment will find an 
open door. It is an increase that will help that father, that 
daughter, that veteran, spouse, or friend to know that help is 
available and suicide is not the answer.

                        SAMHSA'S FY17 PRIORITIES

    In fiscal year 2017, SAMHSA proposes to focus on four 
urgent public health priorities for the President, for the 
Secretary, and I believe for this committee--engaging 
individuals with serious mental illness into quality care, 
addressing the opioid crisis, preventing suicide, and 
maintaining the behavioral health safety net.
    We can gain traction on these issues. We have the science. 
We know how to do it, but we need to get the resources on the 
ground. The President's budget provides what we need to advance 
this critical work.

                         SERIOUS MENTAL ILLNESS

    Thanks to expanded coverage provided by the Affordable Care 
Act and the Mental Health Parity and Addiction Equity Act, over 
60 million Americans have access to increased behavioral 
health--increased access to behavioral health services. 
Unfortunately, less than half of children and adults with a 
diagnosable mental illness seek treatment, and for those who do 
seek treatment, even with the most serious conditions, the 
delay between first onset and help-seeking can be more than a 
year.
    That is unacceptably long. For conditions as serious and 
potentially disabling as bipolar disorder, major depression, 
PTSD, or schizophrenia, every day counts. So to address this 
gap, the budget proposes a new $500,000,000 2-year mandatory 
funding investment to improve access to mental health services 
and engage people into high-quality care as early as possible.
    For SAMHSA, this initiative includes $230,000,000 over 2 
years for evidence-based early intervention services. As I 
mentioned, this would enable every State to establish one early 
intervention program. It builds on a body of work by the 
National Institute of Mental Health, including their RAISE--or 
their RAISE research initiative that found that coordinated 
special care delivered early in the course of an illness can 
decrease future episodes, the likelihood of future episodes of 
psychosis. It can reduce long-term disability, and it can help 
people get their lives back on track, which at that age is so 
incredibly important. It can bend the curve.
    So this 2-year program will supercharge the efforts already 
under way with the mental health block grant 10 percent set-
aside for early SMI. To complement this effort, the budget 
proposes a new 10 percent set-aside within the Children's 
Mental Health Initiative to focus on youth and young adults at 
clinical high risk for developing psychosis.
    The potential value of this preventive intervention during 
the prodrome phase when we can actually have a chance to stave 
off a psychotic disorder is incredible. So SAMHSA proposes to 
test implementation of this promising approach in community 
practice settings to foster innovation and take advantage of 
emerging science to change and even save lives.
    Because we know already what can happen when we wait too 
long. ER visits by individuals in behavioral health crisis have 
been on the rise for over a decade. They often result in long 
waits and unnecessary inpatient care. And for too many people 
with mental illnesses and substance use disorders, they are 
being seen in ERs. They are being seen in homeless shelters. 
They are being seen in jail. These are not systems well 
equipped to meet their needs.
    So in fiscal year 2017, we also propose the Increasing 
Crisis Access Response Effort, or ICARE, program to help 
communities build and sustain integrated crisis response 
systems to prevent and mitigate, respond to, and ensure follow-
up to behavioral health crises like we see so often in this 
country.
    To complement this effort, we are maintaining funding for 
the assisted outpatient treatment program that you appropriated 
to us for the first time in fiscal year 2016. This program will 
support communities to implement and evaluate assisted 
outpatient treatment and its impact on health and social 
outcomes, hospitalizations, criminal justice involvement, 
homelessness, and other important outcomes for people with SMI.
    To advance this program, SAMHSA is partnering with NIMH and 
ASPE to design and evaluate it. And yet each day, opioid 
overdoses are claiming the lives of Americans from every walk 
of life. Whether we live in Oklahoma City; Oakland, California; 
Oakridge, Tennessee; or Oglala Lakota County, America's 
obsession with opioid painkillers and illicit drugs poses a 
major public health crisis.

                      ADDRESSING THE OPIOD CRISIS

    The fiscal year 2017 budget makes a bold commitment to face 
this challenge head on, a $1,000,000,000 2-year investment in 
new mandatory funding to build the addictions workforce and 
bolster the continuum of services--prevention, treatment, and 
recovery--to address the opioid crisis. Of the $1,000,000,000, 
$920,000,000 over 2 years will come to SAMHSA for State 
targeted response cooperative agreements to support community 
prevention, build the workforce, use telehealth for addiction 
treatment, and expand the availability of MAT, including needed 
psychosocial services and recovery supports.
    The initiative also includes $30,000,000 over 2 years for 
SAMHSA to evaluate the effectiveness of MAT programs under 
real-world conditions to help identify opportunities to improve 
treatment outcomes. In addition, on the discretionary side, 
SAMHSA proposes to double our MAT program, our MAT targeted 
prescription drug and opioid addiction grants from $25,000,000 
to $50,000,000, and that would support 23 States, enabling us 
to reach a total of 46 States with these grants.
    And as we expand funding availability to pay for MAT, we 
have to ask ourselves who is going to provide these services? 
And that is why we are requesting $10,000,000 in funds for a 
buprenorphine prescribing authority demonstration to test the 
safety and effectiveness of expanding the pool of professionals 
who might prescribe buprenorphine to include advanced practice 
providers, such as advanced practice nurses and physician's 
assistants.
    In a parallel effort, SAMHSA is preparing to propose a new 
regulation to increase the highest patient limit for physicians 
who already have a waiver to prescribe buprenorphine. And these 
efforts will complement our ongoing SAMHSA activities, 
including courses for healthcare professionals on prescribing 
opioids for pain, enhancement of prescription drug monitoring 
programs, and expanding access to naloxone, disseminating our--
this is our opioid overdose prevention toolkit, which is, in 
fact, the most often downloaded item on SAMHSA.gov.

                           PREVENTING SUICIDE

    Unfortunately, drug overdose is not our only problem. In 
2014, nearly 43,000 Americans died by suicide. Five thousand 
five hundred of these deaths were among young people under the 
age of 24. Thankfully, SAMHSA had $57,000,000 to dedicate to 
preventing suicide in this vulnerable age group.
    By contrast, however, 37,000 deaths occurred among adults 
over 25. Currently, people ages 45 to 65 and those 85 and older 
are at highest risk for suicide, yet in fiscal year 2015 and 
fiscal year 2016, SAMHSA had only $2,000,000 to address adult 
suicide prevention, and this was an increase over 2014.
    So the 2017 budget proposes--gives us the opportunity to 
follow a true public health approach and allocate resources to 
focus interventions where we are losing the most lives. In the 
case of suicide, that means increasing our focus on middle age 
and older adults while maintaining our substantial investment 
in preventing youth suicide.
    It is important to note that in our $30,000,000 proposal 
for National Strategy for Suicide Prevention, we are including 
a tribal set-aside of $5,200,000, and we look forward to 
working with our colleagues at IHS on the implementation of 
National Strategy for Suicide Prevention in both SAMHSA and 
IHS.

               MAINTAINING THE BEHAVIOR HEALTH SAFETY NET

    Furthermore, the President's budget highlights SAMHSA's 
commitment to maintaining the behavioral health safety net by 
continuing to invest in the mental health and substance abuse 
block grants at $532,000,000 and $1,900,000,000, respectively.
    Since 2013, the mental health block grant has grown by 
$100,000,000, and the substance abuse block grant has grown by 
$150,000,000. We appreciate those increases, and they are 
important gains for us to maintain. As the entire healthcare 
system pivots to value-based purchasing and delivery system 
reform, we must maintain funding to ensure a smooth transition 
for people with mental illnesses and substance use disorders.
    The behavioral health safety net provides access to those 
evidence-based practices not covered by insurance that research 
has told us are essential to help people achieve and maintain 
meaningful recovery. At the same time, it is critical to note 
that the SABG prevention set-aside is the major funding of 
primary substance abuse prevention in this Nation.
    Finally, it wouldn't be a conversation about behavioral 
health if we didn't talk about workforce development. We must 
act swiftly to ensure that the behavioral health workforce is 
sufficient to meet growing demand.
    This expanded workforce includes prescribing and 
nonprescribing professionals--psychiatrists, psychologists, 
social workers, nurses, counselors, therapists, peers, youth, 
adults, and families. A skilled and diverse workforce is 
critical.
    Toward this end, we are requesting $10,000,000 to support 
peer professional workforce development, and in addition, we 
will work closely with our colleagues at HRSA and IHS as they 
implement complementary efforts to expand the number and grow 
the competency of the behavioral health workforce. We are 
grateful for the administration's and Congress' support in this 
crucial area as well.
    Members of the committee, thank you for your time. We know 
all too well that substance use disorders and mental illnesses 
come at a great cost to society. The impact of untreated or 
untreated behavioral health conditions on the labor market, 
criminal justice system, businesses, schools, and communities 
is tremendous, but above all, the impact is greatest on 
individuals and families.
    Thank you very much for your willingness to talk to me 
today about this, and I am happy to take any questions.
    [The information follows:]
    
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
                       MANDATORY FUNDING PROPOSAL

    Mr. Cole. Well, thank you very much for your testimony, and 
thank you very much for you and your colleagues' professional 
efforts to deal with what we all agree is genuinely a national 
crisis. And I think, you know, the subcommittee showed again 
last year that it is very interested in trying to work with the 
administration on this.
    As you are aware, as I mentioned in my opening remarks, 
most of the initiatives you are proposing are not within our 
jurisdiction. Literally, I am mystified by this because there 
is considerable support for two proposals that the President 
and the administration generally put forward.
    The Cancer Moonshot, we were all out at NIH, or a number of 
us, earlier this week to discuss that. We want to find a way to 
work with the administration on that. This initiative, again, 
we would agree is a very important initiative. But we are 
simply not going to have the ability to do that.
    Do you know, are there any discussions under way between 
the administration or with the relevant committees of 
jurisdiction about the mandatory funding issue?
    Ms. Enomoto. Not that I am a part of, but I do know that 
the view on the mandatory funding is that it is fully offset by 
the President's budget and that we are hoping that this can be 
a down payment or a supercharge to some--some important 
efforts, some of which are already under way and some of which 
really need to get jump-started in order to make progress on 
the important health issues that we are talking about.

                  FY17 DISCRETIONARY FUNDING INCREASE

    Mr. Cole. I am not aware of any either, and I will be in 
some meetings later today and this week where I will seek to 
see if that is happening. But in the absence of that, and you 
know, I think it is very unlikely that that is going to come to 
pass. I mean, I appreciate the optimism of the administration. 
But I just--I don't see it. And if I am wrong, so be it.
    So given that, you have really only asked us for a 
$60,000,000 increase on your discretionary line. Can you tell 
us how that $60,000,000 would be used and whether, in your 
view, that is enough to deal with the problem?
    Ms. Enomoto. Well, I think we would welcome a conversation 
about the balance between mandatory and discretionary, as well 
as the short-term and long-term goals, because I would agree 
that in order to achieve the goals that we have outlined for 
ourselves to make sure that everyone who is addicted to opioids 
who seeks treatment finds an open door. That will take a major 
infusion of funds.
    Mr. Cole. Well, we will keep waiting for that discussion to 
happen. Maybe you and I will actually be invited to it on some 
occasion, but the people that I know that are supposed to make 
those decisions haven't heard anything either at this point.

                   FUNDING BEYOND MANDATORY PROPOSAL

    So let me ask you this because the other challenge that 
this committee would have--let us assume that this occurred, 
and we were able to do this for 2 years--we are going to have 
some sort of fiscal cliff then 2 years down the road.
    You won't be here, but unless the voters of Connecticut and 
Oklahoma change their mind, my ranking member and I may well 
still be here. So how would we fund those programs?
    I don't think you are--I am sure you are not suggesting 
that in 2 years we could take care of this if we spent 
$960,000,000 to take care of it. So those programs then would 
have to go on, and we have no assurance what our allocation 
would be, or that is the advantage of building something in the 
discretionary budget.
    Once it is in that budget, there is a very good chance that 
we may reshape it, we may change it, but that funding stream is 
going to continue and States can count on it. In my own State, 
if we were to do something like you suggest here, and we were 
fortunate enough to win some grants. They are in the middle of 
a budget crisis themselves right now. So I can promise you they 
can't pick it up and sustain it.
    So we would have set up a program that 2 years down the 
road, unless we found some other funding source for, would 
collapse, and how would you address that if you were sitting in 
our places?
    Ms. Enomoto. Well, I think the thought behind this is that 
what we are talking about in the State cooperative agreements 
is across the spectrum. So it is prevention, treatment, and 
recovery. So remember that we would be investing in your 
prevention system so that you would have fewer cases of opioid 
use disorder knocking on your doors in 2 years.
    You would be investing in the workforce so that after the 
money goes away, you will still have the people who have been 
trained, who have been certified, who have been given greater 
access or providing greater access to people who are seeking 
treatment. And you have invested in a telehealth infrastructure 
so that you can get--that those professionals who aren't 
available in rural and remote areas can actually reach folks 
without a 2-hour drive or a $50 bus fare to try to get to a 
service provider that is in a big city.
    So I think there are some investments available through 
these State grants that would actually carry on through the end 
of--or through into the next phase where things could be picked 
up by the block grants or could be picked up by third-party 
payers.
    Mr. Cole. Well, that is an excellent point. I have no doubt 
there would be some residual benefits and carryover, but I 
still think we would face a problem.
    But I can't enforce a 5-minute clock if I don't keep it 
myself. However, we have been joined by we affectionately call 
him ``the big chairman.'' Do you want me to give you time to--
--
    OK. In that case, if we can, I will just move to my ranking 
member for whatever questions she cares to offer.
    [Pause.]
    Ms. DeLauro. Lovely. Thank you. Thank you very much, Mr. 
Chairman.
    And Mr. Big Chairman, thank you very much.
    Ms. Enomoto, last week, I participated in a series of 
events on drug treatment programs in Connecticut. I was with 
Michael Botticelli, Director of the National Drug Control 
Program at the White House, and talking about solutions to this 
devastating epidemic that we face.
    In addition to talking to medical experts and public health 
leaders about opioid addiction, I talked to families who have 
the firsthand knowledge of the heartbreak and the havoc that is 
caused by addiction, and I visited a methadone maintenance 
program at the New Haven Correctional Center. The message that 
emerged from these discussions and site visits was that there 
was a critical need for greater access to treatment, 
particularly medication-assisted treatment.
    Too many individuals don't seek treatment. They can't 
afford it. It is not available or because of the stigma 
attached to addiction.
    A recent study found that over 80 percent of individuals 
with opioid use disorders do not receive treatment, with little 
difference in the rate of treatment during the past decade. You 
would agree that that has to change.

         EXPANDING MEDICATION-ASSISTED TREATMENT AND HEALTH IT

    My questions to you on this effort are in the budget. Your 
budget has a significant new initiative, $1,100,000,000 over 2 
years to address opioid use. How is SAMHSA proposing to expand 
access to medication-assisted treatment for millions of 
individuals who are trying to break their habit?
    And a second question is your proposal highlights, and you 
mentioned, telehealth and health IT systems as activities that 
would be eligible for funding. Can you talk about those 
activities, both telehealth and health IT, to opioid treatment 
strategies and your capacity to be able to do that?

                          EXPANDING HEALTH IT

    Ms. Enomoto. Thank you very much, Ranking Member DeLauro. 
Your leadership in shedding light on this issue, your 
commitment to speaking with families, to visiting our 
providers, is so greatly appreciated because the scope and 
depth of the crisis is really measured in human terms.
    What we hope to do with our State capacity expansion grants 
or cooperative agreements would be to ask those States to focus 
on the communities that are hardest hit by the opioid crisis. 
So focus on where you have the biggest numbers and address the 
deaths from overdose and fallout by addressing prescribing 
practices.

                EXPANDING MEDICATION-ASSISTED TREATMENT

    Ms. DeLauro. What about the medication-assisted treatment, 
which seems to be a good road to follow?
    Ms. Enomoto. Yes.
    Ms. DeLauro. How are we expanding that?
    Ms. Enomoto. Well, we have a number of routes doing that 
right now. So we have our medication-assisted treatment 
prescription drug opioid addiction grants that are on the 
discretionary side. So, again, we went from $12,000,000, thanks 
to the committee went to $25,000,000 with an increase of 
$13,000,000, and now proposing an increase up to $50,000,000.
    So those are already grants targeted to States with the 
highest rates of opioid admissions, and we are working with 
States to implement any one of three FDA-approved medications, 
together with--when we say medication-assisted treatment, that 
means it is medication plus necessary psychosocial treatment 
and recovery support services because that is what the science 
tells us is most likely to get the best outcome.
    People with opioid use disorder who have had medication-
assisted treatment are most likely to achieve longer-term 
recovery. So, absolutely, that is what we are doing in the 
discretionary grant. That is what we are doing by training 
providers.
    We are--under DATA 2000, SAMHSA operates the buprenorphine 
waiver program with the DEA, and so we have expanded our 
access--expanded our efforts to provide training to physicians 
who are interested in providing buprenorphine to their 
patients. For example, in Scott County, Indiana, we were 
involved in the response last summer to make sure that we could 
increase access in the immediate term to help stem the tide of 
the spread of HIV in that community.

                   EXPANDING TELEHEALTH AND HEALTH IT

    Ms. DeLauro. Your telehealth and IT stuff, tell me quickly. 
My time is running out.
    Ms. Enomoto. So, so as I mentioned, we would want to make 
sure that providers who are in central areas or urban areas are 
able to reach those patients who are in either medically 
underserved or behavioral health underserved areas. They don't 
have access to a clinician who could prescribe buprenorphine, 
Vivitrol, or although for methadone, we will still need to----
    Ms. DeLauro. Do you have the capacity to do that?
    Ms. Enomoto. Not right now.
    Ms. DeLauro. Not right now. Well, I have got 11 seconds. So 
I will finish up here. Let us go, 10, 9, 8. Okay. Thank you.
    Mr. Chairman, thank you. Yield back.
    Mr. Cole. Thank you. And thank you for adhering to the 
clock, and we will certainly have an opportunity to get back to 
you, I am sure.
    So if we can, we have been joined, as you know, by the 
chairman of the full committee, who has been a national leader 
in this area and has really, frankly, brought our attention on 
it and, I think, done a lot to make sure that we were able to 
do what we did do last year in this area. So, Mr. Chairman, I 
would call on you for whatever statement you would care to make 
and then, obviously, any questions you would care to put to our 
witness.
    Naturally, I will extend that same courtesy to our ranking 
member of the full committee when she arrives, if she can make 
it. So, Mr. Chairman?
    Chairman Rogers. Mr. Chairman, thank you for yielding. 
Thanks for the courtesy.
    Welcome, Madam Administrator, to your first hearing before 
the committee in this role.
    I will keep my remarks brief. I am pleased that the 
President's budget recognizes the scope of opioid abuse in 
America and prioritizes treatment for those suffering from 
addiction. We have heard it often. We even heard it today. We 
have more deaths from opioid abuse overdoses than car accidents 
and growing. It is getting worse every day.
    Of the 2.5 million Americans who need treatment for opioid 
use disorders, less than 1 million are receiving it. That is a 
serious problem, and we have got to do something about it.
    I am pleased that you will be discussing these and other 
issues at the National Prescription Drug Abuse and Heroin 
Summit in Atlanta the week after Easter. We look forward to 
hearing from you at that time down there.
    That has become, by the way, the premier organization in 
the country bringing together the whole gamut of aspects of 
opioid abuse--treatment, education, recovery, and law 
enforcement--all in one place. And it is an amazing--this is 
the fifth annual summit, and we thank you for coming.
    It is important to note that there is no one size fits all 
approach to treatment. We have got to foster a regimen which 
tailors and personalizes a patient's treatment to his or her 
individual needs, and certainly medication-assisted treatment 
are a piece of the puzzle. If provided under the care and 
supervision of a medical professional trained in addiction, MAT 
can help a patient turn his or her life around and move forward 
in a positive direction.
    This committee has repeatedly communicated to SAMHSA that 
there is a full spectrum of options that we ought to be 
considering for every patient who walks through the door 
looking for help, and doctors ought to be trained in all of 
them to decide what is best for that particular patient. 
Unfortunately, I am not sure that message has been received.
    If the chairman will indulge me, let me ask a few brief 
questions.

                    UTILIZING NON-OPIOID MEDICATIONS

    Buprenorphine has been a useful tool for many doctors, but 
it seems that HHS and SAMHSA have held this drug up as a silver 
bullet, focusing on prescribing caps and access to it. However, 
there are also non-opioid medications available to treat 
patients struggling with addiction, and our committees 
encourage you to look at these products as another tool in the 
box. Are you making progress on looking in that toolbox?
    Ms. Enomoto. Absolutely. We recently issued a guidance on 
the use of long-acting injectable naltrexone and strongly 
believe that all patients, that this is a decision between 
patients and their clinician. And so all three options for 
medication-assisted treatment for opioid use disorder should be 
available.
    And we have actually received guidance previously. So we 
are doing a thorough review of our technical assistance 
materials regarding medication-assisted treatment and updating 
them to make sure that we are inclusive of all the FDA-approved 
medications, including antagonist and agonist therapies. And so 
we absolutely agree with you that there are multiple pathways 
to recovery and that antagonist therapies are often the right 
choice for people.

                       ABSTINENCE-BASED TREATMENT

    Chairman Rogers. Medication-assisted therapies may not work 
for everyone. So what will you do to ensure that faith and 
community-based abstinence treatment programs have a space in 
the big picture as well?
    Ms. Enomoto. You know, since 2005, SAMHSA led in the space 
of recovery support services and the engagement of faith and 
community-based organizations in the provision of both clinical 
care and recovery support services. Through that program, we 
have served thousands of Americans and helped them achieve 
long-term recovery.
    Then we have since then rolled recovery support services 
into what is expected to be provided under the substance abuse 
prevention and treatment block grant, and we have also worked 
with the Centers for Medicare and Medicaid Services to better 
understand how recovery support services provided by 
traditional providers or faith-based or community providers can 
be supported by third-party payer.
    So we are looking for the inclusion because we have seen 
with our data that people can and do recover when they receive 
services that resonate with them in different ways, and 
particularly providers from a shared faith or other kind of 
community can reach people in ways that touch them very deeply.

              EXPANDING ACCESS TO TREATMENT IN RURAL AREAS

    Chairman Rogers. Cities have facilities that rural areas do 
not, and rural areas are really, really hurting because they 
just simply don't have the capability to deal with it. I have 
spoken on a number of occasions with Secretary Burwell about 
the importance of access to treatment, especially in rural 
communities.
    How would your budget proposal address the shortfall of 
residential facilities in rural parts of the country?
    Ms. Enomoto. Well, as I mentioned earlier, one of the 
aspects of the opioid proposal would include the use of 
technology, and I think that can be done in multiple ways. One 
way would be through traditional telehealth. So we can get 
providers who are located in cities who would be able to 
connect one-on-one with an individual who is located in a rural 
area.
    Another way is through a collaborative care model, such as 
Project ECHO, where we can get experts who are located at 
academic centers or advanced practice centers, provider 
organizations who can convene on a regular basis and provide 
training, support, supervision, and collaborative case 
management with providers who are located across the country. 
So sometimes there are providers who would be willing to see a 
person with a substance use disorder, simply don't have that 
specialty training or that expertise, but with the support of 
an expert who is available to them on a regular basis, they can 
actually manage that kind of complex care.
    And there is research to show that this works on all kinds 
of conditions from depression to hepatitis to cancer care, 
diabetes. And we also know that it can work for substance use 
disorders as well.
    Chairman Rogers. Well, thank you, Madam Administrator, for 
the hard work you are doing. We will see you in Atlanta.
    Mr. Cole. Thank you, Mr. Chairman.
    I am going to move to my good friend from California, Ms. 
Roybal-Allard, for 5 minutes. And then, if I may, I am going to 
ask my friend, the vice chair of the committee, to take the 
chair while I go to another hearing, and I will be back at some 
point.
    Thank you.
    [Pause.]

                      UNDERAGE ALCOHOL CONSUMPTION

    Ms. Roybal-Allard. Acting Administrator Enomoto, I have a 
hearing conflict today. So I want to apologize in advance for 
having to leave right after this round of questions, and I will 
be submitting several others for the record.
    But I wanted to take a few minutes to talk with you about a 
bipartisan issue that I have been working on with Congresswoman 
DeLauro for over 15 years, and that is the issue of underage 
drinking in this country. Ten years after passage of the Sober 
Truth on Preventing Underage Drinking, it is clear that the 
STOP Act's comprehensive approach is making a difference.
    According to the 2015 Monitoring the Future survey, alcohol 
use by 8th, 10th, and 12th graders are at their lowest level in 
decades. SAMHSA has been a great partner in the fight against 
underage drinking by leading the ICCPUD, producing the annual 
report, and administering the community grants, and the 
progress we have made is very, very encouraging.
    But sadly, as you know, underage alcohol consumption in the 
United States remains a widespread and persistent public health 
and safety problem. And the most recent Monitoring the Future 
survey tells us that alcohol is still the number-one drug of 
choice among our youth.
    So I have been working very hard with Congressman Mike 
Fitzpatrick and Congresswoman Rosa DeLauro to reauthorize the 
STOP Act so its critical programs will continue into the next 
administration, and I am hoping that all my committee 
colleagues will join me in this effort.

                          2015 STOP ACT REPORT

    But in the meantime, I wanted to ask you about your plans 
for the fiscal year 2017 STOP Act programs. When do you expect 
to release the 2015 report on the STOP Act?
    Ms. Enomoto. So, Congresswoman Roybal-Allard, first let me 
start by saying thanking you for making the time to be here 
today and thank you for your and Congresswoman DeLauro's 
incredible leadership on the issue of underage drinking 
prevention. It has been--it has yielded real results for our 
country that is saving lives and creating safer families, safer 
communities for everybody.
    I want to make sure that I get you complete and accurate 
information about the fiscal year 2015 report. So I would have 
to get back to you with your staff.
    Ms. Roybal-Allard. Okay. I would appreciate that.
    Ms. Enomoto. Absolutely.
    Ms. Roybal-Allard. Because I think the reports have been 
very, very valuable.
    Ms. Enomoto. Absolutely. Happy to do that.

                        UPCOMING ICCPUD MEETINGS

    Ms. Roybal-Allard. Also, will you convene the ICCPUD 
principals and stakeholders meeting one last time before this 
Congress and administration ends, and when will that take 
place?
    Ms. Enomoto. March 31.
    Ms. Roybal-Allard. March 31, that is great. And the reason 
I am happy to hear that, because those meetings have been 
extremely valuable in evaluating the conversation about 
underage drinking prevention and encouraging high-level 
strategizing and coordination of the best ideas and practices 
to achieve that goal. So that is very good news.

                          FY18 STOP ACT GRANTS

    Evaluation of the STOP Act community grants have twice 
shown their success in lowering underage drinking rates in 
participating communities. In fiscal years 2015 and 2016, 
SAMHSA awarded 97 grant continuations, but your budget 
justification states that you will award 79 new STOP Act 
grants. Will you also be proposing new grants in fiscal year 
2018 to help meet this backlog of community seeking STOP 
grants?
    Ms. Enomoto. I would--I think that depends on the grant-
making cycle. So I am sorry I don't have the fiscal year 2018 
data. I do know that we are planning to award 80 grants in 
fiscal year 2016. Happy to follow up and get you the 2017 and 
2018 data.
    Ms. Roybal-Allard. OK. I appreciate that. And also do you 
know what the backlog was of all those that had applied for 
grants? How many were you not able to----
    Ms. Enomoto. Oh, how many--how many were unfunded----
    Ms. Roybal-Allard. Yes.
    Ms. Enomoto [continuing]. And fundable? I am sorry. I don't 
have that data, but happy to get that to you.
    Ms. Roybal-Allard. OK. My time up? No? OK.
    Mr. Womack [presiding]. You still have the better part of a 
minute left.
    Ms. Roybal-Allard. OK. Well, then I just want to close by 
saying it seems to me the STOP Act programs are a perfect 
example of a small Government investment yielding a huge return 
in behavior change and subsequent improved health, and 
communities who have STOP Act grants are showing significant 
improvement in underage drinking rates, and more and more 
communities each year are recognizing underage drinking 
prevention as a priority.
    So I thank the chairman and my colleagues for continuing to 
support and fund the STOP Act.
    Mr. Womack. Next we will move down to the other end of the 
dais, and the gentleman from Virginia is recognized. Mr. 
Rigell?
    Mr. Rigell. I thank the chairman.
    And thank you, Ms. Enomoto, for being here today, for your 
testimony.
    And let me first say that we share a common commitment to 
reducing substance abuse and improving mental health. With that 
said, I want to walk us through just a couple of things that 
concern me.
    And so if I think of Congress in some ways as playing a 
role of board of directors here, if we come at things from a I 
hope it is a constructively critical approach to these 
questions, the first is that I want to associate myself with 
the remarks of the chairman, Chairman Cole, when he talked 
about his objection to increasing the number of accounts that 
are placed in the mandatory side. I have found in my 5-plus 
years here that the institution, this institution, and then 
even collectively with the administration, we have been unable 
thus far to make any substantial progress on reforming the 
mandatory side.
    One could argue that we have made--it has been rough, but 
we have reduced the discretionary side. So just as an American 
concerned about our fiscal trajectory, I couldn't support that.
    Also I have always questioned the wisdom of the grant 
program generally, and I am not saying I am in opposition to 
all grants. But I fail to see the wisdom oftentimes of taking 
money from citizens in a State, sending it to DC, and then 
having other fellow Americans decide, you know, they will 
develop a program and then have fellow--their fellow citizens 
then again compete for that money. And to get the money, they 
have to shape their State's programs and bend it to the will of 
DC.

                     ADMINISTERING GRANTS TO STATES

    So there are some things that are absolutely essential, can 
only be done at the Federal level. I get that. But what is the 
inherent wisdom and logic of when you meet men and women who 
have education equal to your own, are also subject matter 
experts in the States, and yet we believe that it is the wisest 
course is to bring the money up and then have to reallocate it?
    And indeed, some States don't get any of that money, or 
they don't get as much as others, and it is inherently 
inefficient if for no other reason every time you meet, every 
time you have a memo, every time you promulgate directors, it 
is not money going to help a mentally ill person. So help me 
with that philosophically, Okay?
    Ms. Enomoto. So at SAMHSA, less than 10 percent of our 
overall appropriation goes to administrative costs, such as 
salaries or rent or overhead, and 90 percent of our money does 
go back out to States and communities. And over half of that 
money goes directly to States through the block grants.
    So I agree with you that it is--it is the States and the 
communities who can best decide what is useful to them. At the 
same time, if you follow a public health model, it is not 
necessarily the wisest course of action to put an equal amount 
of money everywhere because the problems are not distributed 
equally. And so when we--just in a basic infectious disease 
model or even with a chronic disease model, you want to focus 
on where those diseases are striking the hardest or where you 
have an evidence-based practice that has the greatest 
opportunity to make traction to bring it down, to reduce risk, 
or to stop spread.
    And so, I think that is the value that the Federal 
programming does add, as well as I think the Appropriations 
Committee setting priorities for us. You identify problems that 
are key to this Nation, to the health of the Nation, to the 
health of families, to the health of the economy. And I think 
you allocate funding to us in ways--in places where you see the 
greatest need, and that is how we then turn it back to the 
community.
    Mr. Rigell. I thank you for your answer. I just would be 
careful. You know, I would just be cautious in terms of trying 
to tighten up how much more is put into those programs versus 
just let the States, you know, invest in the areas that they 
think directly, keep the taxes as low as they possibly can.
    There is just a natural sense. I think Mr. Jefferson, you 
know, talked about it, President Jefferson. But just this 
natural tendency for government to grow. It is just a natural 
tendency of the beast.

                  SAMHSA'S HIGHEST EFFICIENCY PROGRAM

    But I have 25 seconds left. I am going to give you an easy 
one here. Of all the programs that you think need investment, 
among them, which is the one that shows the most promise in 
terms of efficiency per dollar?
    Ms. Enomoto. I think our proposal for expanding access to 
medication-assisted treatment is very efficient. We have--
again, we have the data. We have strong data that shows that if 
you provide these interventions, you can--you can help people 
achieve recovery. You can reduce the risk of overdose death, 
and you can increase public safety, reduce the risk of 
transmission of HIV. There is value in so many different places 
there.
    Mr. Rigell. Thank you.
    And I thank the chairman.
    Mr. Womack. Welcome to the hearing. It is great to see you. 
My question is going to be centered around targeted capacity 
expansion grants, and I appreciate your review of SAMHSA's plan 
for reversing the ongoing epidemic of opioid abuse. Our Nation 
has successfully faced other public health epidemics in the 
past, and with your partnership, we will hopefully put an end 
to this one as well.
    Excessive use of opioids has been identified by a number of 
Federal agencies. We all know that CDC has raised it, the CMS, 
Veterans Health Administration, and all are taking measures to 
prioritize non-opioid alternatives for pain management.
    These other Federal agencies are actively working to reduce 
the overprescribing of opioids because opioids are associated 
with overdose deaths, addiction, drug diversion, and the rising 
incidence of newborns requiring opioid withdrawal management, 
all very serious public health concerns. And I share Chairman 
Rogers' concern about that and commend him for his leadership 
down through the years. He has been a real leader on that 
front.
    Unlike other agency efforts to prioritize the use of non-
opioid alternatives for the management of pain, SAMHSA seems to 
prioritize the use of opioids, especially buprenorphine, for 
the treatment of opioid addiction, even though there are non-
opioid alternatives that are evidence-based and approved by the 
FDA.
    Under targeted capacity expansion, both the fiscal year 
2016 House and fiscal year 2016 conference reports directed the 
Center for Substance Abuse Treatment to use medication-assisted 
treatments for two specific purposes--to achieve and maintain 
abstinence from all opioids and heroin and to prioritize 
treatment regimens that are less susceptible to diversion for 
illicit purposes.

                   TARGETED CAPACITY EXPANSION GRANTS

    Specifically, two questions. And I will give you both 
questions, and then you can take the time necessary to answer. 
Specifically, how is SAMHSA planning to address these two 
conditions that were placed on targeted capacity expansion 
grants? And when will the RFA for these grants be released, and 
will it reflect the direction that Congress gave to SAMHSA in 
the appropriations bills?
    And I will yield to you for the answer.
    Ms. Enomoto. That is actually very easy. So the funding 
announcement is not yet out, but it will be out prior to March 
15th is the expectation. And absolutely, we plan to reflect the 
directions that we received in the report language, that we 
will be prioritizing those medications that are less 
susceptible to diversion, and we will be encouraging our 
grantees or focusing our grantees on achieving those 
interventions which can lead to abstinence.
    So that is the easy part. We appreciate your investment, 
your time, your attention, and we listen well. So, and I guess 
I want to maybe just a point of clarification that in terms of 
non-opioid alternatives for the management of pain, SAMHSA 
actually has PCSS, so Physician Clinical Support System, that 
provides technical assistance to providers as they are 
considering prescribing opioids for pain management, as well as 
for the substance use disorder treatment.
    And that work absolutely includes alternatives, both 
alternative pain management strategies that are not opioid 
based, as well as alternative--or not even alternative, but the 
full spectrum of addiction treatment options--with medication, 
without medication, agonist, and antagonist. So I think we are 
trying to follow the science and trying to give the people of 
this country who have opioid use disorders access to the best 
treatment available, and that means for different people 
different pathways to recovery.
    Mr. Womack. Thank you. And I still had a minute left. So, 
no, I am going to yield to the gentlelady from--oh, I am sorry, 
the gentlelady from California since Ms. DeLauro has already 
gone once.
    So, Ms. Lee, the floor is yours.
    Ms. Lee. Well, thank you very much. I apologize for being 
late. I had another hearing, but I am really happy to see you 
here, and thank you for your testimony.
    I am, by profession, a clinical social worker. So I am 
really aware of how--the role that you play in terms of 
substance abuse and mental health services. I am pleased to see 
the increase in attention to drug addiction, but it is not a 
new one. Heroin has been around for a while.
    In the 1980s, when the crack epidemic ravaged African-
American communities, addicts were, you know, thrown into jail, 
right, and cast off as moral failure thugs.
    And so as substance abuse has evolved, now we are faced 
with a new look at this drug addiction, especially through 
heroin addiction and opioids. And I hope that you had a chance 
to read this article, New York Times article, ``When Addiction 
Has a White Face.'' Because I don't want to see us make the 
same mistakes that we made in the past where we were, you know, 
ending up putting people--we have lost a whole generation of 
African Americans and Latinos because we did not put resources 
into rehabilitation. We put people addicted to drugs into jail, 
okay?

                REDUCTION IN CRIMINAL JUSTICE ACTIVITIES

    Now this budget in some ways is really troubling because 
there is a large cut to your criminal justice activities 
program that work to address the epidemic, the drug epidemic in 
communities of color. So how are you going to coordinate with 
the Department of Justice and other agencies to develop a 
comprehensive strategy to ensure that drug offenders are 
provided with treatment rather than being thrown in jail with 
this budget cut?
    I think you request a $16,100,000 cut to the criminal 
justice activities. Yet, you know, the increase for addressing 
heroin and opiate addiction has grown. And I don't want you to 
rob Peter to pay Paul because we need to be able to treat 
everyone and provide alternatives in terms of rehabilitation 
and not cut one and put--one account and put money in the 
other.
    Ms. Enomoto. Thank you very much for that question, and it 
is a very important topic to focus on.
    The good news about our criminal justice line and the 
reduction that we are taking there is that it will not--it will 
not entail the elimination or the reduction of any current 
grants. So we will be able to continue the portfolio that we 
have, the grants that we have, and I think we have a very 
robust program, a very robust partnership with the Department 
of Justice already. We work very closely with OJP, with OJJDP, 
BJA, and we are in lockstep with them as we look for 
alternatives to criminal justice and as we----
    Ms. Lee. Well, how does this happen with the $16,100,000 
cut in this budget? How are you going to keep doing--we need to 
do more in the criminal justice system's budget, not less.
    Ms. Enomoto. I appreciate that, and we--we recognize that 
we cannot--we cannot jail our way out of this problem. You are 
absolutely right. We have to find ways to get people into 
treatment. We hope that our continued criminal justice 
involvement--criminal justice portfolio will help to do that 
for many Americans.
    Ms. Lee. Well, we do, too. But there is a $16,100,000 cut 
in this proposed budget.
    Ms. Enomoto. Right.
    Ms. Lee. So I am trying to figure out how that is going to 
happen.
    Ms. Enomoto. Well, because of the cycle of some grants 
ending and the availability of funds in fiscal year 2017, we 
would be able to continue our current portfolio so no grants 
would be cut. I am not sure if we might still be able to do 
actually a small number of new grants still, but not as much as 
we--as we would have if we didn't have to take the cut.

                         MINORITY AIDS PROGRAM

    Ms. Lee. OK. I hope this committee can look at that 
because, once again, you are looking to cut $6,700,000 from the 
minority AIDS program, OK? And systematically, across this 
budget, I see cuts that are going to impact communities of 
color, which have been disadvantaged and disproportionately hit 
by a lot of what we are trying to address now and provide some 
equity. And you are cutting all of these programs.
    And so how do you intend to address the minority AIDS 
program in a way that we are going to move towards seeing an 
AIDS-free generation? And when HIV and AIDS heavily impacts 
minority communities, and yet you are cutting $6,700,000 there.
    Ms. Enomoto. I think on the HIV, we are trying to keep a 
top-line number of HIV that is the same in MAI. But that it is 
a balancing between our substance abuse and our----
    Ms. Lee. Huh? It is cut by $6,700,000.
    Ms. Enomoto. That doesn't plus up?
    Ms. Lee. Well, I thought the minority AIDS budget in this 
budget was cut. If not, I stand corrected, but I would like to 
verify that. Do you have that?
    Staff, could I ask you, is there a cut? Is that accurate? 
OK. So, so we believe that there in this budget is--I don't 
have it in front of me, but we think that there is a $6,700,000 
cut to the SAMHSA's minority AIDS program.
    Ms. Enomoto. So, so if you look over on the mental health 
appropriation, so the minus 6.7 is offset by a plus 6.7 in the 
mental health appropriation.
    Ms. Lee. OK, but it is in the mental health?
    Ms. Enomoto. For minority AIDS because we know that both 
the mental health and the substance use problems are so 
important to people with or at risk for HIV that we are trying 
to have a balanced approach that lets us look at both mental 
health and substance abuse together for people with or at risk 
for HIV.
    Ms. Lee. OK. Well, thank you, Mr. Chairman. I would like to 
pursue that a little bit more.
    Mr. Womack. I thank the gentlelady.

             BEST PRACTICES IN CRIMINAL JUSTICE ACTIVITIES

    Back to me. You know, I appreciate what you said just a 
minute ago about we can't jail our way out of these problems. 
Just curious, is there some State, some agency, some group, 
some organization doing a better job in, say, within the 
criminal justice framework around our country that seems to 
probably have not broken the code, but at least established 
some best management practices and/or alternatives to the 
incarceration of people addicted?
    Is there--can you point to anybody around the country that 
we should be more like?
    Ms. Enomoto. You know, I had the opportunity to talk with 
the National Organization of Correctional Health Systems a few 
months ago, and I heard actually community after community, 
warden after warden coming up, talking about here is how the 
drug court in our community has reduced our census, and we are 
seeing more and more people returning to health, returning to 
their families and not adding to our rolls.
    And so I think there are a number of communities where you 
can see that and happy to put you in touch with them. I am sure 
there are some in your State or in your district. But we have 
also seen the criminal justice system, the correctional system, 
police, jails be engaged with the naloxone issue, doing amazing 
work to make sure that we have our first responders equipped to 
reduce--to reverse overdose when they come upon it, as well as 
educated to understand the nature of addiction as a disease and 
the benefits for the individual and for the community and for 
public safety to get that person into treatment rather than 
move in a rush to incarcerate.
    So I think there are a number of communities around the 
country that we could point to.
    Mr. Womack. So, but you mentioned specifically drug courts, 
and I agree. I think there are many effective drug courts going 
on, including my district, that are reasonable approaches and 
alternatives. Are there any other types of alternatives aside 
from drug courts within the community frameworks out there that 
you are beginning to see are paying some dividends on this 
front?
    Ms. Enomoto. Oh, yes. So in our--we have a strategic 
initiative on trauma and justice, and so in that initiative, we 
are looking at a sequential intercept model. So there are six 
different points in the potential engagement with the criminal 
justice system, criminal and juvenile justice system, that 
there are opportunities to intervene. So that includes things 
like crisis intervention training for police officers, includes 
things like reentry programs for people that are going back 
into the community.
    So I think all along the points in the continuum, there are 
promising practices and evidence-based practices that can bring 
down the burden of mental illnesses and substance use disorders 
in that population.

                      BEHAVIORAL HEALTH IN SCHOOLS

    Mr. Womack. What about our schools?
    Ms. Enomoto. As it relates to, for example, is it expulsion 
the problem that----
    Mr. Womack. The identification of problems, the--you know, 
I know there are some schools that probably would like to wish 
the problem away or pretend that the problem doesn't exist. Are 
we doing a better job in our schools identifying either those 
at risk or those obviously so afflicted?
    Ms. Enomoto. Oh, absolutely. And I think that is what you 
will see in our Now is the Time proposal, Project AWARE. That 
is exactly what you describe. It is a partnership.
    We worked very closely from the inception of the proposal 
to the execution of the program with the Department of 
Education, as well as OJJDP, to make sure that we are 
connecting school districts, schools, families, community-based 
organizations, law enforcement, as well as the behavioral 
health system, so that we are raising everyone's awareness. We 
are introducing evidence-based practices to change school 
climate, as well as to help people increase their mental health 
literacy and so that teachers can identify teachers and other 
staff and other students, and community members can identify 
those children who are most at risk for mental illness or might 
be showing signs of a mental illness.
    And then making sure that we are making those warm 
handoffs. So that instead of going to jail, instead of getting 
expelled, a child might get access to an assessment or to a 
counseling or to actual services if they actually have a 
disorder.

                     ALTERNATIVES TO INCARCERATION

    Mr. Womack. All right. So here is a softball in my last 20 
seconds. An individual, particularly a young individual, that 
has a substance abuse-type disorder, with proper treatment, we 
can make that individual, instead of an incarcerated person 
because of a lot of other crimes that are a manifestation of 
the underlying problem, but we can turn that individual into a 
productive citizen and give them the self-esteem back, reengage 
them with their families, and make it a victory, could we not?
    Ms. Enomoto. Absolutely. Some of my best friends and 
closest colleagues are people in long-term recovery, and I have 
the highest esteem and the highest ambition for what is 
possible for people.
    Mr. Womack. I thank the gentlelady.
    Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And just two comments on some of your comments. One, the 
last point is that, oftentimes, we take a look at this issue, 
particularly with young people, and that the answer is 
incarceration. The answer is not incarceration. The answer is 
treatment.
    And secondly, with regard to communities, I point to New 
Haven, Connecticut. I was at the correctional center, as I said 
to you, and they are dispensing methadone. And there is a line 
of people there. They put their ID up there. They get the 
methadone. They take the orange juice afterward because it is 
so bitter tasting.
    I then had the chance to talk to those folks, and this is 
providing them with this medication-assisted treatment program, 
which you are putting your emphasis on, which is the direction 
in which to go in. What I have found, though, in my 
conversations with these folks is that, in fact, yes, they are 
ready to go out and they are ready to leave, and many of them 
do not have a job. Many of them don't have a home. So they wind 
up back on the street and without employment because they can't 
get employment because no one wants to hire them, and then we 
are back in the cycle again.
    So those are--that is the realities of what we are dealing 
with here.

                     INCREASING ACCESS TO NALOXONE

    I have two questions. One is with the access to naloxone. 
Pharmacies are beginning to dispense it without an individual 
prescription. It greatly expands access to a lifesaving drug 
that reverses the effects of an opioid overdose.
    Access is increasing, but the price is increasing as well 
for naloxone. The omnibus, we provided SAMHSA with $12,000,000 
to help high-need communities mitigate overdosing, including 
training and equipping first responders with naloxone.
    How will the rising cost of naloxone impact the amount of 
naloxone your grantees are able to purchase? What can we do to 
increase access to naloxone? Should the program be expanded to 
other communities? In addition to first responders, do 
community-based organizations have affordable access to 
naloxone?
    Ms. Enomoto. So I would acknowledge that the pricing of 
prescription medications is sort of outside of our authorities. 
However, you are correct that as the price goes up, with a 
fixed amount of money, people can't buy as much.
    Ms. DeLauro. OK.
    Ms. Enomoto. We agree that it is important to increase 
access to naloxone, and while we defer to physicians and their 
patients in terms of what the individual decision is in terms 
of the prescribing of naloxone, in our opioid overdose toolkit, 
we talk about the practice of co-prescribing for those patients 
who are at greatest risk for overdose, that we want to make 
sure that naloxone, we know it works. But it doesn't work if 
you don't have it.
    And so we need to make--we are looking at opportunities to 
educate providers about the naloxone and its lifesaving value 
and to ask them to have those conversations with their patients 
to decide whether or not that is the right thing for them if 
they are getting prescriptions of opioids.
    Ms. DeLauro. Well, we ought to take a look at how we can 
make it more accessible and do that in a way, since we know 
what it does. And instead of looking at a whole bureaucracy, we 
ought to just figure out the best way to do it and what are the 
resources to be able to get to community organizations the 
training that is necessary, to pharmacists, et cetera, get them 
trained and get them to dispense it so that we can mitigate 
against this crisis.
    Overall with mental health, this is a very big issue for 
me. Surgeon General's report, mental illnesses in this country 
are more common than cancer, diabetes, or heart disease. It 
affects people of all ages, income, gender, ethnicity.

                      ACCESS TO MENTAL HEALTH CARE

    Many of the most serious mental illnesses--bipolar, 
schizophrenia--occur in childhood and adolescence. One half of 
all chronic mental illness begins by age of 14. Three quarters 
by age 24. Suicide is the second-leading cause of death for 
ages 15 to 24 years old. Staggering statistics.
    And the statistics regarding treatment for mental illness 
are just as staggering. In 2013, almost 50 percent of children 
ages 8 to 15 with a mental illness received no mental health 
services. Rates are not much better for adults, with 40 percent 
receiving no treatment.
    This is cost effective if we deal with this in our society, 
and the barriers include cost, availability, and, yes, stigma. 
Let me ask you this. Do we have the systems and the capacity in 
place to care for a significantly larger number of children and 
young adults if we are successful in getting them referred for 
treatment?
    If not, what is it going to take us to build that capacity? 
Talk to us about the shortages of mental health providers. How 
large are those shortages? Are they increasing? Which 
professions are most effective? What other strategies are 
available for increasing the number of mental health 
professionals?
    Ms. Enomoto. That was a lot of questions.
    Ms. DeLauro. A lot of questions. [Laughter.]
    Mr. Womack. That is a lot of stuff. We are going to give 
you about 30 seconds.
    Ms. DeLauro. Mr. Chairman, I would hope with so few Members 
here that we can allow more than 30 seconds. I think the 
chairman would be happy to do that, and I request that of you, 
if I might? These are critical issues, and we don't have any 
other Members here. It is just the three of us.
    Mr. Womack. A reasonable time, but I was about to yield to 
Ms. Lee, and we are already 30 seconds into her time. So we 
will get there.
    Ms. DeLauro. I think Ms. Lee would bear with me. Thank you, 
Ms. Lee. Thank you.
    Ms. Enomoto. Thank you, Ranking Member DeLauro.
    I think you are again on point about the--the distressing 
lack of access for so many children and adults with mental 
illness to services, and the need to expand, the demand to 
expand we hope will be assisted by the Affordable Care Act and 
the Mental Health Parity and Addiction Equity Act. More people 
will have ways to pay for services. Twenty million people 
insured, thanks to the ACA.
    At the same time, there are barriers. There are barriers 
because people don't know where to go to care--get care. And 
people don't think they can afford care, and people are afraid 
of what other people might think of them if they--if they do 
receive care or they have a diagnosis.
    And I think all of those, the negative attitudes, finding 
out--helping make care more affordable, helping make sure that 
care works for everybody, and helping all Americans understand 
that taking care of your mental health, treating an addiction 
is no different from treating any other chronic condition or 
medical illness.
    Do we have the workforce to do it now, to treat everybody 
who needs it? No. I mean, we are fairly busy as we are, and we 
are only seeing half of the people with a mental illness, 1 out 
of 10, maybe 2 out of 10 people with a substance use disorder. 
So were everyone to walk in the door tomorrow, we don't have 
enough providers. We don't have enough professionals. We don't 
have the infrastructure.
    That being said, we do have the science. We have the 
technology. We have the will. I think we have the ability to 
get there. But as I said earlier, we need to get the resources 
on the ground.
    Ms. DeLauro. It would appear to me that we don't have the 
resources to get us there.
    So thank you very much, Mr. Chairman.
    Mr. Womack. Ms. Lee.

                         MINORITY AIDS PROGRAM

    Ms. Lee. Thank you, Mr. Chairman.
    That is the point. The budget of this subcommittee is 
woefully, way, way, way too low to meet the needs of your 
agency and to meet the needs of the American people. That is 
the point.
    Let me go back now to the cut in the Minority AIDS 
Initiative. It is being cut, the $6,700,000, from the substance 
abuse account. Now that doesn't make much sense to me because 
when you address HIV and AIDS, you have got to address, yes, 
the mental health needs of those living with the virus, but you 
have also got to address this in a comprehensive fashion, which 
means substance abuse.
    So you can't cut from the substance abuse account and put 
it into the mental health account, and then cut the criminal 
justice substance abuse program also. Because what you are 
doing is in many ways, you are vamping on minority communities 
with these cuts, with people who have issues around substance 
abuse.
    And so, for the life of me, I can't figure out why you 
would rob Peter to pay Paul because that is what it is doing. 
We need that $6,700,000 restored into this account, as well as 
the mental health services.
    Ms. Enomoto. Thank you, Congresswoman.
    I couldn't agree with you more that we need a comprehensive 
approach to help people who have HIV/AIDS. I just had the 
opportunity to participate in a PEPFAR visit in South Africa, 
where we saw people struggling mightily at the center of the 
epidemic there. And I will tell you that the population at 
great risk, the population of young women that we are focused 
on with PEPFAR is at risk not only because of substance abuse, 
but also because of mental illness.
    If we cannot help manage people and their substance use, if 
we cannot help--help people manage their substance use, if we 
cannot help people manage their depression, their PTSD, it is 
very hard for us to make sure that they get tested, they know 
their status, that they are on ART and that they are managing 
nondetectable--to a nondetectable viral load.
    And so that comprehensive approach is what we are trying to 
achieve. I am happy to work with you on a way that we can do 
that----
    Ms. Lee. Yes.
    Ms. Enomoto [continuing]. That doesn't disadvantage those 
communities who are the most vulnerable.
    Ms. Lee. Yes, and so let us find the $6,700,000 somewhere 
else, Okay?

                   SYRINGE SERVICES PROGRAM GUIDANCE

    Secondly, as it relates to the entire syringe exchange 
issue, I co-chair the HIV/AIDS Caucus with Congresswoman Ileana 
Ros-Lehtinen. It is a bipartisan caucus. And I am pleased that 
this budget provides a bit more flexibility on how Federal 
funds can be used to support syringe exchange programs, which 
are a critical, once again, continuum of substance use services 
and an important bridge to treatment.
    So how are your plans written to incorporate this 
flexibility across its grants and cooperative agreements, 
including the substance abuse prevention and treatment block 
grant?
    Ms. Enomoto. I think we are preparing to issue guidance to 
States with our colleagues at CDC in coordinated fashion to all 
the States that, once again, they are able to use their Federal 
funds for syringe exchange programs and happy to see that this 
strongly evidence-based public health intervention is once 
again available.
    Ms. Lee. Thanks very much because it is really remarkable 
progress. But the progress only began when this epidemic got 
out of hand. I believe it was in Indiana, and your Governor, 
the Governor was bold enough to say, you know, syringe exchange 
really can help mitigate against this terrible disease.
    So thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cole. [Presiding] Thank you very much.
    And as you know, I just arrived back. So, Mr. Womack, have 
you had an opportunity to ask some questions?
    Mr. Womack. I have had a couple of opportunities, and I 
will take another one.
    Mr. Cole. Well, I will give you that opportunity while I 
get myself reoriented here. Thank you.

           TRANSLATING RESEARCH INTO EVIDENCE-BASED PRACTICES

    Mr. Womack. Absolutely. Ma'am, we often hear about the time 
lag between translating research into practice. It can take 
years for those suffering from a mental illness to receive 
treatment based on research evidence.
    What efforts is SAMHSA taking to ensure the evidence-based 
practices learned from research is reaching those who work most 
directly with individuals suffering from a mental illness? In 
addition, is there a feedback loop in place between researchers 
and practitioners where practitioners provide potential areas 
of research to SAMHSA, and SAMHSA puts those ideas forward for 
consideration?
    And then as you ponder the answer to that, let me reflect 
back on a trip that our chairman took us on this week to the 
National Institutes of Health, and one of the more impressive 
things I have seen in a while was a discussion about the use of 
ketamine as a treatment protocol for mental illness, suicide 
prevention, and a person who has been immensely helped by this 
trial. And so trying to figure out how long does it take for us 
to get from something that we now believe is beginning to work 
in a trial to actually effective use in a protocol that can be 
in place?
    In this particular case, Mr. Chairman, what struck me as 
odd was the fact that in this case, the individual had to go 
across country to get the treatment. The treatment or the vial 
for treatment was a very small--like a dollar, but yet the 
infusion, if you will, was thousands of dollars.
    So help me break this down and understand why we can't do 
something faster and more cost efficient when it concerns 
something as serious as that.
    Ms. Enomoto. Those are several great questions. Thank you 
very much.
    I agree with you that shortening the time from bench to 
bedside or research to practice is absolutely essential. That 
is why we are so excited about both the early serious mental 
illness set-aside as well as the prodrome proposal.
    So for early serious mental illness, FEP, you have a well-
established intervention or a set of interventions that have 
already been tested by NIMH in community practice settings that 
we are ready to take to scale, and that is a very short time. 
These RAISE trials and the RAISE papers have only just come out 
in the last few years, and so that is a very quick turnaround, 
a very quick scaling up.
    On the prodrome side, the NAPLS study, the North American 
Prodrome Longitudinal Study, and NAPLS--NAPLS 1, NAPLS 2--those 
are still, we are just getting those findings. We are still at 
the preliminary stages of the findings, and yet we are already 
proposing this pilot program in our CMHI because the sea change 
that is possible with this kind of intervention.
    So it is early, but the potential to change the lives, to 
keep someone from actually getting a diagnosis of 
schizophrenia, what kind of impact could that have? It is 
incredible, the potential of that, it saves a life. It saves a 
family.
    And so we are proposing to make that investment, put that 
down payment into adopting, taking the chance to do something 
innovative.

                        EVIDENCE-BASED PRACTICES

    The challenge that you rightfully point out is because we 
don't always do that. There are a number of interventions that 
are strongly evidence-based that we don't see used with 
widespread adoption, and there are some other innovations, 
which were not available to test readily. I think that is 
something that I would be happy to work with you on.
    But it is a challenge of the way this process works because 
on the one hand, you know, we get--we get encouraged to do 
things that are evidence-based or things that we have done 
before. And then we sometimes have challenges if, well, ``What 
is the evidence base behind this? What is the evidence base 
behind that?'' When we are really trying to do something that 
is new or that is emerging.
    And so it is that balance between practice-based evidence, 
you know, the provider saying this is what is working for us 
now. And not just providers, but also communities, tribal 
communities would say this is indigenous practice. We have 
1,000 years of evidence.
    Or where a community of color that has done an adaptation 
of something that has been working for them. How do we help 
that make its way into the mainstream system? How do we wrap 
ourselves around that?
    So we have--we are really excited that at SAMHSA, we 
relaunched our National Registry for Evidence-Based Programs 
and Practices, and in that, we did two things that are relevant 
to your question.
    One thing is that we asked--we asked our stakeholders--we 
put it out for open comment and voting--what are the areas that 
we should be focused on? So give us that feedback. What is the 
feedback of what are the science-based interventions that you 
want to see on this registry?
    And if the public identifies things, we will go look at the 
research literature, and if it is there, we will start running 
it through so that we can examine whether or not these 
interventions should be on the registry. If it is not there, we 
can message that back to the institute, saying our providers, 
our consumers, our advocates, our family members, people in 
recovery are telling us that they want to see evidence-based 
interventions in this space, and we don't have it yet.
    At the same time, we built a learning center, and that 
gives us space for those model developers or those communities 
that say we have a promising model. We have got something that 
is innovative, and we would like to find out if there is 
someone who wants to evaluate it. Is there a researcher that we 
can get matched up with that is interested in testing this out 
and helping us take it to the next level?
    Because while there is a list as long as my arm of 
interventions that have a good evidence base that we need to 
get out more, it is not enough to do everything that we need to 
do because mental health and substance use disorders touch so 
many parts of our lives.
    Mr. Womack. Thank you.
    Mr. Cole. Thank you. I am going to take a quick point of 
personal privilege here. I have been informed by our ever-
capable staff that it is my ranking member's birthday today.
    Ms. DeLauro. Yes.
    Mr. Cole. And you know, Steve and I could give you a 
stirring rendition of the Boehner birthday song, but we are on 
television, and we don't want to subject you to that, nor 
ourselves to the ridicule that comes. So happy birthday.
    Ms. DeLauro. Well, thank you very, very much. Thank you, 
Mr. Chairman. Thank you for that.
    Mr. Womack. Happy birthday, Rosa.
    Ms. DeLauro. Thank you very much.
    Mr. Womack. Good to have you.
    Ms. DeLauro. I am trying to forget some of them these days. 
[Laughter.]
    Mr. Cole. Well, you know, only you would be dedicated 
enough to be interested in talking about suicide and drug abuse 
on your birthday. I mean, it just tells you something about 
your devotion, and I mean that in all sincerity. You couldn't 
have a better person to work with.
    Let me, if I may, Madam Secretary, just ask a couple of 
quick questions in areas that I am very interested in your 
efforts to refocus SAMHSA on the most at-risk groups and some 
of the things you have been doing to identify those groups and 
refocus the agency.

                          ZERO SUICIDE PROGRAM

    In particular, I would like to hear about your Zero Suicide 
program and your tribal set-aside.
    Ms. Enomoto. Thank you very much for that question.
    So the Zero Suicide program is one that has some very solid 
data behind it. We have seen that health systems have--many 
people who end up dying by suicide have been seen within the 
last month by a primary care provider. Many people who are 
admitted who receive a--or are admitted for a suicide attempt 
are the ones who actually complete suicide.
    And we have seen in a number of systems, like the Henry 
Ford Health System in Michigan, that they can by collecting the 
data of suicide attempts and suicide, death by suicide, by 
ensuring that there is follow-up to individuals who have been 
admitted, that there is immediate follow-up and a connection to 
community services, that there are evidence-based 
interventions. Evidence-based interventions not just for 
treating depression, but for actually addressing the 
suicidality.
    If we do I think it is about six different activities, we 
know we can reduce a suicide rate within a fixed system by 50 
percent, 75 percent, 80 percent. These are real numbers that we 
have seen.
    We have seen them in White Mountain Apache Tribe, who have 
done an outstanding job of setting up a monitoring system and 
providing these interventions and training. Training providers, 
community members about the signs and symptoms of suicide and 
the ways to respond adequately and then making sure that those 
connections happen, and there are warm handoffs.
    And that there is follow-up, there is follow-up because 
people who end up--who complete suicide often have been touched 
very recently by our system. So that is what we are hoping to 
do with that.
    We will do a Zero Suicide that is focused in the health 
system, and then we are looking at ways to do comprehensive 
multi-sector community approaches as we know prevention, with 
so many things, it is you can't just prevent it once. Or you 
can't just do preventive intervention once. It has got to be 
over time and across systems, and that is what we hope to do.
    And we would like to work--we will work with IHS, who also 
has a Zero Suicide initiative. That will be focused in the IHS 
facilities, and I think we are going to use our funding working 
with IHS to figure out how do we wrap this around in whole 
tribal communities?

                       TRIBAL SUICIDE PREVENTION

    Because, as you know better than I do, that this is such a 
tremendous problem not only among tribal youth. It is terrible 
and is tragic among tribal youth, but we recently had our 
SAMHSA Tribal Advisory Council, and they said we are seeing 
this in our youth, but we are also seeing it in our middle age 
and older adults. It is growing. It is a growing problem.
    And there is a will. I think people want to do this. We 
have our tribal behavioral health grants. Those do both suicide 
prevention and substance use prevention. They allow tribes--and 
we have a thank you for the expansion of that. We are up to 
$25,000,000 and 100 new grants this year to tribes.
    And we are really focusing on having community-defined 
outcomes so that the tribe says this is the outcome that is 
meaningful for us. This is the outcome that we commit to be 
accountable for, that we are going to deliver on to SAMHSA. 
Because so often, we hear from tribes is that you have these 
prescribed outcomes with data that we don't collect or systems 
that we don't have or outcomes like homelessness that don't 
really exist in our community because that is not how we are 
structured. And so you are measuring us on things that aren't 
meaningful.
    And we are committed to working with the tribes to identify 
those things that--because then you get into this negative 
cycle of holding them accountable for things that don't mean 
anything to me, and then taking away funding. And that is not 
what we want to do.
    At the same time, we take seriously our responsibility as 
responsible stewards of the Federal taxpayer dollar, and so you 
know, we are going to work with the tribes to say this is what 
you want to do, this is how you are telling us you are going to 
do it, and this is how we are going to be in agreement about 
the accountability for the use of these funds. But we want them 
to be able to find a sustainable and meaningful way to address 
the dual problems of suicide and substance use in the 
community.
    Mr. Cole. Well, I do want to commend you very much for the 
efforts in this regard. It is a unique population. And 
particularly reservation based, it is very different than any 
place else. And there is a lot of often, as you would know, I 
mean, some of these reservations are very bleak in terms of 
quality of life and facilities.
    At the same time, there is a connection between people that 
is also very unique, and there ought to be a way we can do a 
better job. But I really want to commend you and commend the 
administration through you for making a special effort here.
    With that, let me move to my good friend the ranking 
member.
    Ms. DeLauro. Thank you, Mr. Chairman.

                        CHILDREN'S MENTAL HEALTH

    I would commend to you, and I know it is level funded, but 
it is something called the National Child Traumatic Stress 
Network. And it is level funded at $47,000,000. But this is a 
program that provides trauma services for over 48,000 kids and 
adolescents. It trains over 200,000 individuals.
    And I would just submit to you that I think that what we 
ought to do is to look at that program as an expansion with 
regard to the reservations. And specifically with regard to 
reservations, given the nature of the serious problems that 
exist there because of environment or certain circumstances.
    So after Sandy Hook and the Umpqua Community College 
tragedy, we started to take a look at what we might do in these 
areas to protect our kids. So I am heartened by the $15,000,000 
funding for Now is the Time, for that initiative.
    And I am concerned, however, the program allows for, as you 
know, access to mental health services for children and young 
adults. I am concerned that the increase is being offset by 
eliminating the youth violence prevention program and cutting 
in half the budget for primary and behavioral healthcare 
integration.
    Your budget includes $10,000,000 for new peer professional 
workforce development, increasing the number of trained peers 
working with young people 16 to 25, particularly at community 
colleges. Tell us a little bit more about the program, how it 
complements your Healthy Transitions program, which is focused 
on 16- to 25-year-olds.
    And by cutting youth violence prevention and the primary 
behavioral health center healthcare integration, what are we 
losing since the need, in my view, I think you might agree, is 
still there. So----
    [Pause.]
    Ms. Enomoto. Forgive me. I am trying to make sure I am 
getting that all down. It is a very rich question. Thank you.
    First of all, with the National Child Traumatic Stress 
Initiative and its potential value to tribes, we do have tribal 
grantees within the National Child Traumatic Stress Initiative. 
That network has been responsible for the development and 
promulgation of evidence-based practices for dealing with 
complex trauma in American Indian and Alaska Native youth.
    It is--it really is a national resource. The network is a 
national resource with incredible experts, incredible providers 
and provider groups that are really moving the field ahead not 
only for the United States, but for the world. And so I 
appreciate the contributions of the NCTSI across its diverse 
portfolio.
    With respect to our peer workforce proposal and how that 
dovetails with Healthy Transitions, it is, together with the 
Minority Fellowship Program and the Behavioral Health Workforce 
Education and Training program, those are all part of the Now 
is the Time workforce proposals, which we continue to believe 
strongly are added value to the Nation's behavioral health 
system.
    In addition to that, and I wanted to note I think to an 
earlier question about the different types of providers and 
where they are and what is valuable, we are partnering with the 
Health Resources and Services Administration on a behavioral 
health workforce research center so that we can do a better 
job, and I can get you better data on exactly the questions 
that you are asking me. But if you have to ask me, all the 
providers are good, and they are all necessary because we know 
that interdisciplinary, multidisciplinary treatment teams and 
recovery teams, prevention teams, that is what works.
    But, so we think that the peer workforce component is so 
critical. For one thing, work is recovery. I think it has been 
mentioned. People get out of jail. People get out of the 
hospital. If they don't have a purpose, then it is very hard to 
get galvanized for everything else that needs to happen.
    So that and the peer workforce is a complement to the 
professional workforce. It is not a replacement. It is not an 
either/or. But what we hope to do is to start building a career 
ladder by partnering with community colleges and States to get 
certified, a certified peer workforce established so that that 
can become a regular part of the behavioral health workforce to 
complement the clinical professionals that are trained in other 
professional schools.
    Ms. DeLauro. Youth violence?

              YOUTH VIOLENCE AND CHILDREN'S MENTAL HEALTH

    Ms. Enomoto. Youth violence, that is obviously a very sharp 
observation. The Safe Schools/Healthy Students program is what 
was funded out of the youth violence line for over a dozen 
years. In over a dozen years, we saw tremendous outcomes in 
terms of reduction of violence, school violence, perceptions of 
violence, increased referrals to mental health services, and 
reduced substance use among youth, and perceptions of safety, 
increased perceptions of safety for teachers and students.
    So the Safe Schools/Healthy Students model was fantastic. 
But in those dozen years, we never got a State that implemented 
the Safe Schools/Healthy Students model statewide, and so that 
is why we went to Project AWARE with the State. We had a pilot 
early on the youth violence line. We had a State educational 
agency grant, and then in Project AWARE, we really went to 
scale, where we are trying to scale up this intervention that 
we know works, this model.
    So I think actually the elimination of the youth violence 
line is an effort for us to be, again, those responsible 
stewards to reduce two lines that are sort of duplicative and 
doing so much of the same thing and that we are trying to 
consolidate those resources into one place because we think 
that that Project AWARE model, which came out of Now is the 
Time really is the next level of where Safe Schools/Healthy 
Students was.
    Ms. DeLauro. Thank you.
    Ms. Enomoto. And PBHCI, I just have to say the--we have 
enjoyed the success of that program for a number of years. We 
are seeing very positive outcomes in terms of improving both 
the health status and the behavioral health status of people 
with serious mental illness by bringing those primary care 
services--the screenings, the smoking cessation, the blood 
pressure checks--into the mental health center.
    And with this reduction, the very positive news is, is that 
we don't have to eliminate or reduce any grants to do that. And 
we will continue to make use of the great work of that program 
and our Center for Integrated Health Solutions.
    Ms. DeLauro. Thank you.
    Mr. Chairman, I am going to take my last couple questions 
and submit them for the record because at 11:45 a.m., I have 
to--I have to be someplace else. So I will--this is one on 
primary prevention.
    Mr. Cole. Well, we would hardly deny somebody on their 
birthday something that they requested.
    Ms. DeLauro. And the Medicaid screening of children and 
adolescents and what we are doing to work with CMS on that. But 
I will submit those.
    Ms. Enomoto. Happy birthday.
    Mr. Cole. I will actually follow your example. I have got a 
couple things that I wanted to ask and will follow up with you.
    But you have been very generous with your time, and we 
appreciate it very much.
    I am sorry. As you know, we have a lot of hearings going 
on, and Members are having to come and go and cover different 
things. But we appreciate all the excellent work. We really do.
    We appreciate the bold initiative because I think it is a 
genuine crisis. We want to find a way to help you if we 
possibly can, but we will have that talk about mandatory 
funding because I kind of doubt that is going to be the way.
    But anyway, it is something on a bipartisan basis I know we 
all feel strongly about. So thank you again, and thank your 
team for being here.
    The hearing is adjourned.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
                                           Tuesday, March 15, 2016.

                  BUDGET HEARING--DEPARTMENT OF LABOR

                                WITNESS

HON. THOMAS E. PEREZ, SECRETARY, DEPARTMENT OF LABOR

               OPENING STATEMENT FROM REPRESENTATIVE COLE

    Mr. Cole. We will go ahead and call the session to open.
    Good morning, Mr. Secretary, and welcome. It is good to 
have you here, as always. I want to thank you for your service. 
And the committee recognizes the demanding role you have, and I 
appreciate your work on behalf of the American people.
    This hearing is to review the Department of Labor's fiscal 
year 2017 budget request. The department's request for 
$12,800,000,000 in discretionary appropriations is a 5 percent 
increase over the fiscal year 2016 enacted level.
    That is a substantial increase when compared to the 
increase authorized under the bipartisan budget deal for fiscal 
year 2017 agreed to last fall and signed by the President. As 
you know, that is essentially a flat funding top line for us. 
Although as I told you in the back, you know, we occasionally 
rob Peter's to pay Paul. And if you are lucky, you may be a 
Paul in all this.
    Increases are requested across the department, which makes 
the committee's task of prioritizing the programs that need 
additional funding from those that would be nice to have to 
even more difficult. In the budget, there are areas of 
agreement. The committee is pleased to see the Governor's 
Reserve proposed at the authorized level of 15 percent after 
several years of reduced allocations.
    I am also personally interested in the appropriately scaled 
Native American youth pilot proposal. I hope the department 
will continue to work with this committee to find ways to more 
effectively serve this population.
    The committee also appreciates the department's focus on 
serving the job training and employment needs of the Nation's 
veterans and particularly the department's requested increase 
for the Homeless Veterans' Reintegration Program. No veteran 
should have to live on the streets after serving our country, 
and we hope the department will continue to work with the 
committee and with Congress to eliminate veterans homelessness.
    Last, but certainly not least, the committee strongly 
supports the OSHA Voluntary Protection Program. We look forward 
to receiving the report requested in last year's House 
committee report and hope that the department will continue to 
work with us and with the Education and Workforce Committee to 
secure the resources necessary to expand the reach of and the 
participation in this program.

                       MANDATORY BUDGET INCREASES

    Though there are numerous areas where we believe we can 
work with the department, the committee continues to have 
serious concerns with many of the proposals in this budget. The 
budget proposes $17,600,000,000 in new mandatory spending. 
These proposals exceed the entire discretionary budget for the 
department by over $5,000,000,000.
    Furthermore, Congress is unable to effectively assess these 
proposals because there is no proposed legislative language. 
Frankly, we wonder why these proposals are even before this 
committee, which does not have jurisdiction over mandatory 
funding. If they are anything more than a budgetary gimmick, 
they should go before the appropriate committees of 
jurisdiction.

                   DEPARTMENTAL ENFORCEMENT PROGRAMS

    The committee also continues to have concerns with the 
department's overreliance on punitive labor enforcement. The 
budget requests a substantial increase for Wage and Hour 
Division, OSHA, MSHA, and other enforcement programs despite 
clear direction from the committee to adopt a more balanced 
approach that places more emphasis on cooperative compliance 
and assistance efforts.
    The committee recognizes that enforcement is an important 
part of worker safety programs. We continue to believe that 
worker safety should be the goal of these programs, not 
generating revenue from excessive penalties and fines. Many 
employers who want to do the right thing and protect their 
employees' safety are frustrated with the unforgiving and 
punitive approach the department has taken toward enforcement 
programs, especially the budget increases proposed to support 
politically motivated and controversial regulatory proposals.

                   DEPARTMENTAL REGULATORY PROPOSALS

    The committee also remains deeply concerned by the recent 
trend of making major changes in policies through 
administrative interpretation. Those efforts circumvent the 
intent of Congress in the Administrative Procedures Act to 
interpret and implement the law of the land through the formal 
regulatory process.
    Despite clear bipartisan direction from Congress to 
implement such policy changes through the proper regulatory 
process, the department continues to issue controversial 
administrative interpretations to impose policies in an 
expeditious and disingenuous manner that circumvent the role of 
Congress in policy development and deprives employers and the 
public of their legal right to information and opportunity to 
comment on the record.
    In addition, the department continues to pursue 
controversial and partisan regulatory proposals on the 
definition of fiduciary, overtime, crystalline silica, injury 
and illness reporting, and reporting requirements for legal 
advice regarding unionization and continues to dismiss the 
concerns of many Members of Congress in both parties, as well 
as affected employers. We hope that the department will engage 
with the committee and the Congress to address these policy 
issues on a bipartisan basis.
    I know Members have many questions to ask, and this is a 
full morning of hearings in a compressed time schedule. So you 
will see Members, as I know you are aware, coming in and out, 
but we will certainly try to get as many of these questions in 
as we can.
    I want to yield now to Chairman Rogers for any opening 
statement that he would care to make.

              OPENING STATEMENT FROM REPRESENTATIVE ROGERS

    Chairman Rogers. Mr. Chairman, thank you very much for 
yielding me this time.
    As you say, we have got a lot of hearings going on. I have 
got to go to three different ones this morning. So I am going 
to say something and then have to leave to go to two more 
hearings.
    At the outset, Mr. Secretary, I want to thank you for your 
interest and your travel to my congressional district in recent 
months. As you are aware, over the last 7 years, eastern 
Kentucky has been hit hard with the loss of over 10,000 coal 
mining jobs and related jobs and, more recently, the temporary 
shuttering of the AK Steel plant in Ashland due to steel 
dumping by other countries.

                            SOAR INITIATIVE

    As a result, we have worked at the local level to establish 
a bipartisan regional community development initiative, known 
as Shaping Our Appalachian Region, SOAR, designed to help 
diversify and grow the economy almost from anew. So thank you, 
Mr. Secretary, for speaking at the SOAR summit last year. 
Around 2,000 leaders from around the region listened to you as 
you highlighted the importance of education and job training.
    As you saw during your visit, SOAR is partnering with 
workforce development groups like the Eastern Kentucky 
Concentrated Employment Program to help create jobs and 
opportunities in what I like to call ``Silicon Holler.'' 
Important pieces of this initiative include innovation, 
workforce development, job creation. And I appreciate your 
continued support of those programs in the budget, as well as 
your continued interest in SOAR in Kentucky.

                       DOL FY 2017 BUDGET REQUEST

    Turning to your budget request as a whole, regretfully, I 
must repeat a message I have conveyed at nearly every budget 
hearing we have had to date. As you know, last year Congress 
and the President reached an agreement setting discretionary 
budget caps for fiscal 2016 and 2017, and I am proud that the 
omnibus bill that we passed in 2016 adhered to the terms of 
that bipartisan agreement. Congress made the tough choices 
necessary to live within our means, and we will do it again for 
fiscal 2017.
    That said, I am very disappointed that the President has 
put forth a budget request in order to avoid the very same 
budget caps he signed into law last year. For fiscal 2017, 
Labor requested $12,790,000,000 in discretionary funding, a 5 
percent increase over fiscal 2016 enacted levels. That number 
proposes increases for nearly every program at the department.
    This proposal is unrealistic, given current law under the 
bipartisan budget agreement. In particular, I am particularly 
extremely troubled by the department's proposal to create 
unauthorized new mandatory grant programs with no proposed 
legislative language or justification, as pointed out by the 
chairman.
    Your mandatory funding proposals include $3,000,000,000 for 
the American Talent Compact, $5,500,000,000 for the Open Doors 
for Youth program, and the list goes on. Combined, these 
mandatory proposals are larger than the entire Department of 
Labor's discretionary budget. Not only are these proposals 
functionally unworkable, but this committee, we don't have the 
jurisdiction over mandatory programs.

                         DOL REGULATORY AGENDA

    Finally, the department's partisan regulatory agenda is 
also very disturbing. A final Department of Labor rule is 
anticipated soon relating to the definition of fiduciary.
    I, along with Speaker Ryan and a majority of Members of 
Congress, have repeatedly laid out the horrible impact this 
regulation will have on small businesses and individuals saving 
for retirement. Yet this agency has pushed full steam ahead 
with this regulation that will force financial advisers to stop 
working with individuals that have small retirement accounts.
    Along with the fiduciary rule, you are also working on 
rules on overtime requirements, minimum wage, and paid leave 
for Federal contractors. This agency is a prime example of 
rulemaking gone amok, and I hope that we can have a discussion 
about how to rein in these activities in the future.
    In the meantime, thank you for joining us today, Mr. 
Secretary. Look forward to hearing your testimony.
    And I have to leave shortly to attend two other hearings, 
but don't let that reflect on my willingness to work with you.
    Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    If I could now go to my working partner, the good lady from 
Connecticut, for any remarks she cares to offer.

             OPENING STATEMENT FROM REPRESENTATIVE DELAURO

    Ms. DeLauro. Thank you very much, Mr. Cole.
    And thank you, Secretary Perez, for joining us this morning 
and for your leadership on behalf of American workers and their 
families.
    The Department of Labor exists to represent the workers who 
form the backbone of our economy and are the engine of its 
growth. It helps provide them with stability by protecting 
their wages, working conditions, health benefits, and 
retirement security.
    The department also supports a nationwide workforce 
development system, which partners with private employers to 
train a skilled workforce for the high-growth, high-demand 
industries of the future. And our economy has seen significant 
gains in the past year. We have added 225,000 jobs per month, 
the unemployment rate is below 5 percent, and we are seeing 
improvement in the labor force participation rate.
    But too many working families today are still not being 
paid enough to make ends meet. So these broad economic gains do 
not manifest in the everyday lives of working people. Hourly 
earnings are barely increasing at the rate of inflation. A mere 
13 percent of the workforce has paid family leave through their 
employers. And at least 39 percent of the workforce does not 
have access to paid sick days.
    And that is why the department's mission of fighting for 
working Americans has never been more important than it is now. 
Last year, we were able to make important investments in the 
Labor, HHS bill, including an increase of $86,000,000 for job 
training grants under the Workforce Innovation and Opportunity 
Grant and $90,000,000 for a new apprenticeship grants program. 
We were able to secure a much-needed boost of $17,000,000 for 
the Bureau of Labor Statistics.

                     CUTS TO DOL BUDGET IN FY 2016

    But I am disappointed that despite these gains, the 2016 
enacted level was still $1,400,000,000 below the 2010 level, a 
cut of 10 percent. I am also disappointed at the overall 
increase of less than 2 percent for Labor in 2016, especially 
because this reflects a failure to provide additional funds for 
worker protection agencies. OSHA, MSHA, the Wage and Hour 
Division, and EBSA were flat funded, and the OFCCP was cut by 
$1,000,000.
    ILAB was cut $5,000,000. ILAB is one of the main tools that 
we have to root out and combat the causes of these inhuman 
labor practices worldwide. And as we consider new trade 
agreements with major implications for labor at home and 
abroad, we cannot slash funding to this crucial resource.
    I am also disappointed that we were unable to fund a modest 
request of $35,000,000 for State Paid Leave. Paid family and 
medical leave is an idea whose time has come. It is fair, it is 
humane, and it is popular.
    This is a national issue that has been raised by members of 
both parties. The discourse at the national level is about paid 
family leave. Families who work hard deserve our support to get 
through tough periods in their lives. Helping them keep their 
jobs and hanging onto their paychecks will boost our economy. 
There really is no reason not to enact paid family and medical 
leave.

               RECEIVING PROPORTIONAL 302(B) ALLOCATIONS

    Last year's omnibus moved the Federal budget in the right 
direction, raising the caps on defense and nondefense 
discretionary spending and increasing much-needed funding for 
programs that support our economy and the quality of life of 
citizens across the country.
    Chairman Cole has heard me say this before, but I am 
troubled that the Labor, HHS bill received only a fraction of 
its fair share of the $66,000,000,000 increase provided by last 
year's budget deal. While the other nondefense subcommittees 
received an average increase of 6.9 percent last year, the 
Labor, HHS bill increased by only 3.4 percent.
    This subcommittee represents 32 percent of nondefense 
discretionary spending. Our allocation should be proportional 
to that figure, and I hope to see that realized this year.

                       FY 2017 PRESIDENT'S BUDGET

    That brings me to the topic of today's hearing, the budget 
request for the Labor Department. I might add with regard to an 
increased allocation by this committee, that would mean we 
would have to put less emphasis on mandatory spending if we had 
an appropriate allocation for what needs to get done through 
this committee.
    The budget request for the Labor Department. Mr. Secretary, 
there is a lot of good in the request, and particularly, I 
applaud $255,000,000 increase for job training programs, 
including increases for State grants under the Workforce 
Innovation and Opportunity Act, Job Corps, and Reintegration of 
Ex-Offender programs.
    I'm also pleased to see an increase of $12,000,000 to help 
homeless veterans return to the workforce. I want to note that 
last year Connecticut became the first State to end chronic 
homelessness among veterans, a significant achievement, and we 
can all agree that military veterans deserve to have a job 
waiting for them when they transition back to civilian life.
    I am pleased to see an increase of $15,000,000 for ILAB. In 
my view, ILAB should receive a much, much larger increase to 
carry out the essential work that they do, but this increase is 
a welcome proposal.
    But I am disappointed that there is no request for 
discretionary funding for State paid leave. I realize this is a 
heavy lift in this environment, but we need to keep fighting 
until working families do not have to forego pay or lose a job 
when serious medical or care giving needs arise.
    In order to do what we need to do to support programs that 
provide job training opportunities and enforce laws that 
protect low-wage workers, this subcommittee needs additional 
funds in fiscal year 2017.

                         FINALIZING REGULATIONS

    Finally, let me urge the Department of Labor to finalize 
the regulations that you have been developing over the last few 
years, including the silica rule, fiduciary rule, and overtime 
regulations. Hard-working Americans deserve safe workplaces. 
They deserve to have their retirement funds protected from 
self-interested advisers, and they deserve fair pay for their 
work. This is precisely what the Department of Labor exists to 
do, to represent and to protect working Americans.
    I thank you, and I look forward to our discussion this 
morning
    Thank you, Mr. Chairman.
    Mr. Cole. I thank the gentlelady.
    And now, Mr. Secretary, we would recognize you for any 
opening remarks you would care to make to the committee.

                 OPENING STATEMENT FROM SECRETARY PEREZ

    Secretary Perez. Thank you, Mr. Chairman.
    It is an honor to be here with you and Ranking Member 
DeLauro and all the members of this committee. I look forward 
to discussing our 2017 request for discretionary funding that 
is pending before this subcommittee. I am very grateful for the 
constructive dialogue that we have had throughout my tenure, 
and I have profound respect for your leadership and our ability 
to collaborate together.
    As we prepare for the final 10 months of this 
administration, I think it is worth reflecting on where we have 
been, where we are, and where we need to go. President Obama, 
as you know, inherited an economy in freefall. In the 3 months 
before he took office, the economy hemorrhaged roughly 2.3 
million jobs. Seven years later, we have made tremendous 
progress, climbing out of the worst economic crisis in 
generations.
    We are now in the middle of the longest streak of private 
sector job growth on record, 6 straight years to the tune of 
14.3 million new jobs. Unemployment is down from 10 percent to 
now 4.9 percent. Auto sales reached a record high last year.
    While we have considerable unfinished business, we have 
made undeniable progress, and I am proud to say that the Labor 
Department has played an important role in helping this 
recovery. Our work is critical to fortifying the basic pillars 
of the middle class--an education and training that allows you 
to move up the ladder of success in your job, healthcare that 
is affordable and accessible, a fair day's pay for a hard day's 
work, a roof over your head, a mortgage that won't go 
underwater, and the opportunity to save for a secure and 
dignified retirement.

                  PLANS FOR THE FY 2017 BUDGET REQUEST

    These pillars took a beating during the great recession, 
but I have never felt more confident in the resilience of our 
economy, our workers, and our employers. I believe that our 
fiscal 2017 budget request will help us continue this important 
work to sustain this recovery while helping us to address the 
unfinished business of ensuring shared prosperity for everyone.
    For instance, despite a major decline in the number of 
long-term unemployed, there are still 2.2 million people who 
have been out of work for 27 weeks or more. To get them the 
help they need, we want to continue to strengthen the 
Reemployment Services and Eligibility Program, which has a 
proven return on investment.
    Our budget builds on the increased investments made by 
Congress last year, adding $70,900,000, for a total of 
$185,000,000. These dollars will expand services to all 
veterans receiving benefits through the unemployment 
compensation for ex-service members, as well as one-third of 
the unemployment insurance claimants most likely to exhaust 
their benefits and become long-term unemployed.
    I am also grateful for Congress' bipartisan support in 
passing WIOA a couple of years ago and providing the resources 
to make that promise of the law a new reality and a wonderful 
reality. Our fiscal 2017 budget builds on this foundation by 
bringing WIOA formula funding programs to their fully 
authorized amount while continuing the 15 percent Governor's 
set-aside for statewide activities that I made great use of 
when I was a State labor secretary, and which I strongly 
support.
    We are also proposing modest increases specifically to help 
dislocated coal industry workers and to pilot better ways to 
serve Native American youth who don't live on reservations, 
something I know has been a longstanding priority of yours, Mr. 
Chairman.
    Apprenticeship has been one of the cornerstones of our 
workforce development efforts. As I mentioned this morning, a 
recent independent study showed that for every Federal dollar 
invested in apprenticeship, that is a $27 return on investment. 
That is real money, and I applaud and appreciate the 
$90,000,000 investment that you made in the most recent budget. 
We are hoping to leverage that to literally upwards of a couple 
billion dollars in return.
    Apprenticeship is making a comeback in this country, and we 
had a $175,000,000 grant program that was through H-1B funds 
that has been wildly successful and is increasing the footprint 
of apprenticeship.
    The department's mission isn't simply to help people find 
good jobs, but to ensure that there are strong labor standards 
that give them the best possible quality of life, and that is 
why our enforcement offices play such a critical role. So, for 
instance, our Wage and Hour Division has been able to secure 
back wages totaling nearly $1,600,000,000 for 1.7 million 
workers.

        PERSUING AN ACTIVE REGULATORY AGENDA TO PROTECT WORKERS

    All told in fiscal year 2017, we are requesting 
$1,900,000,000 to continue to safeguard the health, safety, 
wages, working conditions, and retirement security of our 
workers. We continue to pursue an active regulatory agenda in 
this space in consultation with all stakeholders, including 
Members of Congress.
    In recent decades, the erosion of overtime standards, for 
instance, has undermined the economic stability of many white 
collar workers who I have met--some of whom I have met. They 
work 60, 70 hours a week while earning as little as $24,000 a 
year.
    So we have proposed a new rule that will expand overtime 
pay to millions of people potentially, and the value 
proposition is simple. People who work extra should be paid 
extra. This rule, the proposed final rule, was sent to OMB for 
final review yesterday.
    I believe it is a false choice to suggest that we can 
either have economic growth or workplace safety. We can and 
must have both, and that is why our Occupational Safety and 
Health Administration is close to issuing an updated rule that 
will significantly reduce workers' exposure to silica dust and 
save many lives each year.
    Given an aging population, the department's retirement 
mandate has never been more important. For the last several 
years, we have been working on a conflict of interest rule 
which we expect to finalize soon based on a common sense 
principle. If you want to give financial advice, you have to 
put your clients' best interests first. That conflicted advice 
costs families billions of dollars each year, and this is one 
of the most important steps we can take to enhance retirement 
security.

                   CHALLENGES FOR THE REMAINING TERM

    I love my job, Mr. Chairman, and in this job, I make sure 
that I make house calls. In my house calls, I have seen both 
the remarkable progress we have made and the unfinished 
business.
    Last year, I met a guy named Bruce Ives, who was a Missouri 
man who was laid off from his client services job. He lost his 
home. He lost his dignity. At age 60, Bruce faced some 
remarkable challenges getting back to the workforce.
    But ``Match.com,'' which is what I often call the 
Department of Labor, stepped in. He was able to enroll in a 
State program called Reboot U, which helped him get computer 
programming skills that led to a job making $36 an hour as an 
IT analyst at the University of Kansas Hospital. It was a joy 
to meet him and to see the hop in his step and the dignity in 
his voice.
    I have seen so many inspiring stories like this, but I have 
also visited with all too many people whose boat has not been 
lifted yet by the rising tide and who are still on the outside 
looking in. Like the fast food worker in Detroit who was 
sleeping in her car with her three kids because she had been 
evicted from her apartment. Or the school bus driver I met in 
Connecticut--when I was with Congresswoman DeLauro--who had to 
take her newborn baby on her bus route because she doesn't have 
paid leave.
    Or a gentleman named Alan White, whom I met in Buffalo last 
week on a visit, whose life is in the process, frankly, of 
being cut short by silicosis. These challenges that they 
confront keep me up at night, and the opportunity to help them 
and create shared prosperity and an economy that works for 
everyone is what gets me out of bed in the morning each day 
with a hop in my step.
    I look forward in these remaining 311 days until the 
weekend to working every day to make every day count and to 
working together with you whenever possible, and I appreciate 
the bipartisan spirit that you have approached everything that 
you have done, Mr. Chairman, and I look forward to any 
questions that you and other members of the committee may have.
    [The information follows:]
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Mr. Cole. Well, thank you, Mr. Secretary.
    And just so the committee knows, we extended you a little 
extra time. We are not going to extend any of us any extra 
time. So we will----
    Secretary Perez. You are very kind. Thank you, sir.
    Mr. Cole. No, no, that is fine. And we will adhere by the 
5-minute rule.

           PROPOSED NEW MANDATORY PROGRAMS IN THE 2017 BUDGET

    I do want to go back to this issue of mandatory programs, 
as I told you, because it causes me great concern, and I have 
seen a pattern of this, if you will, across a number of 
departments that we have jurisdiction over on this committee. 
In your fiscal year 2017 budget, you provided minimal detail on 
proposed new mandatory programs, again totaling, as both the 
chairman and I pointed out, over $17,600,000,000.
    The committee notes that these proposals exceed the total 
discretionary funding for the entire Department of Labor for 
fiscal year 2016 by over $5,000,000,000. These proposals seem 
to rely exclusively on creating new grant programs that are 
neither tested nor authorized by the appropriate committees of 
jurisdiction.
    In fiscal years 2014 and 2015, the department went ahead 
without authorization or approval of appropriations with 
similar proposals to create the job-driven training and sector 
partnerships grant program using excess discretionary funds 
from the Dislocated Workers National Reserve, amounts intended 
to support the National Emergency Grant program, technical 
assistance for efforts such as WIOA implementation, capacity 
building, and true demonstration projects to test new 
strategies to improve effectiveness and efficiency of taxpayer 
investments the across the workforce.
    It is unclear from the budget what these proposals intend 
to achieve and how they would be implemented, and without 
proposed legislative language or appropriate justification in 
the department's budget, the committee must assume these 
proposals are sort of gimmicks, you know, in a budgetary sense. 
So can you tell me why are these mandatory proposals before 
this committee, where we have no jurisdiction, rather than the 
appropriate committees of jurisdiction, and do you plan to 
present them at some point to the appropriate committees of 
jurisdiction?
    Secretary Perez. Well, Mr. Chairman, many of the proposals 
would require authorization by the HELP Committee or Education 
and Workforce, but I don't think it is outside of the regular 
budget process to include legislative proposals in a budget. I 
know when I worked on the Senate during Republican 
administrations, we saw that as well during the budget.
    I will note that our discretionary budget stayed within the 
caps. It focuses on our programs that I think we have a lot of 
shared interest in, investing in skills, making sure we keep 
the 15 percent reserve authorized, making sure we redouble our 
investments on homeless veterans' reintegration, making sure we 
continue to do the work for Native American youth, remarkable 
work that has been done in ex-offender reentry, which is 
really, I think, a remarkably exciting bipartisan issue.
    Our investments in IT are part of our discretionary budget 
increase, and we had OMB come in and do a review of our IT 
system. There are two agencies that have invested less in IT 
than the Department of Labor, and we see it day in and day out. 
You know, duct tape is not a viable IT strategy, and all too 
frequently that is what we are at.
    So our discretionary budget seeks additional funding for 
that, as well as additional funding for enforcement. I talk to 
employers all the time who are trying to bid on contracts, and 
they can't because other employers are cheating, and they are 
not playing by the rules. So enforcement helps that.

           WORKING TOWARD AUTHORIZING NEW MANDATORY PROGRAMS

    Mr. Cole. Well, again, your discretionary proposals are 
largely within the caps, as you suggest, and there are many 
areas, as I have tried to point out in many opening statement, 
that we will be working with you. But again, you have got 
mandatory proposals that are beyond the budget of your entire 
department. None of them have been authorized.
    You know, are you going to submit legislation that would 
actually be authorized because we literally, if we wanted to do 
that, would not have the ability to give you that kind of 
authority.
    Secretary Perez. Well, I would welcome the opportunity to 
work with you. And let me give you an example.
    I mean, we are trying to take apprenticeship to scale, and 
we very much appreciate the $90,000,000 that we received. One 
of the mandatory proposals is to take apprenticeship to 
dramatic scale because we know apprenticeship works. I have 
traveled to multiple countries to steal their good ideas and 
bring them back home. We have developed remarkable opportunity 
here.
    But the reality right now of apprenticeship in America is 
some States are really moving forward and some States need 
help. So I would love to work with you on the mandatory budget 
proposal on that to take it to scale.
    Mr. Cole. Well, I have never had any problem on working 
with you on anything, quite frankly. You are a very willing 
partner.
    But again, you need to work with me. You need to work with 
Chairman Kline or somebody else because, literally, we don't 
have that authority here, and I have seen a pattern of this in 
administration proposals. And I mean, I am perplexed as to why 
we are setting up expectations for things, particularly in 
front of this committee, that we simply don't have the 
authority to do.
    So I would just say that as an early warning that I would 
expect some disappointment from this committee where mandatory 
spending is concerned because we can't do it, and we just don't 
have that authority.
    With that, I would like to move, if I could, to my good 
friend, the ranking member, for any questions she cares to ask.
    Ms. DeLauro. There was a campaign called ``lift the caps.'' 
``Lift the allocation'' is where I am going with this effort.

                HOMELESS VETERANS' REINTEGRATION PROGRAM

    But, Mr. Secretary, I want to ask about the Homeless 
Veterans' Reintegration Program. I talked about Connecticut and 
what I believe is really a great accomplishment and ending 
chronic homelessness amongst our veterans, and we should be 
proud of that. And nationwide, homelessness, veteran 
homelessness has dropped by about 36 percent between 2010 and 
2015, a great effort by Federal, State, and local officials.
    But if we want veterans to maintain stable housing in the 
long term, they need an income. That requires a job. Happy to 
see the $12,000,000 for homeless, the program Homeless 
Veterans' Reintegration Program. Can you discuss your plans for 
increased funds for homeless veterans for the program? What 
kind of progress have you seen in reducing homelessness in our 
veteran population?
    And let me throw in the follow-up question to this, which 
is the budget also requests a $71,000,000 increase for 
reemployment services----
    Secretary Perez. Right.
    Ms. DeLauro [continuing]. For UI claimants, and a program 
that deals with wraparound services for veterans who have 
exhausted their unemployment benefits. And if you can just tell 
us about the UCX initiative, how it complements the work you 
are doing with homeless vets?
    Secretary Perez. Well, I have traveled the country on this 
issue because I have had the privilege, until about a couple 
months ago, for almost 2 years of chairing the Interagency 
Council on Homelessness. Together with the Secretary of 
Veterans Affairs and the Secretary of HUD, we traveled the 
country, shining a light on this. I want to thank all of you 
for your leadership.
    I was out in Phoenix--there is an annual count that is 
done, a point in time survey. I spent the morning out in the 
desert with a formerly homeless veteran who had a criminal 
record, who turned his life around, and has now literally 
helped hundreds of veterans get work as a result of your 
investments. So we see it, day in and day out, the work that we 
have done.
    We have seen cities like Salt Lake, New Orleans, and 
elsewhere, who have eliminated chronic veterans homelessness. 
We have seen States like Connecticut, who have made progress, 
and now we have this healthy competition that is going on where 
we go to one city and say, ``Hey, Salt Lake did it. Why can't 
you?'' Or, ``Hey, Connecticut did it. Why can't you?''
    So we have a series of investments, including the Homeless 
Veterans' Reintegration Program. My wife works with homeless 
people here in the District, many of whom are veterans, and 
what they tell her repeatedly is, you know, ``I need a job, and 
that is one of my best ways to self-sufficiency.'' That is why 
those investments are great.
    I also want to give a shout-out to a former colleague of 
yours, Mike Michaud, who is our Assistant Secretary for 
Veterans' Employment and Training. Mike hit the ground running 
and has been going gangbusters. When you talk about 
homelessness, and we have a budget request of $286,000,000 for 
our Veterans' Employment and Training Program, all of that 
money is put to great use.

        OTHER COLLABORATION EFFORTS TO HELP UNEMPLOYED VETERANS

    You mentioned the reemployment money, that--one thing we 
know about REA, the reemployment assistance, it works. What we 
have been doing, if you look at our budget request, we are 
taking things we know that work and trying to scale them up.
    Apprenticeship, we know there is an ROI on that. We know 
there is an ROI on this reemployment assistance because what 
people who have been out of a job for a long time need is 
intensive case management, and that is what this program does. 
We can cover every veteran who needs it if we can get this 
budget request enacted, and I can tell you, having worked in 
partnership with Bob McDonald, Julian Castro, the DOL, DOD, and 
State and local governments. State and local governments have 
been so integral to this, and I want to commend as well 
employers.
    I have worked very closely with the U.S. Chamber of 
Commerce and with labor unions, the Helmets to Hardhats 
Program. This has been an ``all hands on deck'' enterprise, and 
it is Government as facilitator. Our investments are paying a 
real return.
    Ms. DeLauro. I would just say that I would think that given 
the scale of and the size of the issue with regard to homeless 
vets and some of the attendant problems, that an opportunity 
where we have seen success would be where we would want to 
place some priorities on making sure that we can continue with 
this kind of successful effort and demonstrate that, you know, 
we have asked these people to make the sacrifice. They did. 
They have come back. And now it is our opportunity to be able 
to--it is not a thank you. It is here is a job so that you can 
be a productive member of society, which is what you want to 
be. You do not want to be without a job.
    Thank you very much, Mr. Secretary.
    Secretary Perez. Thank you.
    Mr. Cole. We will next go to my good friend, the gentleman 
from Arkansas, Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman----
    Secretary Perez. Good morning, Congressman.
    Mr. Womack [continuing]. For yielding time. Mr. Secretary, 
always good to see you.
    Secretary Perez. You, too.

              PROPOSED CHANGES TO OVERTIME EXEMPTION RULE

    Mr. Womack. And thanks for your testimony this morning.
    Let me just say first that I think I can say pretty 
confidently that we can all agree that enabling more Americans 
to reach the middle class is a very laudable goal. However, we 
must acknowledge if there comes a point where Federal 
regulations maybe are a little short in accomplishing their 
stated goal and, in fact, hurt some employers. But across the 
board, it is usually the employees or customers they serve that 
get hit the hardest.
    And I fear personally that a ``one size fits all,'' ever-
increasing, top-down proposal or answer or regulation affects 
our job creators. So I want to take some time here this morning 
to express concerns with the dramatic changes your agency 
proposed to overtime exemptions, including an unprecedented 113 
percent increase in the salary threshold in automatic annual 
updates.
    It would be challenging for any employer to quickly adjust 
to such an astronomical increase, but especially those running 
on fixed budgets or thin margins, such as nonprofits, small 
businesses, and State and local governments. As you know, 
nonprofits and for-profits have very different business models. 
In fact, in Arkansas, there are many nonprofit CEOs that don't 
even make $50,440, which I would argue goes a lot further in 
Arkansas than it does, say, in California due to the vast 
differences in the cost of living.
    There is a nonprofit in my district, Independent Living, 
who does terrific work with developmentally disabled adults in 
the town of Harrison, Arkansas. Right now, they are struggling 
to find ways to meet the Affordable Care Act's employer 
mandate, along with the reality that 80 percent of their 
employees can no longer use the companionship exemption. Now 
they will have to face the added burden of complying with new 
overtime thresholds.
    In the comments they submitted to your agency, they noted 
that if the rule stands as is, they will have to convert 
salaried employees to hourly, and ultimately, there will be a 
reduction in services. How can a nonprofit serving adults and 
children with developmental disabilities in a rural community, 
Mr. Secretary, continue to provide vital services when faced 
with drastic increases in administrative costs and few exempt 
staff?
    Secretary Perez. The overtime rule stands for the simple 
proposition that when you work extra, you should be paid extra. 
I can't get into too many of the details of where it is because 
of where we are in the process. But what I can tell you is what 
we did beforehand, which is we spent about a year and a half 
reaching out, building a large table of inclusion, because I am 
a big believer that if you are going to do this job well, you 
have got to be a good listener, and you have to approach the 
enterprise with a healthy degree of open-mindedness and 
humility.
    So we heard from a lot of different employers. During the 
comment process as well, we got comments from nonprofits, some 
of which expressed concern about the proposal, some of which 
expressed support for the proposal.
    I can assure you that I think we got roughly 300,000 
comments overall, something like that. We looked at every 
single one of them and continue to look at every one of them 
very, very carefully so that we can craft a rule that is 
consistent with the purpose of the Fair Labor Standards Act, 
which says that if you work extra, you should be compensated 
extra.
    I spoke to many people who have been working 60, 70 hours a 
week, and as a result of a change that was made in 2004, they 
are making effectively the minimum wage because they are not 
eligible for overtime, even though 99 percent of their work is 
nonmanagerial in nature. So I am thinking about them as well as 
we craft a final rule, and I can assure you that when we reach 
a final rule, we will continue to do what we have done 
throughout the process, which is aggressively engage all 
stakeholders, including employers large and small, profit and 
nonprofit, and explain to them.
    Because I learned--and I spoke to a lot of the people who 
were involved in the 2004 rulemaking during the Bush 
administration, and I think it is very important in the 
aftermath to be out there explaining the various options for 
compliance because my goal is always to facilitate compliance.

           OVERTIME REGULATION IMPACT ON SPECIFIC INDUSTRIES

    Mr. Womack. Real quickly, and I have got a half a minute 
left, did the agency take into account the disparate impact it 
would have on, say, like urban versus rural or businesses or 
nonprofits that have far-ranging hours, differences in hours 
from week to week or month to month?
    Secretary Perez. Again, we received comments from folks all 
over the country, comments from nonprofits in urban areas, 
comments from nonprofits and for-profit businesses in suburban, 
ex-urban, and rural areas as well, making the point that you 
are trying to make. That is why the notice and comment period 
is so important, and we got, again, something like 300,000, and 
we have reviewed them very, very carefully.
    Mr. Womack. I thank the gentleman.
    Thank you, Mr. Chairman.
    Secretary Perez. Thank you, sir.
    Mr. Cole. Thank you.
    We will next go to the gentleman from Philadelphia, my good 
friend, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Secretary Perez. Good morning, sir.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you again.
    Secretary Perez. Always good to see you again.

                        URBAN TECHNOLOGY PROJECT

    Mr. Fattah. And I join with you in commenting that the 
chairman has worked well to try to make sure that the 
department's efforts can be supported and on our ranking 
member. I want to thank you for your extraordinary period of 
public service, and particularly in terms of your work at the 
Labor Department. Philadelphia has benefited greatly by your 
work.
    I want to point out in particular a program that you not 
only found a way to be supportive of, but you have championed 
around the country, and I want to mention it because I think it 
is something that other cities and other communities can look 
at, the Urban Technology Project, which is taking out of school 
youth and train them to be computer techs and put them back in 
the schools to fix computers so that the educational process 
can go forward.
    And you not only--I want to thank you particularly for the 
$2,900,000 or almost $3,000,000 grant out of the pool of 
dollars that you talked about a few minutes ago, the 
$170,000,000-plus in apprenticeship. And you are right that 
these apprenticeship programs, and you funded a host of them 
around the Nation, have created an impulse that I think won't 
go away again in our Nation, which is that we need to give 
young people hands-on experience so that they can, you know, 
learn what it is to accomplish something and to do difficult 
tasks, but to understand that they, indeed, can do it.
    So I want to thank you for that and so much more. Time 
won't allow. But I do want to say that I did on social media 
this morning applaud the department for the work you are doing 
around this overtime issue that was just discussed with my 
friend from Arkansas. And I do think that these 5 million 
Americans who are working more have every right to have the 
Labor Department take a look at their circumstance to make sure 
that we are applying the rules as they should be applied, and 
we know that for a fair day's work you should get a fair day's 
pay.
    So I want to thank you and look forward to continuing to 
bring you to Philadelphia and bring more checks with you. All 
right? [Laughter.]
    Thank you.

                    TECHHIRE APPRENTICESHIP PROGRAM

    Secretary Perez. Mr. Chairman, the program he is referring 
to is we have been very involved nationwide in a TechHire 
program. I was with former Mayor Nutter in Philadelphia when we 
rolled out an apprenticeship proposal, and we have invested 
$175,000,000 not only with the purpose of doubling the number 
of apprenticeships and facilitating partnership, but also 
diversifying access to apprenticeship. Making sure that 
apprenticeship is available in IT, in cyber, in health.
    We were out in Illinois with Zurich Insurance, one of the 
Fortune 500 company. They are now having an apprenticeship 
program for claims adjusters because apprenticeship model has 
application everywhere, and we want to make sure that 
apprenticeship is available in every ZIP code in this country. 
There are literally 5.5 million job openings right now, and 
roughly 10 percent of them are in IT, and only a fraction 
require a college degree or above.
    So whether it is with Chairman Rogers in his district, 
where we took coal miners who were displaced, at the company 
called Bit Source and developed the ``Silicon Holler''--and 
their motto is ``From coal to code''--or whether we are with 
kids from the Philadelphia public school system.
    When my iPhone goes on the fritz, I don't call Apple. I go 
to my 13-year-old. Similarly, these teenagers who have fluency, 
we are taking that fluency and turning it into a middle-class 
career.
    So in literally dozens of cities across this country, this 
program is taking off. It is a partnership with businesses, 
with educators, with nonprofits, with schools, and our 
investments are having a catalytic force. We have another grant 
program that is out on the street now that is going to take 
that to further scale, and I am very, very excited about what 
we are doing there.
    Mr. Fattah. Well, we are excited, too. We want you to come 
to Philly and announce that one also. So----
    [Laughter.]
    Mr. Fattah. But let me just say that these 5.5 million jobs 
that you mentioned that are open and available in our country, 
you know, we talk a lot about the 72 months, which is great in 
terms of private sector job growth. The administration has done 
an extraordinary job.
    But we don't count in the jobs created this 5.5 million 
that are open now. We only count a job created by this 
administration when someone fills it, and maybe in some future 
administration, we will see that if there is a job open, that 
that is an important notice to our economy and the strength of 
our economy. But we need to do more, and apprenticeships are a 
way to get more young people ready to take on these job 
opportunities.
    So thank you, and keep up the good work.
    Secretary Perez. Thank you.
    Mr. Cole. The chair would ask that Members not monopolize 
all the Secretary's travel time and all of his----
    Mr. Fattah. Chairman----
    [Crosstalk.]
    Mr. Cole. We have multiple districts we would like you to--
--
    Mr. Fattah. We have direct flights to Oklahoma City right 
out of Philadelphia. I made that offer the other day. Mr. 
Chairman, I made that offer the other day. [Laughter.]
    Mr. Cole. You are a popular man, Mr. Secretary.
    If I can, we will next go to my good friend from Maryland, 
Dr. Harris.
    Mr. Harris. Thank you very much.
    Good to see you, Mr. Secretary. Always good to see a fellow 
Marylander.
    Secretary Perez. Good seeing you, sir. Yes, absolutely.

                          H-2B VISA PROCESSING

    Mr. Harris. But the first issue I am going to bring up, it 
just seems like Groundhog Day. I mean, every time you come 
before the committee, I ask you about the H-2B visas. You know, 
you--coming from Maryland, you know how important those H-2B 
visas are, especially to our seafood processing industry in my 
district.
    And unfortunately, I am told, and I just want to know if it 
is true, that, first of all, are these applications supposed to 
receive a notification--notice of approval or notice of denial 
within 7 business days? I mean, is that the goal of the 
department?
    Secretary Perez. Well, there are two phases of that. There 
is a lengthy process. You first have to seek a prevailing wage 
determination, and our goal there is 30 days. Then, once you 
get a prevailing wage determination, then you seek to have the 
labor certification. Our goal there is 7 days.
    In the day before the budget was passed, in December, in 
our processing of the H-2B applications, the 70 percent of 
the--on the prevailing wage determinations, it was taking 30 
days. So we were right at our goal.
    Mr. Harris. And that is you said it is 70 percent?
    Secretary Perez. No, no. Then with the labor 
certifications, the other aspect of the process, the average 
amount of time it was taking was 9 days. Seventy percent were 
done within the 7-day period.
    Then, when the rider passed and the program was 
dramatically increased, CBO estimated that it was at a minimum 
doubled, we saw a dramatic increase, and frankly, we fell 
significantly behind. Because in the middle of a busy season, 
we were given a whole new set of rules, and told to implement 
them immediately. We had to stop the program so that we could 
read the rider, put out guidance, get the new guidance out, get 
OMB approval, and then implement your new direction.
    Mr. Harris. Right.
    Secretary Perez. So that was right in the middle of our 
busiest season.
    Mr. Harris. Okay. But you realize that it is getting worse? 
I mean, in the week of February 5th, the survey from the H-2B 
Coalition said 12 percent had no determination after 30 days. 
By the week of February 16th, it was up to 51 percent. By the 
week of February 22nd, it is 67 percent.
    You are not getting better. You are getting worse.
    Secretary Perez. It absolutely got worse.
    Mr. Harris. Each season----
    Secretary Perez. It absolutely got worse. It got worse 
because of the rider----
    Mr. Harris. Well, Mr. Secretary----
    Secretary Perez [continuing]. That was passed, Mr. Harris, 
sir.
    Mr. Harris [continuing]. You are spending time to make an 
overtime regulation, which is something that, honestly, I 
understand the administration wants to do it. But this is 
hurting the economy in my district. Your department is hurting 
the economy in my district by dragging your feet on these 
regulations.
    Now you have a huge budget. You have a $12,700,000,000 
budget. You ought to be able to do what we ask you to do and 
what the department has set as its goal, which is a 7-day 
process.
    Now April 1st is coming up. If we don't have these seasonal 
employees by April 1st, either those businesses are going to 
not do business and not contribute to the GDP, or they are 
going to go and get illegal people to do, undocumented people 
to do these, neither of which is a good alternative.
    Secretary Perez. With all due respect, sir, I do----
    Mr. Harris. Let me turn to----
    [Crosstalk.]
    Secretary Perez. With all due respect, when you say that we 
are dragging our feet----
    Mr. Harris. That was not a question. Mr. Secretary----
    Secretary Perez [continuing]. I cannot allow that to go 
unsaid.
    Mr. Harris [continuing]. That was not a question. It is my 
time.
    Secretary Perez. Because we are not dragging our feet, sir. 
We are trying to follow the new rules you put in in the middle 
of the process. That is your right.
    Mr. Harris. Mr. Secretary, I am going to reclaim my time. I 
understand filibustering, and I reclaim my time. You explained 
it once. I get it. You are late. You are not getting them done. 
I get it.

                        NEW OVERTIME REGULATION

    Let me talk about the overtime regulation because you said 
work extra, get paid extra. What percent of the new--of the 
employees who are going to be subject to this are getting pay 
past 40 hours, and what percent are getting--I am not talking 
overtime pay. I am talking about any pay for the extra hours. 
What percent? What is it?
    Secretary Perez. I am not sure I understand your question, 
sir.
    Mr. Harris. Well, if you work more than 40 hours, what this 
new rule says is you have to be paid time and a half.
    Secretary Perez. Unless you are an exempt employee.
    Mr. Harris. Are these businesses paying time, but just not 
time and a half? Are they paying nothing? What percent of these 
businesses are paying nothing? What percent are paying time or 
do not pay time and a half?
    Secretary Perez. Well, again, I don't have specific 
percentages. I can go back to our NPRM so I get you precise 
answers.
    Mr. Harris. What was your gut feeling, Mr. Secretary? And I 
am actually going to get to a point here. What is your gut 
feeling?
    Secretary Perez. Well, there is a substantial number of 
folks----
    Mr. Harris. The majority?
    Secretary Perez [continuing]. Who work. And again, the 
typical example that we heard was the person working up to 70 
hours a week----
    Mr. Harris. Okay. I am going to reclaim my time once again.
    Secretary Perez [continuing]. Many making $24,000 a year--
--
    Mr. Harris. Because you said you don't know the answer, 
which is striking to me that you made a claim if you work 
extra, you get paid extra, and you can't tell me how many 
people are actually getting paid extra right now. Not time and 
a half, but paid extra.
    So I am going to just pose a problem here because I have 
got fast food franchisees come to me and say, you know, the 
ladder up for some of these people who are from--the typical 
entry person is from poor neighborhood. They become a manager. 
They work at the restaurant.
    Are we going to have a second round, Mr. Chairman?
    Mr. Cole. I would expect so.
    Mr. Harris. I hope so. Look, then I will yield back the 
time, and we will get to it in a second round.
    Mr. Cole. Okay. I will go to my good friend, the gentlelady 
from California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. Just on my time, would you 
like to respond?
    Secretary Perez. No, I mean, one thing that Congressman 
Harris and I can agree on, the day of the week. We have seldom 
agreed on anything else. And I mean that very respectfully, and 
I will always aspire to disagree without being disagreeable. 
But dating back to our interactions in State government, we 
have seen the world very differently, and I respect that.
    Ms. Lee. Okay.
    Mr. Cole. If we could, let us--there will be another round, 
and you guys will have an opportunity to have another exchange. 
So let us try and keep it focused.
    Ms. Lee. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Once again, congratulations to you. You have done a fine 
job.
    Secretary Perez. Thank you.

                        DOL'S BUDGET FOR FY 2017

    Ms. Lee. And hopefully, within the next few months, we will 
be able to do even more under your leadership. I wanted to 
associate myself with the remarks of our ranking member and 
just make a note that this subcommittee, once again, we are 10 
percent below pre-sequestration level.
    And so recognizing that, the choices that we make are very, 
very difficult. And some of the choices, you know, I question 
also, again associating myself with Congresswoman DeLauro's 
remarks.
    I am pleased, though, to see the increase for Job Corps 
funding for $27,000,000. Also the funding stream of 
$5,500,000,000 to connect disconnected youth to more 
educational and workforce opportunities, which is an increase 
also for the it is called the Workforce Innovation and 
Opportunity Act. That is an increase of $7,000,000 for the very 
successful Reintegration of Ex-Offenders Program.
    I wanted to ask you a couple of things with regard to the 
unemployment insurance, the wage insurance, because I think 
that is a very important part of the recovery for those who 
have not benefited from the recovery from the great recession. 
In the February jobs report, 242,000 private sector jobs were 
created and a decrease in unemployment rate to 4.9 percent. 
That is phenomenal.

                    COMBATING MINORITY UNEMPLOYMENT

    But I am also concerned, consistently concerned that the 
African-American unemployment rate continues to be more than 
double the rate of white Americans, as well as the Latino 
unemployment rate at 5.4 percent. So in revamping this 
unemployment insurance initiative, how will individuals, 
especially those from communities of color and those who have 
not benefited from the recovery, how will they gain access to a 
good-paying job and stay gainfully employed? And how are you 
looking at the stark disparities in the racial and ethnic 
unemployment rates for African Americans and Latinos?
    Secretary Perez. Sure. That is a very important question. 
As you know, during the depths of the recession, the 
unemployment rate for African Americans actually peaked at 16.8 
percent. It has now fallen to roughly 8.8 percent, which is 
obviously far better, but not nearly where we need to be.
    Latino unemployment is also higher than the national 
average, and that is why when Congressman Fattah was talking 
about investments in apprenticeship, we are not only trying to 
expand the scope of apprenticeship, we are trying to diversify 
apprenticeship because the program that we visited in the Bay 
area that day, when we expand opportunity to develop those 
pipelines to the middle class. I have had conversations with 
folks at PG&E. You know, the utility industry is undergoing a 
remarkable transformation. Those are opportunities for middle-
class jobs, and we have got to make sure that everybody from 
every ZIP code has those opportunities.
    The President's investments in the My Brother's Keeper 
initiative is a reflection of the fact that there are chronic 
opportunity gaps for young men of color that we need to focus 
on, and I have been very proud to be involved in that.
    The work that we have been doing in the RExO grants is some 
of the most exciting work that I am involved in because, you 
know, one of the best ways to reduce recidivism is to give 
people the skills and the job opportunities so that folks 
coming out of prisons can become part of the community fabric 
again.
    So these are examples of investments, and my parents always 
taught me that education is the great equalizer, and we have 
got to make sure that every school in every ZIP code is 
providing that remarkable opportunity for folks.
    Ms. Lee. And Secretary Perez, on the--I am pleased to see 
the Reintegration of Ex-Offenders, the $7,000,000 increase, 
because I think DOL has a good model, and it is successful.
    Secretary Perez. It is bipartisan.

            TARGETED FUNDING TO POVERTY-STRICKEN COMMUNITIES

    Ms. Lee. I actually note it is bipartisan. Also targeted 
funding, the importance of targeted funding into poverty-
stricken communities is very important. So what is your take on 
that?
    And come back to Oakland. We are a TechHire city, and 
Mandela Training Center is the one you were--we want you back.
    Secretary Perez. If you didn't have a plan in the 
apprenticeship grant applications to make sure that 
apprenticeship was available to historically underserved 
communities, you weren't going to get a grant.
    Ms. Lee. Mm-hmm, okay. Thank you.
    Poverty-stricken, I have 8 seconds left. Targeted funding 
into poverty-stricken communities, is that----
    Secretary Perez. Well, again, the apprenticeship 
investments, our summer youth job investments, things of that 
nature are examples of our efforts to get money where we have 
chronic opportunity gaps. Like Baltimore City last summer, 
where we were able to get $5,000,000 of DOL dollars targeted to 
the zip codes that needed that most.
    Ms. Lee. Okay, thank you.
    Secretary Perez. Good morning.
    Mr. Cole. Would you like to revise your budget to get 
additional travel money so you can----
    [Laughter.]
    Secretary Perez. I would very much appreciate that. I will 
take the bus----
    Mr. Cole. That makes bipartisan sense, Mr. Secretary.
    Secretary Perez. I will take the bus if necessary if we can 
get to more Members.
    Mr. Cole. If we next can go to my good friend from 
Virginia, who, sadly, we will be losing. I regret that every 
time I have the opportunity to call on him that he is not going 
to remain in Congress past this year. But he will make every 
minute count. So my friend from Virginia is recognized.
    Mr. Rigell. Well, thank you, Mr. Chairman. It is good to be 
here.
    Secretary Perez. Thank you for your service.

                  MANDATORY VS. DISCRETIONARY SPENDING

    Mr. Rigell. It is a privilege to serve on this committee.
    Secretary Perez. Thank you for your service, sir.
    Mr. Rigell. Thank you, Mr. Secretary. Good to see the 
passion for your work, and I respect and I appreciate it.
    I do try to start out generally with what do we have in 
common, and there is much that we do have in common. I think 
the apprentice program, I really respect that. I have seen it 
work, and so I applaud you for that.
    I do need to quickly pivot to something that there is a 
serious disagreement on, and that is this--this propensity to 
shift things over into mandatory spending. Just like we are all 
in this room here today, we are all in this together with 
respect to our country's fiscal situation. And I really don't 
think it can be overstated.
    And I think both parties, it is not--this isn't a time and 
place to debate how we got there, but I really think we have 
got about a 10-year window to get this right, and it is 
closing. And it really sobers me. And so the voting card that I 
have in my pocket, there is almost a fixation in this 
institution on the discretionary side that we largely can't 
address the mandatory side.
    And it may surprise my colleagues on the other side, but as 
a business person who has transitioned into public service, I 
really don't see that the discretionary side is what is driving 
our fiscal situation. And I would be willing to lift them to a 
reasonable degree, provided, of course, that we had substantive 
and real, genuine reforms, as President Obama himself has said 
need to be done, if that could be implemented.
    So I just say that as a word to all of us. That has to be 
done. But for that reason, I wouldn't support the transition 
and the movement of spending into the mandatory side. We just--
we have demonstrated an inability to do what must be done to do 
what is right for the next generation.

                             FIDUCIARY RULE

    Let me pivot to something that has really come up 
consistently in Virginia's Second Congressional District, and 
that is the fiduciary rule. I rarely have seen an issue 
generate so much attention in, frankly, meetings with me across 
our district and, indeed, up in Washington about this.
    And there is just a troubled look in the advisers that I 
see. They are good men and women. They love our communities. 
And you know, we go to church with them or we see them in the 
grocery store, and they are out there in our communities, and 
they are deeply troubled by this fiduciary rule.
    And I think, for example, when we see that Morningstar, the 
organization, that rating group, they have actually more than 
about doubled their estimate as to what your own Department of 
Labor said the impact would be on that.
    So I think that you are underestimating the impact of it, 
and would you address specifically, if you are familiar with 
it, the outside group's assessment that the impact is far 
greater than what Department of Labor has indicated that it 
would or believes it to be?
    Secretary Perez. Well, first of all, again, thank you for 
your dedicated service. It has been an honor to interact with 
you.
    There are few issues that I have spent more time on in my 
tenure than the conflict of interest rule. When I was 
nominated, I was asked a lot about this, and I made a 
commitment, and the commitment was this. I would slow the 
process down. I would build a big table, and we would listen 
and listen long and hard.
    I can look you in the eye with a fair degree of confidence 
and say every time I got a call from a Member of Congress, 
Republican or Democrat, who said, ``Can you talk to so and so 
from my district?'' we did that. It was either me or someone 
from my staff, and more frequently, it led to more than one 
conversation because we always got smarter as a result of those 
interactions.
    The conflict of interest rule is a reflection of the fact 
that in our Ozzie and Harriet era of our parents, this 
conversation was irrelevant because people worked 30 years. 
They had a defined benefit plan. They would get a pen, a party, 
and a pension when they retired. And now in the world of IRAs 
and 401ks, people have to take control of their universe.
    I very much agree with you when you said that the folks who 
are in this industry are good people. This is not about folks 
who wake up with malice in their heart in the morning. This is 
about a system where the incentives are not properly aligned 
with the best interests of the consumer.
    Mr. Rigell. Well, I have----
    Secretary Perez. And that is what we have heard 
consistently. And I welcome----
    Mr. Rigell. I have got maybe about 40 seconds left. Let me, 
if you would, pivot over to the difference between Morningstar, 
for example, outside respected groups and their assessment of 
the fiscal--I mean, the financial impact of this versus 
Department of Labor's. There is a great disparity between the 
two.
    And it has been my experience and I think just by 
observation we can conclude that generally the impact of 
Federal regulations are underestimated, not overstated. So here 
we go again, I believe.
    So in the 10 seconds, go ahead.
    Secretary Perez. Sure. Real quickly, we have received a 
voluminous amount of comments, both in the formal comment 
period and before, including from Morningstar, including from 
other folks who are already fiduciaries who support this rule. 
What we are in the process of doing right now, and it was over 
300,000 comments there as well, is taking all of those comments 
into account to craft a solution, and we have made a commitment 
to doing that outreach.
    Mr. Rigell. I thank you. I am a little over, and I want to 
respect the chairman's commitment to the 5-minute rule. But I 
thank you for your testimony.
    Mr. Cole. It is thoughtful questions like that in a manner 
like that is exactly why my friend should reconsider and run 
for reelection. [Laughter.]
    Mr. Rigell. You should talk to Mrs. Rigell. [Laughter.]
    Mr. Cole. I think I would lose that debate.
    Next I would like to go to my good friend from Alabama, 
Mrs. Roby, for whatever questions she would care to offer.
    Secretary Perez. Good morning, Congresswoman.
    Mrs. Roby. Thank you, Mr. Chairman. Good morning.
    Secretary Perez. Good to see you again.

                   PAID LEAVE PARTNERSHIP INITIATIVE

    Mrs. Roby. You as well. The fiscal year 2017 budget for the 
Department of Labor requests $2,200,000,000 in funding for the 
administration's Paid Leave Partnership Initiative. They are 
going----these funds are going to be used to fund five States 
selected to implement this paid leave program to support leave 
requests under the Family Medical Leave Act.
    It would provide 50 percent of the cost to launch these 
paid leave programs for 3 years. The grant could be used to 
cover family, parental, or medical leave programs that provide 
up to 12 weeks of benefits.
    So the Department of Labor mentions that grants will be 
awarded competitively to States that are well positioned--
``well positioned to proceed with full implementation of a paid 
leave program.'' Please explain to us what ``well positioned to 
implement a paid leave program'' means.
    And to follow up with that, explain how these well 
positioned States will cover the entire cost of the program 
after the 3 years.
    Secretary Perez. Well, thank you for your question.
    The United States is the only industrialized nation on the 
planet that doesn't have some form of Federal paid leave, and 
we have seen the consequences of this. People talk about the 
need for higher labor force participation rates. If we had a 
paid leave system like Canada did, we would have more women in 
the workplace.
    Mrs. Roby. What does it mean to be well positioned to----
    Secretary Perez. Well positioned means you have the 
partnerships in place. You have the political will to move 
forward. You have begun the actuarial analysis.
    A number of States that have put in place paid leave 
systems, California was the first, and employers don't pay 
anything. It comes out of the employee. They use the temporary 
disability insurance system. So----
    Mrs. Roby. What about the other 45 States? To me, this 
seems like another bait-and-switch scheme where you are going 
to fund these programs for 3 years, and then what happens to 
sustain it after?
    Secretary Perez. No, it is--actually, for instance, the 
State of Connecticut is looking right now at building a paid 
leave system, and we have been providing technical assistance 
to them. They are well placed to, I think, move forward, 
whether it is this year or next year. It is not at all a bait-
and-switch system. It is a system that provides an incredibly 
important benefit for parents who are oftentimes giving birth 
on a credit card because they have got to go right back to work 
after.

                    WORKING FAMILIES FLEXIBILITY ACT

    Mrs. Roby. Well, this is a great opportunity, as I have 
mentioned to you before, to bring out the Working Families 
Flexibility Act, which is legislation that I have introduced in 
the past two Congresses, which would amend the Fair Labor 
Standards Act to allow employers and employees to enter into a 
voluntary agreement whereby hourly wage employers could convert 
overtime pay to compensatory time off.
    My proposal is not an unfunded entitlement, which I believe 
is what the Paid Leave Partnership Initiative is. But my 
legislation allows hard-working families the flexibility to use 
their hard-earned money in ways that they see fit. And if they 
need time off, it is there, and there is cash out provisions 
that protect the employee to ensure that they can get the cash, 
if that is what they ultimately determine.
    So, Mr. Chairman, I know that you and many others on this 
committee have supported H.R. 465. I hope we can all understand 
that commonsense solutions, like the Working Families 
Flexibility Act, are the best options given our fiscal outlook 
as a Nation, not unfunded entitlement schemes like the Paid 
Leave Partnership Initiative.
    And I want to quickly pivot here to ask you about the 
voluntary--hold on just a second so I don't spill my coffee.
    [Laughter.]
    Secretary Perez. That is very important.
    Mrs. Roby. It is. It is.
    Secretary Perez. Been there, done that.

                   OSHA VOLUNTARY PROTECTION PROGRAMS

    Mrs. Roby. The VPP programs, and I have discussed this with 
you before. The fiscal year 2017 Department of Labor budget 
request states that OSHA will continue to improve the Voluntary 
Protection Program in fiscal year 2017, with special emphasis 
on program consistency and oversight, data integrity, and 
reevaluation of policies for VPP sites with injury and illness 
rates higher than industry averages.
    So has the Labor Department produced a report, which 
evaluates the effectiveness of these OSHA compliance programs?
    Secretary Perez. Well, we very much support the program, 
and what we have done now, we have 1,400 Federal VPP sites. In 
fiscal year 2015, we exceeded our goal, and we approved 315 
sites and brought 70 new sites into the program. We have worked 
with folks in Republican and Democratic districts because this 
isn't red or blue. This is red, white, and blue.
    Mrs. Roby. With 5 seconds left, I just want--I want a 
commitment that you will submit a report to this committee.
    Secretary Perez. Sure. I will also have OSHA, you know, the 
head of OSHA come and visit you and talk about where we are at 
in the program so that you can get not only a specific 
accounting of where it is going, but where it is going in your 
particular district as well as the Nation.
    Mrs. Roby. I would appreciate that. I yield back.
    Thank you.
    Mr. Cole. Thank you.
    We next go to my good friend from Tennessee, Mr. 
Fleischmann, for any questions he would care to submit.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Secretary Perez. Good morning. Good to see you.
    Mr. Fleischmann. Good morning, Mr. Secretary. I am sorry I 
was late. I was at another hearing.
    Secretary Perez. No, that is multitasking.
    Mr. Fleischmann. We have got multitasking, but it is always 
good to see you.
    Secretary Perez. Good to see you, sir.

                    PROPOSED RULE CHANGES TO EEOICPA

    Mr. Fleischmann. And I thank you for your service, sir.
    Mr. Secretary, the Office of Workers' Compensation Program 
has published the Notice of Proposed Rule Changes to the Energy 
Employees Occupational Illness Compensation Program Act. This 
affects a lot of our workers in Oak Ridge----
    Secretary Perez. Right.
    Mr. Fleischmann [continuing]. Who from the Manhattan era 
have been exposed to a lot of things during the years, and 
there is a lot of chronic illnesses, sir. I would like to ask a 
series of questions to clarify these proposed changes.
    Secretary Perez. Sure.
    Mr. Fleischmann. The proposed rule changes alerts medical 
providers that the Department of Labor may adopt the home 
health prospective payment system, which was devised by the 
Centers for Medicare and Medicaid Services within HHS. First 
question, sir. How would the proposed rule change, if 
implemented, alter the existent method of paying for home 
health services, and how will it affect the quality of care?
    In other words, will the payments to healthcare providers 
be less than they are currently, or will fewer services be 
authorized? Will payments for the same services be delayed, 
sir?
    Secretary Perez. Right now, we are in the middle of the 
rulemaking process on that precise rule, sir. We have received 
a number of comments on that, including issues relating to your 
questions. So, at the moment, we are reviewing that because it 
is a very important question, and we have gotten a lot of 
feedback from a number of key stakeholders.
    So I don't have an answer to that right now because we are 
reviewing the feedback to figure out how we put the rule, the 
final rule in place. But our overall goal in this is to build a 
fair system that helps the workers who have suffered and 
improves the adjudication process to make it, you know, again 
fairer and more efficient.
    Mr. Fleischmann. Would you agree with me, Mr. Secretary, 
that if you altered it in the way that I alluded to in the 
first question that it would be a disincentive for providers to 
participate in the healthcare and management of sick workers, 
many of whom have several chronic medical problems?

                IMPACTS OF PROPOSED EEOICPA RULE CHANGE

    Secretary Perez. Sure. Sir, I have personally met with a 
number of folks who have suffered as a result of workplace 
exposures in various contexts. We owe it to them to make sure 
that we build a system that works for them and a system, 
frankly, that works for providers as well, because it is hollow 
to say you have a right if you can't get to a provider.
    Mr. Fleischmann. Thank you, sir.
    Some providers in the area do not accept Medicare. Does it, 
therefore, make sense to apply Medicare payment standards to a 
program which is supposed to supplement medical services for 
disease-ridden atomic energy workers?
    Secretary Perez. Sure. Well, again, that is another one of 
the comments that we received and we are reviewing, and I think 
it is a very, very important question, which is why we take it 
very seriously. Because we are in the rulemaking process right 
now, I can't get too much further down the road, other than to 
say that we take that very seriously and we very much 
appreciate--I know you have had a continuing--you have been a 
great leader for folks in the community on this, and we have 
appreciated your engagement.
    Mr. Fleischmann. Thank you. Thank you.
    If I may, Mr. Secretary, what input, if any, did the 
Department of Labor receive from local doctors, for example, in 
the east Tennessee area, if you know, or from home health 
agencies in formulating any of the proposed rules relating to 
medical services? Does the Department of Labor know if such 
providers would be willing to agree to provide services under 
the home health prospective payment system, sir?
    Secretary Perez. Well, I don't know--what I do know is that 
we always aspire and I think we do a pretty good job of 
building a big table so that we hear from everyone.
    What I would offer to do is to make our head of the Office 
of Worker Compensation Program available to come and talk to 
you and, to the greatest extent that he can, you know, talk 
with real granularity about the situation, especially as it 
affects your community. Because you obviously have strong 
equities in the resolution of this.
    Mr. Fleischmann. Thank you.
    And I am cognizant of the fact that you are in the 
rulemaking process, but are there any provisions in the 
proposed rule changes which would limit physician choices by 
beneficiaries? Section 30.405(b) appears to do that. This is 
concerning because some of the beneficiaries have multiple 
health conditions, which require treatment from multiple 
specialists, sir.
    Secretary Perez. Well, sometimes there are proposals that 
are out there that people perceive as having an impact one way 
or another, and that was one example that you cite. And so we 
are certainly aware of that concern and in our rulemaking 
process very much attuned to that. And again, I think our 
director, if you want him to come by, we can have a much longer 
conversation about that and so many other issues.
    Because here is the bottom line. We want to get this right. 
We want to do right by the folks who spent their career in 
public service and now have some serious health issues. We owe 
it to them to make sure that we have a system that treats them 
fairly. And you have remarkable insights into how we accomplish 
that goal, and so I want to take advantage, frankly, of your 
perspective.
    Mr. Fleischmann. Thank you. Well, Mr. Secretary, I want to 
thank you for your commitment to working with me and to help 
our affected workers in Oak Ridge because they have sacrificed. 
They are suffering.
    And with that, I thank you. And Mr. Chairman, I yield back, 
sir.
    Mr. Cole. Thank you very much.

                WORKFORCE INNOVATION AND OPPORTUNITY ACT

    Mr. Secretary, one of the challenges we often have in 
government at all levels and all departments is, you know, we 
focus on a lot of different things, and sometimes we don't get 
some of the tasks that we need to get done in a timely manner.
    The Workforce Innovation and Opportunity Act, as you have 
mentioned several times, was enacted in July of 2014, 
overwhelming bipartisan support. Really one of the great work 
products Congress and the administration working together 
produced, and I certainly appreciate your role in that. The act 
included many reforms intended to consolidate and improve the 
workforce development system.
    The committee is concerned that the department continues to 
miss statutory implementation deadlines despite the fact that 
appropriations for technical assistance funds to implement the 
law have actually been provided in excess of the amounts 
requested by the department. In addition to funds already 
provided totaling $25,000,000, the department requests an 
additional $26,000,000 in technical assistance funds for the 
fiscal year 2017 budget.
    Can you tell me whether or not the department will be able 
to finalize the regulations implementing WIOA before the end of 
the year? And then what is the proposed use of the technical 
assistance funds in fiscal year 2017 if the law is, indeed, 
fully implemented?
    Secretary Perez. Let me say at the outset, WIOA is one of 
my favorite pieces of legislation to have had the privilege of 
being involved in. It is a game changer. And it is a bipartisan 
game changer.
    We expect to have the final rules in place by the end of 
June, and the process that led us to there has been a 
remarkably inclusive process. I used to work in local and State 
government, and the instruction I gave to my team is we need to 
listen and then listen some more and listen some more to our 
State partners because they are going to have a lot of 
insights.
    The rules are voluminous, 1,800 pages. We built a big 
table. Our career folks, they worked through Thanksgiving and 
Christmas of last year to get all those things out. The vast 
majority of the act, Mr. Chairman, is actually already 
implemented as of July of last year.

                       FINAL WIOA IMPLEMENTATION

    What remains to be implemented are the accountability 
systems there put in place and the State plans, and the good 
news there is because we have been working throughout with the 
States, over half the States already have draft plans. The big 
purpose of WIOA was to implode silos and stovepipes, make sure 
that the workforce people and the education people and the HHS 
people are working together.
    So today, for instance, 40 States, 4 outlying areas, they 
already have the new State boards that WIOA called for. We have 
shared 41 pieces of operating guidance, 28 webinars that we 
have conducted. I just went to the conference that I used to go 
to in D.C. about 8 weeks ago in the middle of the storm. Every 
State except one was able to make it, and there is a tremendous 
energy out there.
    I want to say thank you to you and your staff because we 
have been working on this together with Republican and 
Democratic staffers in the House and Senate. I am excited about 
where we are. The silo busting is in full force, both in the 
Federal Government, where we have been working better than ever 
with Department of Education and HHS and others, and now at 
State and local governments.
    That is good because people don't have a labor issue or an 
education issue. They just want a good job, and they want the 
skills to compete. So I am excited, and we will have the final 
rules in place by end of June.
    Mr. Cole. That is good to hear because I think finishing 
this up, I mean, as you pointed out, the administration has 
only got about 10 months. I think it would be----
    Secretary Perez. Three hundred eleven days, but who is 
counting?
    Mr. Cole. Yes, but you would want to get this done.
    Secretary Perez. I absolutely do.

                  TECHNICAL ASSISTANCE BUDGET REQUEST

    Mr. Cole. If that is the case on that, what are the 
additional employees--I think you asked for 17 additional folks 
and $26,000,000 additional. Is that necessary?
    Secretary Perez. Oh, the work--yes, I mean, the work is--I 
mean, we have done a lot, but the work is just beginning. So, 
for instance, we are trying to build data systems now so that 
the data system in the State Department of Education can talk 
to the data system in the State Department of Labor, can talk 
to the data system elsewhere.
    Because we want to track, for instance, wage data. And we 
did that in our programs, but the adult ed folks didn't do 
that. And so the work that we are doing and the resources that 
we seek is to make sure that we can continue the stovepipe 
implosion process, and it is--it is a formidable challenge when 
you are trying to build one big sandbox.
    Mr. Cole. Well, good luck on that. I have seen Department 
of Veterans and Department of Defense work on this my entire 
career and not get it done. So----
    Secretary Perez. I hear you.
    Mr. Cole [continuing]. I wish you well in the technical 
endeavor.
    With that, I want to go to my good friend, the gentlelady, 
for the next round of questioning.
    Ms. DeLauro. Thank you very much, Mr. Chairman.

             DOL APPRENCTICESHIP AND REEMPLOYMENT PROGRAMS

    Just a couple of comments, and then a question that I have 
on wage theft. Let me congratulate you on the apprenticeship 
program. Europeans have been doing this for years. It not only 
is a vision for what we should do, but what we can do with 
Federal resources in this area.
    Secondly, Reintegration of Ex-Offenders. I was at the New 
Haven Correctional Center just about 2 weeks ago, and soon they 
are going to open up through the funding, through the Workforce 
Alliance, the opportunity for the Department of Labor and these 
offenders, who are ex-offenders who are getting ready to leave 
and how we can help to get them employed and be able to pay 
taxes.

                           H-2B VISA PROGRAM

    A short word on the H-2B visa program. The Labor, HHS bill 
added several riders, which made the program more complicated 
to implement, weakened protection for workers in those H-2B 
industries. First, riders that require the department to use 
private wage surveys to set prevailing wages caused a delay in 
processing H-2B applications. We should not shift the blame for 
the backlog that was caused by this Appropriations Committee.
    Another rider blocks the department's ability to audit an 
employee's H-2B application. The Inspector General has said 
that this rider will make it more likely that fraud will exist 
in the H-2B program through no fault of the department.
    Let us be real. This is a problem that was caused by the 
Congress and by this committee. It is not the Department of 
Labor's fault.

                               WAGE THEFT

    Now my question on wage theft. It has become an epidemic, 
Mr. Secretary. According to a recent three-city survey 
conducted in Los Angeles, New York, Chicago, two-thirds of 
workers in low-wage industries experienced at least one pay-
related violation in any given week.
    Research estimates the loss per worker over the course of a 
year, $2,634 out of total earnings of $17,616. This is 
particularly harmful when workers are already economically 
distressed. Tomorrow, I will introduce a comprehensive bill to 
address wage theft with Senator Murray.
    Can you tell us how widespread this problem is, resources 
needed at Wage and Hour to tackle the wage theft? You propose 
hiring an additional 300 investigators to staff the Department 
of Labor's Wage and Hour Division. Is that enough? And what 
about the fines? Are they sufficient enough to deter folks from 
making these unwise decisions to violate the law?
    Secretary Perez. Wage theft is a huge problem across this 
country, and let me give you one example. We commissioned an 
independent study that focused on two States, California and 
New York, and found that just in those two States, the amount 
of wage theft approached $1,000,000,000 a year, just in those 
two States. Not surprisingly, heavily concentrated on lower-
income workers.
    These are folks who are not making enough money to feed 
their family in a good week, and then to have your wages 
stolen, effectively, adds insult to injury. That is why we have 
had a very concentrated focus on making sure that we are doing 
our level best in this context.
    By the way, we hear from employers all the time who say 
thank you because they are playing by the rules. They are 
paying their folks above the table, and their competitors 
aren't. That creates an unlevel playing field. So this is not 
only good for workers, but this is rewarding employers who play 
by the rules.
    That is why our budget request seeks an increase so that we 
can do more in the Wage and Hour enforcement context. Because 
it is critically important. It is a chronic challenge in 
sectors across America, and that is why we have been so laser 
focused on this.
    Ms. DeLauro. My understanding is that the fine for 
violations and repeated violations is about $1,000.
    Secretary Perez. Well, we have been using--we have been 
making more use of liquidated damages, but all too frequently, 
I mean, the challenge that we encounter is it is a cost of 
doing business enterprise. Actually, what we will do sometimes 
is we will conduct an investigation, and we work very closely 
with a number of State partners.
    Then, at the end of the day, we may have our State partner 
move forward because sometimes the State law actually is better 
than the Federal law. More often than not, it is not.
    And frankly, in the State of Florida, under former Governor 
Bush, they actually eliminated the wage and hour enforcement. 
So there is no State partner down in Florida, which puts more 
onus on us to be moving forward. That is why this work is so 
critically important.
    Ms. DeLauro. Thank you, Mr. Secretary. Let me just say I am 
glad to hear you say that Connecticut was well positioned in 
terms of their paid family leave.
    Secretary Perez. Very hopeful.
    Ms. DeLauro. Very hopeful. Thank you.
    Mr. Cole. Would you like to invite him to come to 
Connecticut? [Laughter.]
    Ms. DeLauro. I have, and he has come to the State of 
Connecticut.
    Secretary Perez. You can invite me to Oklahoma, too, sir.
    Mr. Cole. Absolutely. Absolutely. We are going to--you 
know, you are going to have a lot of frequent flyer miles when 
you leave.
    Secretary Perez. That is right.
    Mr. Cole. Next we will go to my friend Mr. Harris from 
Maryland for the next round.



    Mr. Harris. Thank you. Thank you very much, Mr. Chairman.
    Okay. I will just make one comment, and it is not a 
question. Last year, because I was trying to reflect, what were 
we talking about last year about H-2B, and it was the court's 
fault last year. So you came in and said, look, it is the 
court's fault. We had this court case, the court's fault.
    So let me see. Last year, it is court's fault. This year, 
it is Congress' fault. Does it go back to court's next year, or 
does the Labor Department--and this is a rhetorical question. 
Does the Labor Department ever take responsibility for the 
delays in the H-2B program?
    I just have to ask. There is an emergency--and this is a 
question. There is an emergency procedure. You can submit an 
application in an emergency procedure.
    I am going to assume that if it is under an emergency 
procedure, you might really want to try to hit the 7-day 
processing deadline or goal. But in the latest survey, 46 
percent of the emergency applications weren't completed, didn't 
receive a notice of approval or notice of denial within 7 days.
    So how does an--I just have to ask you. How does an 
employer get their employee in place for an April 1st seasonal 
start? If the regular procedure has 67 percent more than 30-day 
wait, the emergency procedure is almost half, 7 days, and 7 
days the goal, does the department have a plan on this?
    I mean, or it is just we really don't care about H-2Bs 
because there are other special interests that don't want H-2B 
workers in the country?
    Secretary Perez. We do care about H-2B, and we care about 
the full and effective enforcement of H-2B. When we get the 
assembly line doubled or as much as tripled on December----
    Mr. Harris. Mr. Secretary? Mr. Secretary?
    Secretary Perez. Sir, okay----
    Mr. Harris. Mr. Secretary, let me just back you up here 
because I am going to have to stop you when you say things 
like, you know, work extra, pay extra. Double or triple.
    Secretary Perez. Sir?
    Mr. Harris. Do you have a tripling in the number of 
applications this year?
    Secretary Perez. I will give you the specific data on the 
number of applications that we got, okay?
    Mr. Harris. Did it triple?
    Secretary Perez. Absolutely. I will tell you the exact----
    Mr. Harris. Did it triple?
    Secretary Perez. Double or triple is what I said. I will 
get you the precise data. The problem, sir, is you told us to 
do twice as much work with the same amount of resources.
    Mr. Harris. So it is twice the number of applications?
    Secretary Perez. I will get you the numbers, as I stated, 
sir.
    Mr. Harris. Is that your testimony today? The number is 
twice?
    Secretary Perez. I told you--my answer for the third time 
is that I will get you the precise data. The applications 
doubled over late December and early January. We had the same 
resources to process those applications.
    I accept responsibility for the fact that we are trying to 
do our best, and sometimes we have issues like IT. But you know 
what, sir? I think there is rather than playing the blame game, 
I think what we should try to do is fix the system because we 
did make a commitment a year ago that we would have a rule in 
place by the middle of April.
    I made that commitment to Senator Mikulski and others. And 
guess what? We made that commitment, and we put a rule in place 
by the middle of April. And Congress gave us a new rule on 
December 16th, told us, you know, implement immediately. No new 
resources, but implement immediately.
    We read it. We put a new system in place something like 17 
days later because we did want to read what you told us to do. 
When we did that, it absolutely resulted in delays. Delays will 
result in mistakes because we have the assembly line moving 
faster.
    The Bush administration rule had an audit function in 2008 
because they understood that you needed to make sure you had an 
audit system in place so that it was a check on the fact that 
the assembly line was moving fast. This was taken away.
    So when we have folks who get those certifications and they 
were in error, the audit function, we can't correct that when 
it is done. That is the reality of our world.
    Mr. Harris. The reality of my world is, is that my 
employers are not going to have workers in place because the 
hang-up was DOL, period, full stop. The hang-up was DOL.

                   PROPOSED FY 2017 MANDATORY BUDGET

    Now let me ask you about because I also have concerns what 
the full committee chairman said about this tendency to go to 
mandatory, to expand the number--the last thing this country 
needs are more mandatory expenditures, the last thing. So I 
have got to ask, so I look at some of these programs, say, you 
know, for some things, maybe mandatory makes sense because you 
got to even out, you know, the year-by-year variation.
    But one program is the mandatory funding to provide 
summer--I am sorry, yearlong first jobs to 150,000 opportunity 
youth. Now these are yearlong jobs. These are not 4-year jobs 
or 5-year jobs.
    So to the untrained eye, it would look that the only 
purpose of making this a mandatory expenditure not subject to 
annual appropriations is to get around the spending caps 
because these are yearlong jobs. These are not 2-year long 
jobs. These are not 5-year science, cancer science research 
projects. These are yearlong jobs.
    Simple question, Mr. Secretary. Why can't that be subject 
to annual appropriations?
    Secretary Perez. Well, sir, we have a serious youth 
unemployment problem. Congresswoman Lee asked a very important 
question about the fact that zip codes all too frequently are 
determining destiny in this country. When you look at the 
history of this Congress' investment in young people, it was a 
far more robust history and a bipartisan history in recent 
years, and we have to ensure that we address these issues of 
chronic poverty and the absence of opportunity.
    I respect the fact that we have a different perspective on 
that, but that is certainly my strongly held view.
    Thank you very much.
    Mr. Harris. Thank you.
    Mr. Cole. I would ask that we, in fairness to the 
Secretary, not push the questions to 2 seconds before the 
expiration of time because he deserves a chance to answer. And 
we have got few enough people here. We will have an opportunity 
to go around again if we need one.
    With that, let me go to my friend Mr. Dent from 
Pennsylvania and for whatever questions he cares to pose.
    Secretary Perez. Good morning, sir.
    Mr. Dent. Good morning. And thank you, Mr. Chairman. I 
apologize for being late. I had another hearing this morning.

                       OSHA RETAIL EXEMPTION RULE

    Mr. Secretary, in December, Congress--and the Congress 
passed and the President signed into law the omnibus 
appropriations bill, which included language in the joint 
explanatory statement that prohibited OSHA from using funds to 
enforce the July 22, 2015, retail exemption memo unless OSHA 
went through notice and comment rulemaking.
    On December 23, 2015, just 6 days later, OSHA issued a memo 
that delayed enforcement of the memo until the first day of 
fiscal year 2017, which is a good thing. However, simply 
delaying enforcement is not what Congress directed the agency 
to do. Why has OSHA decided not to go through a proper public 
notice and comment rulemaking on this so-called retail 
exemption?
    Secretary Perez. Congressman, I think we did comply with 
the rider, and we did extend the effective date to October 1.
    The context of this issue, and I very much appreciate your 
question, is the horrific incident that occurred in west Texas, 
where there was a dramatic explosion that killed 15 people, 
mostly first responders. If it had occurred in the middle of 
the day, there would have been schoolchildren who died because 
it leveled the school. Fortunately, nobody was there.
    As a result of that incident and other recent chemical 
plant catastrophes, the President issued an executive order 
that directed us to enhance safety and security in our chemical 
facilities.
    So we were very motivated by the fact that we had first 
responders whose lives were taken there, and we wanted to 
prevent such a thing in the future. We carefully considered, 
and by the way, we did receive comment on the guidance that we 
put out because we certainly valued that.
    But the first responders were very much on our mind, and 
you know, we have had other litigation that addresses the 
question that you ask about whether we can--whether we have the 
ability to do guidance here. The Supreme Court in the mortgage 
bankers case did uphold our ability to do guidance, and the 
matter is in litigation. We will obviously respect whatever the 
outcome of that case is.
    But I wanted to give you an understanding of why we chose 
this route. We wanted to make sure that we could prevent as 
soon as possible another catastrophe.

                        IMPACT OF PSM COMPLIANCE

    Mr. Dent. Yes, and certainly safety is on the forefront of 
all of our minds in respect to this tragedy in Texas and 
elsewhere. But I have been hearing from a lot of my farmers and 
agricultural retailers who tell me that they are getting out of 
the anhydrous ammonia business because of the significant cost 
and burdens of complying with the process safety management, 
the PSM.
    My concern is that fewer facilities carrying anhydrous 
ammonia could actually have adverse safety effects. Farmers and 
retailers are going to be forced to travel much longer 
distances on the road to get this anhydrous ammonia to the farm 
and/or anhydrous ammonia will be stored at entities which are 
not going to be regulated by OSHA.
    That is my concern on the safety, that this stuff is going 
to be stored elsewhere. People are making--the farmers and the 
agricultural sector making much longer trips to move this 
stuff, to get it to the farm. And I am not sure that that is 
going to lead to greater safety. So I would be curious to hear 
your comments on that.
    Secretary Perez. Well, we heard a number of different 
comments during our period when we were soliciting comments, 
and we heard from a lot of first responders who indicated that 
a big concern of theirs was what I have described. We have 
continued to work very close with industry, and I would be more 
than happy to, if there are folks in your district, I want to 
make sure--we have a shared interest in getting it right.
    Nobody has a monopoly on the commitment to safety----
    Mr. Dent. We want to do the right thing.
    Secretary Perez [continuing]. And we all want to do the 
right thing here. So I would be more than willing to figure out 
a way to work with you to see if there are things that we 
should know that we don't know because I am never--again, you 
have got to bring some humility to the enterprise. So if you 
have other things to bring to our attention.
    Mr. Dent. That would be very helpful because the PSM 
standard requires manufacturers and distributors to develop and 
implement a PSM program any time they have at least a minimum 
amount of highly hazardous chemicals involved in a process, 
including storage. So I guess what the question is, and you 
just offered it, that would be great if OSHA could hear from 
some of the stakeholders through the public comment and review 
period.
    That would be very, very helpful. I think they need to be 
heard on this because, I said, we want everybody to be safe. 
But I am worried about farmers going greater distances, going 
to remote locations to pick up this material, and we are going 
to have safety issues.
    Secretary Perez. Well, then we are committed to not 
enforcing it in this fiscal year, and we are also committed to 
continuing to work very closely with industry and with other 
stakeholders like yourself because we all want to get it right.

                        IMPACTS OF OVERTIME RULE

    Mr. Dent. Just a final comment, too, and my time is up. 
Just--you don't have to respond. I know you talked about the 
overtime rule. I just wanted to mention that this issue is 
creating a lot of hardship for my not-for-profit sector in my 
district. When my YMCAs call me and say doubling that exemption 
to $50,000 a year is creating real hardships in terms of 
managing small nonprofits. I just want you to be aware of that.
    Thank you.
    Secretary Perez. Thank you, sir.

                NPRM FOR DRUG SCREENING OF UI CLAIMANTS

    Mr. Cole. Okay, Mr. Secretary, on February 22, 2012, 
President Obama signed Public Law 112-96. It is the Middle 
Class Tax Relief and Job Creation Act of 2012. It is bipartisan 
legislation authorizing drug screening and testing of 
unemployment insurance claimants in very limited cases.
    Nearly 20 months after the President signed the law, the 
Department of Law issued the Notice of Proposed Rulemaking, 
NPRM, pertaining to this provision. It is my understanding that 
the NPRM falls significantly short of achieving the intended 
purpose of the statutory provision.
    It places significant limitations on when drug screening 
and testing can occur, all but ensuring that the law will not 
be implemented as intended. I know that members of the Ways and 
Means Committee have repeatedly raised similar concerns 
regarding the NPRM and have received, in their view, limited 
communications from the department. Could you tell us what your 
plan is for actually finalizing the rule, and will the final 
rule address the concerns and recommendations raised by other 
Members of Congress submitted formally through the public 
comment period?
    Secretary Perez. We certainly take seriously our obligation 
to uphold the integrity of the UI program. We got a lot of 
feedback, and it was all very constructive feedback. We did a 
lot of review, and the final rule, the proposed final rule was 
sent over to OMB yesterday.
    So that process now begins over at OMB because I remember--
I had a whole list of things that I knew that we needed to get 
done. This was a mandate that Congress gave us, and we take 
that responsibility very seriously. So it went over, I think, 
yesterday, if my memory serves me. But it is over at OMB.
    Mr. Cole. Did the hearing have any force in triggering----
    Secretary Perez. Oh, come on, Mr. Chairman.
    [Laughter.]
    Secretary Perez. The overtime rule went over yesterday as 
well. So----
    Mr. Cole. Yes.
    Secretary Perez [continuing]. You know, one could argue 
that maybe one should wait until the end of a hearing to send 
that over, but that is not what we do. When we are ready to 
send something over----
    Mr. Cole. No, no, I just----
    Secretary Perez [continuing]. We send them over.
    Mr. Cole. Deadlines sometimes are helpful.
    Secretary Perez. There is nothing like a deadline to focus 
the mind.
    Mr. Cole. Yes, we are not going to have too much time left. 
So I am going to stop my questioning at that point to make sure 
that every Member has an opportunity to get at least one more 
question in, if we may?
    Secretary Perez. Okay. Great.
    Mr. Cole. With that, I will go to the gentlelady from 
Connecticut.
    Secretary Perez. Thank you, sir.

                     ENDING LONG-TERM UNEMPLOYMENT

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    A quick question, if I might, on long-term unemployment. We 
talked about expanding reemployment services for UI. I just 
wanted to bring to your attention, I think you know about it, 
the Platform to Employment Program, the P2E program that 
Connecticut has undertaken and, I might add, quite 
successfully.
    Nearly 80 percent of Connecticut participants who complete 
the preparatory program take the next step into a work 
experience at a local company. Of this population, nearly 90 
percent have moved to employer payrolls.
    How does your budget deal with leveraging these public-
private partnerships to help a P2E program succeed?
    Secretary Perez. Sure. When you look at the success, 
whether it is Oklahoma, Maryland, or Connecticut in the 
workforce space, it is a joint venture of Federal, State, and 
local governments and the private sector, educators, 
nonprofits, faith communities, tribes and others. This is no 
different.
    The work we have made and the progress we have made on 
long-term unemployed has been a function of the fact that there 
has been remarkable innovation. We know--we have a much better 
idea today of what works than we did 5 years ago, and let me 
give you one quick example.
    There is a tool in our toolbox in the workforce system. We 
call it on-the-job training. What it really is, is we will 
subsidize your wage for a certain period of time. So an 
employer looks at a worker who has got an 18-month gap on her 
resume. Katherine Hackett from Connecticut----
    Ms. DeLauro. Right.
    Secretary Perez [continuing]. Is an example. Remarkably 
talented, but you know, but for the grace of God could have 
been any of us who lost their job. This employer looked at her 
and said, you know, she has like 70 percent of what I need. 
Then we give them that final push. So we subsidize the wage for 
a certain period of time, and then at the end, it is the 
employer's choice whether they keep them or not.
    We have an over 90 percent success rate with this program, 
and we have targeted it in many communities to the long-term 
unemployed, and it has been tremendously successful across 
different sectors. So unemployed engineers who are in their 
fifties and confronting a number of barriers, but with 
remarkable talent.
    So we have learned so much. You know, a crisis does create 
opportunities to learn and then move forward.

                     DOL WORKER PROTECTION AGENCIES

    Ms. DeLauro. Let me ask about worker protection agencies at 
the department. OSHA and MSHA protect workers from health and 
safety hazards. Wage and Hour makes sure workers aren't cheated 
out of their wages. OFCCP enforces rules for Federal 
contractors against discrimination on race, sex, religion, 
disability. EBSA ensures retirement savings and health benefits 
are secure.
    These programs, Mr. Secretary, were flat funded last year, 
despite the $66,000,000,000 increase in defense and nondefense. 
It is not just the refusal to fund the initiatives. Agencies 
rely on personnel. Flat funding means absorbing small pay 
raises, annual increases in healthcare costs by reducing staff 
levels, or foregoing necessary procurements. You can't do more 
with less. You can only do less with less.
    So I won't go into the numbers here, but you have got OSHA 
built-in cost last year, $17,000,000. MSHA, $9,000,000. Wage 
and Hour, $6,000,000. OFCCP, about $5,000,000. Total 
$40,000,000, and yet the cumulative increase for these five 
agencies last year was negative $1,000,000.
    How does the funding freeze affect your agencies, and how 
it is affecting the ability to protect low-income workers?
    Secretary Perez. Well, it affects safety. I mean, OSHA, in 
the best of days, I think would take over 100 years to visit 
every employer in America. So we have got to be strategic about 
it. When we have less resources, we have more potential for 
danger, and that not only hurts workers, but it hurts employers 
who play by the rules.
    Because if you have a speed limit sign that says ``speed 
limit 40 miles an hour,'' but underneath it, it says ``self-
enforcement,'' you are going to end up with a lot of speeders 
and a lot of accidents. That is why we have done our level best 
to partner with States, and we do so on misclassification with 
States--Utah, Texas, Massachusetts. We are doing partnerships 
with local governments.
    But the reality is it hurts, and we know that there are 
low-wage workers who are getting abused, and we do our level 
best to help, but there is only so much help we can do. There 
are only so many hours in a day.
    Ms. DeLauro. Thank you.

                        DOL REGULATORY SCHEDULE

    I just want to get final assurance to the subcommittee that 
the administration is finalizing several of these long-awaited 
rules that protect worker safety and ensure that workers keep 
their hard-earned money. I would like to know if we will see 
finalized rules in the near future for the following three 
regulations--silica, fiduciary rule, and you mentioned overtime 
pay, which was you said went to OMB yesterday.
    Secretary Perez. Thank you.
    Ms. DeLauro. Final, are we----
    Secretary Perez. Oh, yes. We are moving forward----
    Ms. DeLauro. The fiduciary rule?
    Secretary Perez. The conflict of interest rule was sent to 
OMB.
    Ms. DeLauro. It went to OMB?
    Secretary Perez. Over a month ago. Overtime was sent 
yesterday. The UI one was sent yesterday.
    Ms. DeLauro. Silica?
    Secretary Perez. Silica was sent in December, I believe.
    Ms. DeLauro. Okay.
    Secretary Perez. They are all under review at OMB. Then 
there was an NPRM on the regulation to implement the executive 
order on paid leave----
    Ms. DeLauro. Paid leave.
    Secretary Perez [continuing]. That went over to OMB I want 
to say 2, 3 weeks ago.
    Ms. DeLauro. Okay. Mr. Secretary, many thanks.
    Mr. Cole. Mr. Secretary, I am glad you know that you drive 
the GW Parkway on a regular basis as well. So----
    [Laughter.]
    Mr. Cole [continuing]. With that, I go to my good friend 
Mr. Harris for what is probably the last question of the 
hearing.

                            OSHA RULEMAKING

    Mr. Harris. Thank you very much.
    Just to follow up on the gentleman from Pennsylvania with 
regards to the retail facilities language in the omnibus, you 
know, it also had other directives--for OSHA to establish new 
classification code for retailers, carry out all notice and 
comment rulemaking procedures, which I would--I don't know if 
that is--you know, maybe in a QFR, you will--you can respond as 
to where that stands.
    The other thing, just from a chemical point of view, you 
bring up west Texas. But you know, all ammonia--I am sorry, 
ammonia and ammonium is not the same. You know, it is anhydrous 
ammonia in west Texas, highly dangerous. And yet the new retail 
rule is going to deal with the sale of ammonium nitrate, which 
is a fertilizer, which again is my concern because of a rural 
area.
    But let me just follow up with the silica, a question about 
the silica. And this should be a pretty straightforward one, I 
think--I hope--for you to answer is that the new silica rule is 
going to set up where the employers have 180 days to test for 
exposure and to determine how they are going to comply with the 
rule. And obviously, that new rule is going to result in 
thousands and hundreds of thousands of samples having to be 
sent to reference labs to determine silica levels.
    But OSHA is going to give the labs 2 years to be in 
compliance with the lab improvement requirement. So you have 
got the labs, which have 2 years to kind of demonstrate that 
they can actually do this, and yet the employers have only 180 
days to actually do this and implement the changes.
    So if an employer--if a lab does not--is not OSHA certified 
its compliance with the lab improvement requirements, is OSHA 
still going to use those lab results from the noncertified 
compliant lab in order to enforce employer regulations? I mean, 
if you get the disconnect?
    I mean, employers have 180 days, but they are going to use 
labs that may not be compliant for 2 years.
    Secretary Perez. Well, you are referring to issues that 
were in the NPRM, the proposed rule. We had a very lengthy 
process, and now we are--we have been in the process of 
reviewing all the rules and issuing a final rule. So I can't 
comment on the specifics. But what I can say is when we publish 
a final rule, we will be happy to explain how we resolved that 
and any other issue that you might have.
    Mr. Harris. See, I knew you could hit that one out of the 
ballpark.
    Thank you very much, Mr. Secretary. [Laughter.]
    Mr. Cole. The gentlelady from Connecticut asked for an 
additional question. So she is recognized to pose it.
    Ms. DeLauro. It really isn't an additional question, but I 
just wanted to say with regard to silica, which has a 
devastating effect on workers' health, as we know--classified 
as a carcinogen--Department of Labor has been trying to address 
the dangers for 80 years. In 1937, Secretary of Labor Frances 
Perkins announced the findings of a report linking silicosis to 
workplace exposure.
    1938, Frances Perkins held a national silicosis conference 
and initiated a campaign to ``stop silicosis,'' stating, and I 
quote, ``Our job is one of applying techniques and principles 
to every known silica dust hazard in American industry. We know 
the methods of control. Let us put them into practice.''
    Mr. Secretary, thank you, thank you, thank you for this 
effort and helping to make a difference in the health and 
safety of American workers.
    Secretary Perez. We have the grainy video of----
    Ms. DeLauro. I want it.
    Secretary Perez [continuing]. Frances Perkins, by the way. 
She wears hip hats, just like Congresswoman DeLauro. 
[Laughter.]
    Secretary Perez. I don't know if she was called a hipster 
back then, but----

                           CLOSING STATEMENTS

    Mr. Cole. Mr. Secretary, this won't be our last opportunity 
to work with you, but it is probably your last appearance 
before this committee in a formal setting. So I just want to 
take the opportunity to publicly thank you. You have always 
been responsive to our questions.
    And even when we have disagreed on issues, you have always 
been agreeable and professional in arguing your case and the 
administration's case. And I just appreciate the years of 
public service, both before you arrived here and in this 
capacity and look forward to working with you for the remainder 
of your tenure.
    Secretary Perez. Me, too. It is a privilege to be with you. 
In a town where all too frequently, we lose sight of things 
like civility, you are a remarkable example of how to get 
things done and get things done in a manner that is respectful 
and really moves the ball forward. So it is always a privilege.
    Mr. Cole. You are very kind. So we are now adding a trip to 
Oklahoma to your travel. [Laughter.]
    Mr. Cole. With that, we are adjourned.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
                           W I T N E S S E S

                              ----------                              
                                                                   Page

Burwell, Hon. Sylvia.............................................     6

Enomoto, Kana....................................................   225

Perez, Hon. Thomas E.............................................   300

Spencer, Wendy...................................................   188

                                  [all]
</pre></body></html>
